<html>
<title> - OPERATION FAST AND FURIOUS: MANAGEMENT FAILURES AT THE DEPARTMENT OF JUSTICE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
 OPERATION FAST AND FURIOUS: MANAGEMENT FAILURES AT THE DEPARTMENT OF 
                                JUSTICE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 2, 2012

                               __________

                           Serial No. 112-103

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
72-915                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e483948ba4879197908c818894ca878b89ca">[email&#160;protected]</a>  


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 2, 2012.................................     1
Statement of:
    Holder, Eric H., Jr., Attorney General of the United States..   124
Letters, statements, etc., submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................   213
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, letter dated January 30, 2012.......     5
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona, prepared statement of....................   214
    Holder, Eric H., Jr., Attorney General of the United States, 
      prepared statement of......................................   128
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California:
        Discovery documents.............................. 187, 191, 195
        Memo dated February 1, 2012..............................   102
    Speier, Hon. Jackie, a Representative in Congress from the 
      State of California, memo dated November 16, 2007..........   183


 OPERATION FAST AND FURIOUS: MANAGEMENT FAILURES AT THE DEPARTMENT OF 
                                JUSTICE

                              ----------                              


                       THURSDAY, FEBRUARY 2, 2012

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:13 a.m., in 
room 2154, Rayburn House Office Building, Hon. Darrell E. Issa 
(chairman of the committee) presiding.
    Present: Representatives Issa, Burton, Platts, McHenry, 
Jordan, Chaffetz, Walberg, Lankford, Amash, Buerkle, Gosar, 
Labrador, Meehan, DesJarlais, Walsh, Gowdy, Ross, Guinta, 
Farenthold, Kelly, Cummings, Towns, Maloney, Norton, Kucinich, 
Tierney, Clay, Lynch, Cooper, Connolly, Quigley, Davis, Welch, 
Yarmuth, Murphy, and Speier.
    Staff present: Ali Ahmad, communications advisor; Michael 
R. Bebeau, assistant clerk; Robert Borden, general counsel; 
Molly Boyl, parliamentarian; Lawrence J. Brady, staff director; 
Sharon Casey, senior assistant clerk; Steve Castor, chief 
counsel, investigations; John Cuaderes, deputy staff director; 
Carlton Davis, Jessica L. Donlon, and Mitchell S. Kominsky, 
counsels; Kate Dunbar, legislative assistant; Adam P. Fromm, 
director of Member services and committee operations; Linda 
Good, chief clerk; Christopher Hixon, deputy chief counsel, 
oversight; Henry J. Kerner, senior counsel for investigations; 
Justin LoFranco, deputy director of digital strategy; Mark D. 
Marin, director of oversight; Ashok M. Pinto, deputy chief 
counsel, investigations; Laura L. Rush, deputy chief clerk; 
Rebecca Watkins, press secretary; Jeff Wease, deputy CIO; 
Beverly Britton Fraser, Peter Kenny, and Carlos Uriarte, 
minority counsels; Kevin Corbin, minority deputy clerk; Ashley 
Etienne, minority director of communications; Susanne Sachsman 
Grooms, minority chief counsel; Devon Hill, minority staff 
assistant; Jennifer Hoffman, minority press secretary; Carla 
Hultberg, minority chief clerk; Adam Koshkin, minority staff 
assistant; Lucinda Lessley, minority policy director; Scott 
Lindsay, minority senior counsel; and Dave Rapallo, minority 
staff director.
    Chairman Issa. The committee will come to order.
    The Oversight Committee's mission statement is that we 
exist to secure two fundamental principles: First, Americans 
have a right to know that the money Washington takes from them 
is well spent; and, second, Americans deserve an efficient, 
effective government that works for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to taxpayers, because taxpayers 
have a right to know what they get from their government. Our 
job is to work tirelessly in partnership with citizen watchdogs 
to deliver the facts to the American people and bring genuine 
reform to the bureaucracy.
    I will now recognize myself for an opening statement.
    Today, we are joined by the Attorney General of the United 
States over a matter that this committee has invested more than 
a year in research.
    In November 2009, Fast and Furious opens.
    In December 2009, DEA meets with the ATF and gives them 
info on Fast and Furious targets, info that could have well 
ended the operation.
    On January 6, 2010, Fast and Furious becomes, in fact, a 
joint exercise.
    On March 15, 2010, the first Federal wiretaps are issued in 
this case.
    On December 15, 2010, December 15, 2010, Brian Terry is 
murdered with weapons found at the scene that came from Fast 
and Furious.
    On January 27th, Senator Grassley first asked the 
Department of Justice about Fast and Furious; and within days 
we are given a false statement of facts, denying that guns were 
ever allowed to walk. Within days of that, we began to know 
that Fast and Furious was going to be difficult.
    That was more or less Groundhog Day a year ago. Today is 
Groundhog Day again. This committee has lost its patience to 
wait longer. We will not wait until next Groundhog Day to get 
answers for the American people, for Brian Terry, and for 
others.
    On March 3, 2011, John Dodson goes public. Agent Dodson is 
here today. He, too, deserves to have this nightmare of 
uncertainty, of having a temporary assignment, of not being 
allowed to do the job for which he has dedicated his career put 
behind him.
    On October 11th, after months and months and months of this 
committee trying to get further voluntary cooperation, we 
issued subpoenas for documents. To date, we have been told two 
things. First of all, they are difficult and time-consuming to 
give us, and yet 10 times as many documents were provided to 
the Inspector General. More than three times as many people 
have been able to be interviewed by the Attorney--I'm sorry, by 
the IG, the Inspector General--sorry, Mr. Attorney General--by 
your Inspector General. During that period of time, 
whistleblowers have consistently brought us additional 
information. That information allows us to glean more than most 
of the documents we have received through discovery.
    The minority can say what they want and issue the opinions 
they want, the memos they want. They have been absent from 
this, and I am disappointed for that. This is a legitimate 
requirement of this committee to get to the bottom of it and to 
get genuine change so this cannot happen again--and I repeat--
the genuine change, the safeguards, the protections that were 
not there apparently before so this cannot happen again.
    Mr. Attorney General, as we go through questioning, my 
question will be when is the primary investigative committee of 
Congress, of the U.S. House, going to be allowed to have the 
same access that your own essentially self-appointed Inspector 
General has?
    The IG, if you will, the 12,000 people of the Inspector 
General's Office throughout the government are important, and 
we expect them to be respected, and we expect them to receive 
information. But the 70 men and women that work for the 
majority and the 30 or so that work for the minority are a very 
small fraction of that.
    We ask very little of government by comparison to what the 
internal controls historically and always will ask for. Our 
budget is less than 1/20th of what the Inspector General's 
Office is. We are not an agency that can ask for vast amounts 
of documents. We have asked you for documents, and if you look 
at the totality of government, we have asked for very little 
compared to the IG's offices.
    We believe--and I think the ranking member will join me in 
this--that we deserve those answers in at least as timely a 
fashion as your own IG gets. It is our opinion that we haven't 
gotten that, that the need for overmanaging and redacting and 
careful looking by teams of lawyers have gotten in the way of 
the legitimate speed with which we should get that.
    We are going to ask you many things today. Hopefully, you 
came prepared to know a great deal about Fast and Furious. The 
important things that I am going to ask today are: What can you 
do to bring this to a close? What can you do before the IG 
completes her investigation to allow the American people to see 
change that tells them this is no longer going on and it won't 
go on in the future?
    Last, before I recognize the ranking member, it is this 
majority at least committee's belief that this is an operation 
that included reckless behavior at ATF; failure to push harder 
and inform more by DEA and the FBI; a U.S. attorney who clearly 
didn't do his job in a way that anyone should be proud of. We 
now have a Justice Department official who has taken the Fifth. 
We have moved up a ways, and all of those people should be 
ashamed that Brian Terry is dead because they didn't do as good 
a job as they should. Kenneth Melson has said that publicly and 
privately, that he bears a great deal of that blame.
    The point here today is we want to know how Justice will 
oversee every local operation, every State, every one of the 
various agencies that are either under your authority or in a 
joint task force become under your authority, how you will 
ensure for the American people that this will not happen again, 
or at least the systems are in place to give us the confidence 
that it is much more unlikely to happen.
    Those are the items that I come here today, asked you to 
come here today for, and I appreciate your being here 
voluntarily to answer. It is the committee's responsibility to 
ask. I hope we will get the answers and the commitments today 
that we ask for.
    I recognize the ranking member for his opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman, and I want 
to welcome the Attorney General today.
    Mr. Chairman, when the committee started this investigation 
almost a year ago, you and I made pledges to the family of 
Agent Brian Terry to find out what led to the release of 
hundreds of firearms to criminal networks on both sides of the 
border. We pledged to follow the facts wherever they may lead 
and provide the public with answers.
    Mr. Chairman, I want to acknowledge your efforts here. Over 
the past year, we devoted incredible amounts of time, money, 
and energy to investigating this issue. We interviewed 22 
witnesses, including senior officials at the Department of 
Justice and ATF. We also reviewed thousands of pages of 
documents, and we held four full committee hearings on this 
very topic.
    Because of our extensive work, we have had concrete 
results. The committee has exposed a 5-year--5-year pattern of 
gun-walking operations run by the Phoenix division of ATF and 
the Arizona U.S. Attorney's Office. More importantly, we have 
put a stop to it. This is a significant accomplishment, and I 
commend you for it.
    In addition, we can now explain to the public how this 
series of reckless operations originated and evolved over the 
past 5 years. I ask unanimous consent to place into the record 
a report I sent to Members earlier this week.
    Chairman Issa. Without objection, so ordered.
    Mr. Cummings. Thank you, Mr. Chairman.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2915.001
    
    [GRAPHIC] [TIFF OMITTED] T2915.002
    
    [GRAPHIC] [TIFF OMITTED] T2915.003
    
    [GRAPHIC] [TIFF OMITTED] T2915.004
    
    [GRAPHIC] [TIFF OMITTED] T2915.005
    
    [GRAPHIC] [TIFF OMITTED] T2915.006
    
    [GRAPHIC] [TIFF OMITTED] T2915.007
    
    [GRAPHIC] [TIFF OMITTED] T2915.008
    
    [GRAPHIC] [TIFF OMITTED] T2915.009
    
    [GRAPHIC] [TIFF OMITTED] T2915.010
    
    [GRAPHIC] [TIFF OMITTED] T2915.011
    
    [GRAPHIC] [TIFF OMITTED] T2915.012
    
    [GRAPHIC] [TIFF OMITTED] T2915.013
    
    [GRAPHIC] [TIFF OMITTED] T2915.014
    
    [GRAPHIC] [TIFF OMITTED] T2915.015
    
    [GRAPHIC] [TIFF OMITTED] T2915.016
    
    [GRAPHIC] [TIFF OMITTED] T2915.017
    
    [GRAPHIC] [TIFF OMITTED] T2915.018
    
    [GRAPHIC] [TIFF OMITTED] T2915.019
    
    [GRAPHIC] [TIFF OMITTED] T2915.020
    
    [GRAPHIC] [TIFF OMITTED] T2915.021
    
    [GRAPHIC] [TIFF OMITTED] T2915.022
    
    [GRAPHIC] [TIFF OMITTED] T2915.023
    
    [GRAPHIC] [TIFF OMITTED] T2915.024
    
    [GRAPHIC] [TIFF OMITTED] T2915.025
    
    [GRAPHIC] [TIFF OMITTED] T2915.026
    
    [GRAPHIC] [TIFF OMITTED] T2915.027
    
    [GRAPHIC] [TIFF OMITTED] T2915.028
    
    [GRAPHIC] [TIFF OMITTED] T2915.029
    
    [GRAPHIC] [TIFF OMITTED] T2915.030
    
    [GRAPHIC] [TIFF OMITTED] T2915.031
    
    [GRAPHIC] [TIFF OMITTED] T2915.032
    
    [GRAPHIC] [TIFF OMITTED] T2915.033
    
    [GRAPHIC] [TIFF OMITTED] T2915.034
    
    [GRAPHIC] [TIFF OMITTED] T2915.035
    
    [GRAPHIC] [TIFF OMITTED] T2915.036
    
    [GRAPHIC] [TIFF OMITTED] T2915.037
    
    [GRAPHIC] [TIFF OMITTED] T2915.038
    
    [GRAPHIC] [TIFF OMITTED] T2915.039
    
    [GRAPHIC] [TIFF OMITTED] T2915.040
    
    [GRAPHIC] [TIFF OMITTED] T2915.041
    
    [GRAPHIC] [TIFF OMITTED] T2915.042
    
    [GRAPHIC] [TIFF OMITTED] T2915.043
    
    [GRAPHIC] [TIFF OMITTED] T2915.044
    
    [GRAPHIC] [TIFF OMITTED] T2915.045
    
    [GRAPHIC] [TIFF OMITTED] T2915.046
    
    [GRAPHIC] [TIFF OMITTED] T2915.047
    
    [GRAPHIC] [TIFF OMITTED] T2915.048
    
    [GRAPHIC] [TIFF OMITTED] T2915.049
    
    [GRAPHIC] [TIFF OMITTED] T2915.050
    
    [GRAPHIC] [TIFF OMITTED] T2915.051
    
    [GRAPHIC] [TIFF OMITTED] T2915.052
    
    [GRAPHIC] [TIFF OMITTED] T2915.053
    
    [GRAPHIC] [TIFF OMITTED] T2915.054
    
    [GRAPHIC] [TIFF OMITTED] T2915.055
    
    [GRAPHIC] [TIFF OMITTED] T2915.056
    
    [GRAPHIC] [TIFF OMITTED] T2915.057
    
    [GRAPHIC] [TIFF OMITTED] T2915.058
    
    [GRAPHIC] [TIFF OMITTED] T2915.059
    
    [GRAPHIC] [TIFF OMITTED] T2915.060
    
    [GRAPHIC] [TIFF OMITTED] T2915.061
    
    [GRAPHIC] [TIFF OMITTED] T2915.062
    
    [GRAPHIC] [TIFF OMITTED] T2915.063
    
    [GRAPHIC] [TIFF OMITTED] T2915.064
    
    [GRAPHIC] [TIFF OMITTED] T2915.065
    
    [GRAPHIC] [TIFF OMITTED] T2915.066
    
    [GRAPHIC] [TIFF OMITTED] T2915.067
    
    [GRAPHIC] [TIFF OMITTED] T2915.068
    
    [GRAPHIC] [TIFF OMITTED] T2915.069
    
    [GRAPHIC] [TIFF OMITTED] T2915.070
    
    [GRAPHIC] [TIFF OMITTED] T2915.071
    
    [GRAPHIC] [TIFF OMITTED] T2915.072
    
    [GRAPHIC] [TIFF OMITTED] T2915.073
    
    [GRAPHIC] [TIFF OMITTED] T2915.074
    
    [GRAPHIC] [TIFF OMITTED] T2915.075
    
    [GRAPHIC] [TIFF OMITTED] T2915.076
    
    [GRAPHIC] [TIFF OMITTED] T2915.077
    
    [GRAPHIC] [TIFF OMITTED] T2915.078
    
    [GRAPHIC] [TIFF OMITTED] T2915.079
    
    [GRAPHIC] [TIFF OMITTED] T2915.080
    
    [GRAPHIC] [TIFF OMITTED] T2915.081
    
    [GRAPHIC] [TIFF OMITTED] T2915.082
    
    [GRAPHIC] [TIFF OMITTED] T2915.083
    
    [GRAPHIC] [TIFF OMITTED] T2915.084
    
    [GRAPHIC] [TIFF OMITTED] T2915.085
    
    [GRAPHIC] [TIFF OMITTED] T2915.086
    
    [GRAPHIC] [TIFF OMITTED] T2915.087
    
    [GRAPHIC] [TIFF OMITTED] T2915.088
    
    [GRAPHIC] [TIFF OMITTED] T2915.089
    
    [GRAPHIC] [TIFF OMITTED] T2915.090
    
    [GRAPHIC] [TIFF OMITTED] T2915.091
    
    [GRAPHIC] [TIFF OMITTED] T2915.092
    
    [GRAPHIC] [TIFF OMITTED] T2915.093
    
    [GRAPHIC] [TIFF OMITTED] T2915.094
    
    [GRAPHIC] [TIFF OMITTED] T2915.095
    
    Mr. Cummings. This 95-page report, called Fatally Flawed: 
Five Years of Gun-Walking in Arizona, provides a detailed and 
comprehensive account of what we learned in our investigation. 
It documents how suspects in 2006 and 2007 trafficked more than 
450 firearms during Operation Wide Receiver as ATF agents, who 
knew they had probable cause, chose not to make arrests in 
order to build bigger cases. As one field agent said at the 
time, ``We want it all.''
    It documents the Hernandez case in 2007 in which suspects 
purchased 200 firearms as ATF failed repeatedly to coordinate 
interdiction with Mexican officials. Despite alerting then 
Attorney General Mukasey about these failed operations, they 
continued.
    It documents the Medrano case in 2008 in which ATF agents 
watched in real time as suspects who were part of a trafficking 
ring that bought more than 100 firearms packed weapons into the 
back seat of a car and drove them across the border.
    It documents operation Fast and Furious, during which the 
same ATF Special Agent in charge of the Phoenix field division 
in all three previous operations chafed against an order from 
the Deputy Director of ATF to shut down the operation. As the 
agent stated, ``I don't like headquarters driving our cases.'' 
Instead, field agents continued to encourage gun dealers to 
sell firearms to suspects for months.
    There are several things that our investigation did not 
find. We found no evidence that agents or prosecutors in 
Arizona acted in bad faith. They sincerely wanted to put away 
gun traffickers and higher-level targets. In pursuit of that 
goal, however, they lost sight of predictable collateral damage 
of letting guns walk.
    In addition, contrary to many unsubstantiated allegations, 
the committee obtained no evidence indicating that the Attorney 
General authorized gun-walking. None of the 22 witnesses we 
interviewed claimed to have spoken with the Attorney General 
about the tactics used in Operation Fast and Furious before 
this controversy broke.
    Mr. Chairman, although you deserve credit for exposing 
these operations over the last 5 years, we part ways in what we 
should do next. You now appear intent on escalating controversy 
and promoting unsubstantiated allegations in a campaign that 
looks more like an election year witch hunt than even-handed 
investigation.
    This is the sixth time--the sixth time the Attorney General 
has testified on these issues. In contrast, you have never once 
called the former head of the ATF to testify at a public 
hearing, even though ATF was the agency responsible for these 
reckless programs. And although Attorney General Holder has 
answered questions repeatedly, you refuse to even interview 
former Attorney General Mukasey.
    When I was just starting as a lawyer some 30-some years 
ago, the senior partner in the law firm said to me, young man, 
you have to take the facts as you find them. You cannot 
manufacture them.
    Now that we have the facts, I hope that we can put aside 
the politics and the rhetoric and focus on concrete reforms to 
ensure that this never, ever, never, ever happens again.
    With that, I yield back.
    Chairman Issa. I thank the gentleman.
    Now I ask unanimous consent that the majority memo and 
related materials be entered in the record.
    Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2915.105
    
    [GRAPHIC] [TIFF OMITTED] T2915.106
    
    [GRAPHIC] [TIFF OMITTED] T2915.107
    
    [GRAPHIC] [TIFF OMITTED] T2915.108
    
    [GRAPHIC] [TIFF OMITTED] T2915.109
    
    [GRAPHIC] [TIFF OMITTED] T2915.110
    
    [GRAPHIC] [TIFF OMITTED] T2915.111
    
    [GRAPHIC] [TIFF OMITTED] T2915.112
    
    [GRAPHIC] [TIFF OMITTED] T2915.113
    
    [GRAPHIC] [TIFF OMITTED] T2915.114
    
    [GRAPHIC] [TIFF OMITTED] T2915.115
    
    [GRAPHIC] [TIFF OMITTED] T2915.116
    
    [GRAPHIC] [TIFF OMITTED] T2915.117
    
    [GRAPHIC] [TIFF OMITTED] T2915.118
    
    [GRAPHIC] [TIFF OMITTED] T2915.119
    
    [GRAPHIC] [TIFF OMITTED] T2915.120
    
    [GRAPHIC] [TIFF OMITTED] T2915.121
    
    [GRAPHIC] [TIFF OMITTED] T2915.122
    
    [GRAPHIC] [TIFF OMITTED] T2915.123
    
    [GRAPHIC] [TIFF OMITTED] T2915.124
    
    [GRAPHIC] [TIFF OMITTED] T2915.125
    
    [GRAPHIC] [TIFF OMITTED] T2915.126
    
    Chairman Issa. I will now recognize myself for 5 minutes--
oh, I am sorry. I am a little off on that. To be honest, I just 
thought I would respond to a few of your things, but that will 
wait.
    Mr. Attorney General, we are pleased to have you here. As 
the highest-ranking law official in the land, we appreciate 
your commitment to the time, both here and in the Senate, that 
you have given.
    Contrary to the ranking member, I believe that today will 
be one of the first times in which you are fully briefed and 
prepared to answer in detail questions exclusively about Fast 
and Furious; and I would caution both sides of the aisle to 
stick to the subject. We are not--and I repeat--we are not the 
Judiciary Committee. The Attorney General is not here to answer 
a plethora of questions we may have about the conduct of his 
office. He is not here to generally tell us about law 
enforcement. I will assert the gavel if someone goes on a broad 
expedition beyond Fast and Furious and, as the ranking member 
said, related activities, including Wide Receiver and others. I 
think respect for the Attorney General's time and the 
legitimate portion of the jurisdiction that our committee has 
taken requires that I ask all of you to please stick to that, 
particularly since the Attorney General's time is valuable.
    Mr. Attorney General, pursuant to the rules of the 
committee, I would ask that you rise and take the oath.
    [Witness sworn.]
    Chairman Issa. Let the record represent an affirmative 
answer. Thank you, Mr. Attorney General.
    In order to allow time for discussion, the committee, like 
all committees, will tell you to stay within 5 minutes. I in 
fact have no intention on picking up the gavel as long as you 
present what you have here today.
    I would ask that to the greatest extent possible that you 
realize that your opening statement in its written form is 
completely in the record and that you certainly have our 
permission to include material not in the record in order to 
further delineate your prepared testimony today.
    With that, Mr. Attorney General, you are recognized.

   STATEMENT OF ERIC H. HOLDER, JR., ATTORNEY GENERAL OF THE 
                         UNITED STATES

    Attorney General Holder. Thank you.
    I am here today because I understand and appreciate the 
importance of congressional oversight and because I am 
committed to ensuring the highest standards of integrity and 
professionalism at the U.S. Department of Justice. That is 
precisely what I pledged to do exactly 3 years ago tomorrow 
when I was sworn in as Attorney General, and it is exactly what 
I have done over the last 3 years.
    My dedication to the Department's mission is shared by an 
extraordinary group of colleagues, over 117,000 employees, who 
each day in offices all around the world work tirelessly to 
protect the American people from a range of urgent and 
unprecedented threats--from global terrorism and financial 
fraud, violent crime, human trafficking, civil rights abuses, 
and more.
    Over the last 3 years, we have made a number of significant 
improvements, including policy and personnel changes that 
address many of the concerns that are the subject of this 
hearing today. Today, I would like to discuss some of these 
improvements in specific terms and outline the steps that we 
have taken to ensure that the flawed tactics in Operation Fast 
and Furious and in earlier operations under the prior 
administration are never used again.
    Now, in some of my comments today, if they sound familiar, 
it is because this marks the sixth time that I have answered 
questions about this operation before a congressional committee 
in the last year. Let me start, however, with something that 
cannot be said enough: Allowing guns to ``walk'', whether in 
this administration or the prior one, is wholly unacceptable. I 
have been consistent on this. I have said this from day one. 
The tactic of not interdicting weapons, despite having the 
ability and legal authority to do so, appears to have been 
adopted in a misguided effort to stem the alarming number of 
illegal firearms that are trafficked each year from the United 
States to Mexico. Now, to be sure, stopping this dangerous flow 
of weapons is a laudable and critical goal, but attempting to 
achieve it by using such inappropriate tactics is neither 
acceptable nor excusable.
    That is why, when I learned early last year about the 
allegations raised by ATF agents involved with Fast and 
Furious, I took action. In addition to requesting an Inspector 
General investigation last February, I ordered that a directive 
be sent prohibiting the use of such tactics. There have also 
been important personnel changes in the Department, and vital 
reforms reflecting the lessons that we have learned from 
Operation Fast and Furious have been implemented.
    Today, I want to reaffirm my commitment to ensuring that 
these flawed tactics are never used again, and I reiterate my 
willingness to work with Congress generally and with this 
committee more specifically to address the public safety and 
national security crisis along our Southwest border that has 
taken far too many lives.
    Congress has legitimately sought answers to questions about 
law enforcement Operations Wide Receiver and Fast and Furious, 
and my colleagues and at the Department of Justice have worked 
diligently to provide those answers. In addition to my frequent 
testimony before Congress, I have answered and am continuing to 
answer questions that have been submitted for the record during 
previous hearings. The Department has also responded to more 
than three dozen letters from Members of Congress and 
facilitated numerous witness interviews. We have also submitted 
or made available for review some 6,400 pages of documents to 
congressional investigators. This has been a significant 
undertaking for Justice Department employees, and our efforts 
in this regard remain ongoing.
    We have also provided Congress with virtually unprecedented 
access to internal deliberative documents to show how 
inaccurate information was initially conveyed in a letter sent 
to Senator Grassley on February 4, 2011. These documents show 
that Department officials relied on information provided by 
supervisors from the relevant components in the best position 
to know the facts. We now know that some of the information 
that they provided was, in fact, inaccurate. We also understand 
that in subsequent interviews with congressional investigators 
these supervisors stated that they did not know at the time 
that the information that they provided was inaccurate.
    In producing internal communications regarding the drafting 
of the February 4th letter, the Department made a rare, limited 
exception to longstanding executive branch policy. This 
decision reflected unusual circumstances and allowed us to 
respond, in the most comprehensive way possible, to 
congressional concerns where the Department itself concluded 
that information in the letter was inaccurate. The documents we 
produced have answered the question of how that letter came to 
be drafted and put to rest questions of any intentional effort 
to mislead. All of our communications to Congress should be 
accurate, and that is the standard that I expect the Department 
to meet. At my direction, the Deputy Attorney General has 
instituted new procedures to increase safeguards in this area.
    As I testified in a previous hearing, the Department does 
not intend to produce additional deliberative materials--I want 
to emphasize deliberative materials--about the response to 
congressional oversight or media requests that post-date the 
commencement of congressional review. This decision is 
consistent with the longstanding approach taken by the 
Department, under both Democratic and Republican 
administrations, and reflects concerns for the constitutionally 
protected separation of powers.
    Prior administrations have recognized that robust internal 
communications would be chilled and the executive branch's 
ability to respond to oversight requests thereby impeded if our 
internal communications concerning our responses to 
congressional oversight were disclosed to Congress. For both 
branches, this would be an undesirable outcome. The appropriate 
functioning of the separation of powers requires that executive 
branch officials have the ability to communicate confidentially 
as they discuss how to respond to inquiries from Congress.
    Now, I want to note that the separation of powers concerns 
are particularly acute here, because the committee has sought 
information about open criminal investigations and 
prosecutions. This has required Department officials to confer 
on how to accommodate congressional oversight interests while 
also ensuring that critical ongoing law enforcement 
decisionmaking is never compromised and is free from even the 
appearance of political influence. Such candid internal 
deliberations are necessary to preserve the independence, the 
integrity, and the effectiveness of the Department's law 
enforcement activities and would be chilled by disclosure of 
such materials. Just as we have worked to accommodate the 
committee's legitimate oversight needs, I trust that the 
committee will equally recognize the executive branch's 
constitutional interests and will work with us to avoid further 
conflict on this matter.
    I know the committee is also keenly interested in the 
policy changes that the Department has undertaken in the wake 
of Operation Fast and Furious. The ATF, which is now under the 
leadership of Acting Director Todd Jones, has implemented a 
number of key reforms and critical oversight procedures to 
prevent such a flawed operation from occurring again. These 
reforms are numerous and include a number of things.
    I am also pleased to report that, under the leadership of 
the Department's Criminal Division, we have bolstered crime-
fighting capacity on both sides of the U.S.-Mexico border; and 
we have done this by doing a number of important things as 
well.
    This is an important start, but we have to do a lot more. 
And no one knows this better than the members of our Nation's 
law enforcement community, including--and I want to emphasize 
this--including the ATF agents who testified before this 
committee last summer. Not only did these brave agents bring 
the inappropriate and misguided tactics of Operation Fast and 
Furious to light, they also sounded the alarm for more 
effective laws to combat gun trafficking and to improve public 
safety.
    These courageous agents explained that ATF's ability to 
stem the flow of guns from the United States into Mexico 
suffers from a lack of effective enforcement tools. 
Unfortunately, in 2011, a majority of House Members, including 
all the members of the majority on this committee, voted to 
keep law enforcement in the dark when individuals purchase 
multiple semiautomatic rifles, shotguns, and long guns--like 
AK-47s--in gun shops along our Southwest border states.
    In this new year, I hope that we can work together to 
provide law enforcement agents with the tools that they say 
they desperately need and that they have requested to protect 
our citizens and to ensure their own safety. Indeed, incidents 
of violence against law enforcement officers are approaching 
the highest level that we have seen in nearly two decades, even 
though violent crime is down overall.
    That is simply unacceptable, and the Justice Department is 
committed to turning back this rising tide and to protecting 
those who serve on the front lines. We have designed and 
implemented a comprehensive new training initiative to provide 
law enforcement leaders with the information, analysis, and 
tools they need to respond to a range of threats.
    Let me be clear: Nothing is more important than ensuring 
the safety of the brave law enforcement professionals who put 
their lives at risk for us each and every day, but we can't 
make the progress we need and that the law enforcement partners 
deserve without your assistance and without your leadership.
    As I said before, I am determined to ensure that our shared 
concerns about these flawed law enforcement operations lead to 
more than worn-out Washington ``gotcha'' games and cynical 
finger pointing. The Department of Justice stands ready to work 
with you not only to correct the mistakes of the past but also 
to strengthen our law enforcement capacity in the future.
    Thank you.
    Chairman Issa. I thank the gentleman.
    [The prepared statement of Attorney General Holder 
follows:]

[GRAPHIC] [TIFF OMITTED] T2915.096

[GRAPHIC] [TIFF OMITTED] T2915.097

[GRAPHIC] [TIFF OMITTED] T2915.098

[GRAPHIC] [TIFF OMITTED] T2915.099

    Chairman Issa. Before I begin my questioning, Mr. Attorney 
General, would you agree to release to us legal opinions on the 
constitutionality of the material that you have thus far 
refused to supply the committee?
    Attorney General Holder. To the extent that there are legal 
opinions, I will look at them; and to the extent that they can 
be provided, I have no objection to that. I don't know if these 
are OLC opinions that OLC would have an objection to providing. 
But to the extent that I can, I will make those available to 
you.
    Chairman Issa. Okay.
    I will begin my questioning I guess by following up.
    Mr. Attorney General, you have--the executive branch has 
executive privilege. It is narrow. It is well defined. There is 
case law. If you do not find a legitimate basis to deny us the 
material we have asked for, we will seek the remedies necessary 
to compel.
    Having said that, I appreciate your being here today; and I 
don't want to waste any of your or my time on this at this 
point.
    Let's go through a couple of items here.
    First of all, it is reported through discovery that we have 
received that Mr. Monty Wilkinson may have informed you of 
Agent Terry's murder in a timely fashion. Is that true?
    Attorney General Holder. He may have. I know the murder 
occurred December 14th. I heard about it I think probably 
within 24 hours. I don't know if it came from Monty Wilkinson 
or from some other member of my staff, but I knew about the 
murder within 24 hours of its occurrence.
    Chairman Issa. When you were informed about that within 24 
hours, did anyone inform you or allude to the fact that the 
weapons found at the scene were from Fast and Furious?
    Attorney General Holder. No. I didn't know about Operation 
Fast and Furious until the beginning parts of 2011 after I 
received that letter from Senator Grassley I guess at the end 
of January, and then that was about Operation Gunrunner. I 
actually learned about the Fast and Furious operation in 
February of that year.
    Chairman Issa. Would you make available to us through 
whatever records you can find the name of the person who 
informed you so that we can ascertain why that individual would 
not or did not tell you what was widely known almost 
immediately, that in fact law enforcement allowed weapons 
walked--basically, that these were Fast and Furious weapons? 
The emails that we have received through whistleblowers show us 
extensively that law enforcement was aware and concerned about 
it. We would like to know why someone kept that from you.
    Attorney General Holder. I am not sure that anybody kept it 
from me. I mean, I found out about it, as I said, I think in 
January-February 2011, and I am not even sure how I found out 
about it. It might have been either through a letter I received 
from Senator Grassley on February 9th--I am not sure if it was 
contained in there. There were certainly media reports about it 
in February. Again, I am not sure exactly how I found out about 
the term ``Fast and Furious.''
    Chairman Issa. Would it be fair from your own knowledge to 
say that neither Lanny Breuer as head of the Criminal Division 
nor Jason Weinstein did anything to stop the program after they 
learned of what it was about?
    Attorney General Holder. Stop the program----
    Chairman Issa. Fast and Furious, prior to Brian Terry's 
death.
    Attorney General Holder. I mean, they both admitted that 
they were aware of Operation Wide Receiver and never connected 
the techniques that were used in Wide Receiver to Operation 
Fast and Furious and, as a result, did not take any action in 
that regard; and both have admitted that that was a mistake.
    Chairman Issa. Let's go through this. I think in my limited 
time I want to make sure that we do deal with Wide Receiver 
versus Fast and Furious.
    As of today, do your law enforcement authorities such as 
the ATF have the ability to see a straw purchase--believed 
straw purchase--and, rather than arrest them at the door with 
no evidence, follow them to the next location?
    Attorney General Holder. See them----
    Chairman Issa. In other words, does law enforcement have 
the ability to follow suspected gun traffickers with the 
weapons in their car from location to location?
    Attorney General Holder. And keep them under constant 
surveillance?
    Chairman Issa. Yes.
    Attorney General Holder. They certainly have that capacity.
    Chairman Issa. Okay. So as far as we have been reported, 
every piece of evidence shows that in Wide Receiver every 
effort was made, unsuccessfully in many cases, which is one of 
the things that concerns us, to follow the weapons. To your 
knowledge, was there ever an order under Wide Receiver to 
abandon following the weapons and let them walk?
    Attorney General Holder. Well, I would say, you know, 
during the early--as I have seen more on Wide Receiver as we 
have provided materials----
    Chairman Issa. A yes or no would be a good start, Mr. 
Attorney General. Do you know of any time in which people were 
ordered to peel off and let the guns walk under Wide Receiver?
    Attorney General Holder. I am not sure about whether they 
were ordered to or not, but I do know that in the early phases 
of the investigation observations were made of people buying 
guns and decisions made not to surveil them after those 
purchases were made. And, as a result, 100, 400--I am not sure 
exactly what the number is--of guns walked; and there were 
complaints raised by people connected to the investigation 
about the fact that guns were walking in Operation Wide 
Receiver.
    Chairman Issa. Since it was never allowed to simply let 
known straw buyers, known guns fall into illicit criminals' 
hands, have you taken any action to fire anyone or discipline 
anyone from Operation Wide Receiver?
    Attorney General Holder. Operation Wide Receiver occurred 
in the prior administration. I don't think that----
    Chairman Issa. We are not talking about political 
appointees. We were talking about people who would transcend 
the transition. Have you, to your knowledge, disciplined anyone 
from Wide Receiver?
    Attorney General Holder. No, I have not.
    Chairman Issa. Have you disciplined anyone from Fast and 
Furious?
    Attorney General Holder. No, I have not, as yet. As yet. 
There have been personnel changes made at ATF. We obviously 
have a new U.S. attorney in Arizona. We have made personnel 
switches at ATF. People have been moved out of positions.
    I am certainly going to wait and see what I get from the 
Inspector General, the report that we have from the majority. I 
don't know if the minority is going to produce--from the 
minority. I don't know if the majority is going to produce a 
report. And I will be taking all that into consideration, in 
addition to all these things I am able to find out on my own, 
and make personnel changes as I think they are appropriate.
    Chairman Issa. My time has expired. I will say that I don't 
think the minority report is going to do you a whole lot of 
good since it seems to say more or less nothing happened.
    With that, I recognize the author of the minority report, 
Mr. Cummings, for his round of questions.
    Mr. Cummings. Thank you very much, Mr. Chairman, and I 
respectfully disagree with what you just said. Our staff worked 
very hard on that report. And, by the way, it is based upon the 
evidence that the majority presented, that the majority 
presented. You all heard the same evidence that we heard, and 
we basically looked at the facts and presented them.
    Mr. Attorney General, I want to thank you again; and I am 
sorry my colleagues on the other side of the aisle have made 
completely unsubstantiated allegations against dedicated and 
hardworking FBI agents, DEA, officials and others. And I want 
to thank all of them for what they do every day to protect the 
American public.
    I face a real challenge today. I have to ignore the 
political sideshow and keep my focus on the very real problems 
that led to these flawed operations.
    As our report explains, we have no evidence that you 
approved gun-walking. We have no evidence that you knew about 
it. The same can probably be said of former Attorney General 
Mukasey. I assume that if either of you actually heard that 
gun-walking was taking place, you would have put a stop to it.
    As I review this report from my staff, however, I get a 
little bit upset. First I get upset that this happened. 
Hundreds of weapons went to criminal networks on both sides of 
the border because agents did not arrest suspects when they 
could have.
    I also get upset that this went on for so long. We 
identified four different operations in Phoenix over 5 years 
across two administrations involving hundreds of weapons, and 
these weapons put law enforcement agents in danger.
    In your written statement you noted that 177 officers lost 
their lives in the line of duty last year, and 70 of those 
deaths involved firearms. As the country's chief law 
enforcement officer, what is your reaction to the fact that 
these operations continued for so long?
    Attorney General Holder. Well, it bothers me a great deal 
when one sees the death toll that we have seen in Mexico, 40-
50,000 people have been killed over the last 5 years, 64,000 
guns traced from the United States into Mexico, and that is 
traced, which means there are probably substantially greater 
numbers of guns that have gone from the United States into 
Mexico. And the concern I have is that with these guns going 
into Mexico and cartel activities that reach into the United 
States that at some point these guns will be trained on law 
enforcement officers.
    Though we have seen an historic drop in the crime rate to 
40- and 50-year lows, we have seen a rise over the last 2 years 
in the number of police officers, Federal enforcement agents, 
who have been killed. I have been to far too many funerals, I 
have had to write far too many letters, talk to far too many 
widows about the death of brave people who have died in service 
to their country, and we have to do something about it. We have 
to.
    Mr. Cummings. The ATF Deputy Director William Hoover, an 
experienced career ATF officer, became concerned in 2010 about 
the number of weapons involved in Fast and Furious. He told us 
he did not know about gun-walking, but he ordered an exit 
strategy based on his overall concerns. He told the Phoenix 
office to end this operation within 90 days and bring 
indictments, but they didn't do it. They did not like ATF 
headquarters running their cases, and they continued for months 
to encourage gun dealers to sell to straw purchasers without 
arrest.
    During his interview, Mr. Hoover also told us that he never 
told anyone at the Department of Justice about his general 
concerns with the operation or his order for an exit strategy, 
and our interviews with Justice Department officials confirm 
that.
    So I have two questions. I understand that field agents 
don't like bureaucrats in Washington looking over their 
shoulder, but how can a field office effectively ignore the 
directives of ATF headquarters in this way? And, second, what 
specific reforms are now in place or should we consider to 
ensure better coordination and oversight?
    Attorney General Holder. Well, there is a tension between 
the field and headquarters. I have been in the field, I have 
been in headquarters, and depending on where I sit, I think 
greater wisdom exists in that place. We have to come up with 
ways in which we make clear what the policies are.
    After I heard about gun-walking--I don't know about 
Attorney General Mukasey, but after I heard about gun-walking, 
I was very firm. I had a directive sent out by the Deputy 
Attorney General to the field that indicated that those kind of 
techniques were simply unacceptable, were not to be used by the 
Department of Justice.
    Now, Todd Jones, the Acting Director at ATF, has instituted 
a number of reforms. I want to say that the report that you 
have put out contains at the back a number of suggestions with 
regard to reforms, and I think--I don't remember what the 
number is, but a substantial number of those have been 
instituted by Todd, among them coming up with ways in which we 
ensure that the trafficking of guns, the gun-walking, does not 
occur, that more levels of review have to occur.
    I think also significant, given the fact that Agent Dodson 
is here, is that we have to have ways in which at ATF people 
who have concerns about ATF operations have a greater ability, 
don't have any concerns for their careers about surfacing 
things within ATF, so that the leadership at ATF and ultimately 
back at headquarters can take the necessary corrective actions. 
But I would salute the minority report for the management 
changes and policy changes that are included in that report.
    Mr. Cummings. Thank you very much, Mr. Chairman. My time is 
up.
    Chairman Issa. Thank you.
    We now go to the former chairman of the full committee, Mr. 
Burton, for 5 minutes.
    Mr. Burton. Nice seeing you again.
    Attorney General Holder. It has been a while.
    Mr. Burton. Yes, it sure has.
    You know, it is very interesting, Mr. Attorney General, for 
6 years I remember when you were with Janet Reno and the Deputy 
Attorney General, and we fought to get documents, and we had a 
difficult time. You have said here today that there are certain 
documents that you will not give us because of the separation 
of powers. Now, we have been down that road before and we got 
them, but we had to threaten that we would have a contempt 
citation in Congress. This is not just during the Reno 
administration but during Gonzales as well. And we got the 
documents. So I think you are hiding behind something here that 
will not stand up. So you ought to give us the documents.
    Now, we received 6,000 documents with redactions. And I 
know that is an old school policy, you know. Send them up here 
and cross out everything of relevance and let us try to figure 
out what it is. And you dump them on us on Friday night so that 
the staff here can't do anything with them unless they stay 
over the weekend and work 10, 12, 14 hours. I have been down 
that road, too.
    Now, there are 93,000 documents--93,000 documents that you 
are not giving this committee; and you are saying, well, the 
separation of powers prohibits you from doing that. That is 
baloney. That is just baloney. And I have worked with you for 6 
years--well, I wouldn't say ``with'' you. I have worked for 6 
years when you were the Deputy Attorney General.
    So why don't you give us those documents? The conclusion 
that I come to is there are some things in there that are being 
hidden that you don't want us to see. I don't know if it 
involves you or some other ATF agents or some other members of 
the Justice Department. But this committee is the Oversight 
Committee, and we have every right under the Constitution to 
check on what you are doing. We are supposed to oversee the 
executive branch, and you are part of that branch.
    So for you to deny this committee anything like that is 
just dead wrong, and I don't think you are going to find any 
way that you can do it, and I would urge the chairman to move a 
contempt citation against you if you don't give them to us.
    Now, let me just ask you a couple of questions.
    Why won't you let Patrick Cunningham, the head of the 
Criminal Division in Phoenix, and Emory Hurley, a line 
prosecutor, why won't you let them come and talk to the 
committee? If you can't let them do it publicly, you ought to 
let them do it in a private setting. Why won't you let them do 
that?
    Attorney General Holder. Well, a couple of things.
    Just for the record, I was only a Deputy Attorney General 
for 4 years. It seemed like 6.
    Mr. Burton. Okay. Well, 4 years. It seemed like longer than 
that for me.
    Attorney General Holder. All right, longer than 6 for me as 
well then.
    Chairman Issa. Would the gentleman yield?
    Mr. Burton. I would be happy to yield.
    Chairman Issa. Since Mr. Cunningham has now taken the 
Fifth, I would say none of us have that direct authority.
    But to add to the gentleman's question, would you make all 
testimony and information on Mr. Cunningham immediately 
available to us unredacted so we may evaluate to a great extent 
what you know about why he took the Fifth?
    Go ahead. I yield back.
    Attorney General Holder. Well, in terms of making 
available--I am not sure where you get the number of 93,000 
documents. Those redactions that have occurred are only because 
there are things that are either not relevant or are protected 
by grand jury secrecy rules, court orders that have sealed 
material. We have provided to this committee material that is 
relevant and only redacted that which is necessary, and there 
is a key that tells you why something was redacted.
    With regard to the two people you have talked about, 
Hurley--Mr. Hurley is a line prosecutor, and we never make line 
prosecutors available. That is every Attorney General that I 
know has followed that policy. Mr. Cunningham no longer works 
in the Justice Department, and so I don't have the ability to 
compel him to testify. He left the Justice Department I think 
this past Monday or last Friday.
    Mr. Burton. You asked him to leave, I guess, didn't you?
    Attorney General Holder. No.
    Mr. Burton. You didn't?
    Attorney General Holder. No.
    Mr. Burton. He left on his own after he took the Fifth 
Amendment?
    Attorney General Holder. He had planned to leave well 
before he invoked his Fifth Amendment privilege to take a job 
in private practice--or at a company.
    Mr. Burton. As I understand it, the IG has 80,000 
documents, and you have given us 6,000. So whether we are 
talking about 93 documents or 80,000, this committee has asked 
for those and has not gotten them, and it appears as though we 
are being stonewalled and there is something that is being 
hidden.
    Let me ask you another question: Have you apologized 
personally to the whistleblowers who were in effect called 
liars by those within your own agency, when we now know they 
were telling the truth and we wouldn't know any of this today 
if they hadn't come forward? I am talking about people like 
John Dodson, who is here today, and Peter Forcelli. Have you 
apologized to them personally?
    Attorney General Holder. I have not apologized to them.
    I spoke to Mr. Dodson, Agent Dodson, at the beginning of 
the hearing when the chairman was kind enough to bring him by. 
I gave him my telephone number and told him to give me a call 
if he wants to talk about the way----
    Mr. Burton. Give you a call?
    Attorney General Holder. Give me a call.
    Mr. Burton. Why don't you call him and apologize? Because 
you are the Attorney General of the United States, and you are 
in charge of these people, and they were in effect called 
liars, and they were telling the truth. And I think, as the 
head of that agency, it should be your responsibility to say 
hey, guys, I am sorry that you were called liars when you did 
tell the truth.
    Attorney General Holder. I am not aware of them being 
called liars.
    But, beyond that, what we have tried to do is treat them 
with respect. I don't think any adverse action has been taken 
against any of the people who came here and testified before 
this committee.
    To the extent that there are concerns that Mr. Dodson has, 
I will be more than glad to talk to him about them. I will 
note, however, that he has had a meeting with the Acting 
Director of ATF and I think he has expressed whatever his 
thoughts were, at least at that time. If that has not been 
sufficient, as I said, I am more than glad to have a 
conversation with him.
    Mr. Burton. I wish you would call him.
    Thank you, Mr. Chairman.
    Chairman Issa. The gentleman's time has expired.
    Did you want to answer on the Cunningham question of 
materials in your possession now that he has left under this 
cloud?
    Attorney General Holder. Yes. I wouldn't say it was ``under 
a cloud''. But, anyway----
    Chairman Issa. Taking the Fifth is not a cloud?
    Attorney General Holder. I don't know why he took the 
Fifth. There are a variety of reasons, not the least of which 
was that apparently there was a report issued by this committee 
or a statement by this committee that he had acted 
inappropriately. I don't know why he invoked his Fifth 
Amendment privilege. That is certainly his right as an American 
citizen.
    We have provided already 153 documents with regard to Mr. 
Cunningham that entails about 387 pages of material. We will 
continue to look at that material; and to the extent there is 
information that is relevant, we will provide it to the 
committee.
    Chairman Issa. I thank you.
    We now recognize the other former chairman of the 
committee, Mr. Towns, for 5 minutes.
    Mr. Towns. Thank you very much, Mr. Chairman.
    This committee has not obtained one shred of evidence that 
would contradict your testimony, Mr. Attorney General, not one 
witness, not one document, not one email; and still some 
continue to suggest that you did personally authorize gun-
walking and the tactics in Operation Fast and Furious. I hope 
this will be the last time you have to answer this question: 
Did you, Mr. Attorney General, ever authorize gun-walking?
    Attorney General Holder. I did not, and I will say it that 
way. I am from New York, and I would say it in a different way, 
but I am going to have great respect for this committee and 
simply say I did not.
    Mr. Towns. I am from New York, so I would understand your 
answer. And, of course, my colleague next to me would, also.
    Did you ever authorize the controversial tactics employed 
in Operation Fast and Furious, the non-interdiction of illegal 
firearms, in order to build a bigger case?
    Attorney General Holder. Not only did I not authorize those 
tactics, when I found out about them I told the field and 
everybody in the U.S. Department of Justice that those tactics 
had to stop, that they were not acceptable, and that gun-
walking was to stop. That was what my reaction to my finding 
out about the use of that technique was.
    Mr. Towns. To your knowledge, did Deputy Attorney General 
Gary Grindler or Assistant Attorney General Lanny Breuer ever 
authorize gun-walking or the tactics employed in Fast and 
Furious?
    Attorney General Holder. To my knowledge, they did not.
    Mr. Towns. Let me ask this: If you had been asked to 
approve of gun-walking, what would you have done or said?
    Attorney General Holder. No. Simple.
    You know, there are questions that you have in public 
corruption cases when you are trying to decide are you going to 
let the money walk. There are questions that you have in 
narcotics cases if you are going to let the drugs walk so that 
you can make a case. You have spirited conversations about 
that, and I can understand how there will be differing 
opinions.
    The notion that you would let guns walk in a firearms case 
is for me absurd, absurd, and it was the reason why I said it 
cannot happen. While we stopped it, it is not DOJ policy, and 
anybody who does it now is breaking a direct directive from the 
Attorney General of the United States.
    Mr. Towns. So if you had been asked or told by ATF or the 
U.S. Attorney's Office about the tactics in Operation Fast and 
Furious, how would you have acted or responded?
    Attorney General Holder. In the same way that I did I think 
in early March 2011, by telling everybody in the Justice 
Department, don't do this. It is unacceptable, it is stupid, it 
is dangerous, and not something that this Department of Justice 
can ever do.
    Mr. Towns. You know, I want to thank you for coming up and, 
of course, thank you for your testimony. I think it is pretty 
clear that the attempts to tarnish your reputation with these 
unsubstantiated allegations is pure politics and this 
definitely has a political flavor, and that is unfortunate.
    So, on that note, I will yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from North Carolina, Mr. 
McHenry, for 5 minutes.
    Mr. McHenry. Thank you, Mr. Chairman.
    Thank you, Attorney General Holder, for being here.
    Listening to the answer you had from the former chairman, 
it seems to me when you see that folks did not follow policy, 
did not follow your directives, and we are here 13 months after 
you found out that an agent was murdered for policies that you 
did not support, and we find out you have not fired a single 
individual, we find out that you have not rebuked any staff 
members--heck, you haven't even put a letter in people's 
personnel files saying that they on their watch acted and an 
agent was murdered. That is absolutely absurd from this side of 
the dais. So I ask you, why have you not taken steps to make 
sure this doesn't happen again?
    Attorney General Holder. Well, I have taken steps. 
Certainly with regard----
    Mr. McHenry. Yes, you told people you were mad, you were 
upset. That to me is silly. You have not taken action. You have 
not fired anybody. You haven't changed policy. Because it is 
clear you didn't enforce the policy before. You didn't know--
you are saying you didn't even know about it. So it strikes me 
as incompetence in terms of management.
    Attorney General Holder. Well, I am not sure you understand 
how the Justice Department works. I didn't express the fact 
that I was mad or that I thought it was silly. I issued a 
directive that said that the Attorney General of the United 
States that says this policy, this kind of technique, is 
inappropriate and should not be followed.
    We are still in the process of trying to determine, the 
Inspector General is trying to determine, where this policy 
originated. We know that it started probably in the ATF office 
in Phoenix. It was approved by the U.S. Attorney's Office in 
Phoenix. Now, exactly who the people were who actually approved 
the technique we are still in the process of trying to work 
through.
    But that is not all that I have done. I have made personnel 
changes with regard to leadership positions. We have moved 
people around. We have instituted a series of policies now that 
I think are designed to make sure that that doesn't happen 
again.
    Mr. McHenry. So an agent was murdered, and your action is 
to move people around. That seems to me to simply inconvenience 
people, not to rid them of Federal employment.
    Attorney General Holder. Well, to the extent that we find 
out who precisely was involved in this or who gave that order, 
I can assure you that, unless there is some truly compelling 
circumstance, that person, those people will be removed from 
Federal service.
    But that is not all we have done with regard to the murder. 
We are in the process of investigating that murder, and the 
people who are responsible for it will be held accountable, and 
I expect that you will hear something about that relatively 
soon.
    Mr. McHenry. Relatively soon. Thirteen months later.
    Attorney General Holder. No. Well, these matters----
    Mr. McHenry. It is 13 months after the fact, sir. That is 
what I am saying. At what point are you going to take action?
    Attorney General Holder. As soon as we are in a position to 
make arrests and hold people accountable, put them in a court 
of law and try them with maximum charges. These are not cases--
--
    Mr. McHenry. Is that likely this year?
    Attorney General Holder. I think that is likely this year.
    Mr. McHenry. Is it likely in the next 6 months?
    Attorney General Holder. Yes, I think it is likely in the 
next 6 months.
    Mr. McHenry. Could you see this happening this quarter?
    Attorney General Holder. When does this quarter end? I 
don't know.
    Chairman Issa. March 31st.
    Attorney General Holder. It is possible.
    Mr. McHenry. It is possible. Okay, 13 months later we have 
the possibility of somebody actually being punished for an 
agent being killed. This is absolutely absurd.
    Mr. Chairman, I yield the balance of my time.
    Attorney General Holder. No, it is not absurd. It takes 
time to build a case that you are going to be able to take 
before a jury with a high standard of proof, convict somebody, 
hold them accountable. You don't want to go into court and put 
yourself on a time limit and at 3 months say let's take 
whatever we have and get into court and, because some critics 
are going to say we are not acting fast enough, end up losing 
the case and then the people who are responsible for this 
heinous act are not held accountable.
    We go into court when we think we have cases that are ready 
to go. I am not putting any pressure on people in that regard, 
other than to do it as quickly as they can but to do it as 
thoroughly as we can so that we bring the best possible case 
that we can.
    Chairman Issa. I thank the gentleman for yielding.
    Quickly following up--no, it isn't--Mr. Lanny Breuer is not 
going to be criminally indicted or anything else, but when Mr. 
McHenry was asking about holding people accountable, he was 
really asking about people that work for you. Now, is your 
management style a hands-off or is it a hands-on? Do you want 
to know what is going on or do you want others to handle it and 
brief you at relatively high level?
    Attorney General Holder. I think I have a hands-on style.
    Chairman Issa. If you have a hands-on style, have you read 
any of or been fully briefed on any of the wiretaps, including 
the March 10th wiretap in this case?
    Attorney General Holder. These wiretaps are very 
voluminous, read well kind of things. I have not read them.
    Chairman Issa. Okay. Kenneth Melson told us--and this has 
been publicly reported--that in fact he was sick to his stomach 
when he discovered it. This was approved by Lanny Breuer's 
office. Indications are that your chief deputy knew about this. 
I mean, it comes through Criminal Division at some point.
    The question is, will you or isn't it appropriate that you 
know about these wiretaps so that you could know what former 
ATF, acting ATF Director knew, which was these wiretaps are 
reasonably believed to be sufficient in what they disclosed, 
that many parts of this operation should have stopped, should 
have stopped sooner, and that people were saying that at DEA 
and other places, and that the Office of Criminal Division, 
Lanny Breuer's division, if you will, knew or should have known 
that?
    That is the kind of thing Mr. McHenry was asking about, is 
holding people accountable, whether they are career 
professionals or political appointees. Are you prepared to do 
any of that prior to the Attorney General's final report? 
Because you haven't done any so far, as far as we can tell.
    Attorney General Holder. I think you mean the Inspector 
General's report.
    Chairman Issa. I am sorry, the Inspector General's. I am 
sorry, Mr. General. I keep confusing the two generals.
    But, yes, I very much note your Inspector General's report, 
which seems to be the reason for the delay in executing on 
disciplinary actions.
    Attorney General Holder. Well, I mean, you have packed a 
lot into that question.
    I think, first off, there is no indication that Mr. Breuer 
or my former deputy were aware of the tactics that were 
employed in this matter until everybody I think became aware of 
them, which is like January-February of last year. The 
information--I am not at this point aware that any of those 
tactics were contained in any of the wiretap applications.
    I will say this: To the extent that those wiretap 
applications have been shared, that is in direct violation of 
court orders, and if I find--if I find that somebody in the 
U.S. Department of Justice has shared the contents of a wiretap 
application, that will be something that will have to be looked 
at.
    There is a wide variety of things, information that we can 
share, but I am not going to go against sealing orders by a 
court with regard to a wiretap application, and anybody who 
leaks that material or submits that material for people to 
examine does so at their peril.
    Chairman Issa. I appreciate that. For the record, Members 
of Congress are not covered by that prohibition. Members of 
Congress are not in any way under that order. In fact, if we 
receive the information from whistleblowers, just like the 
press, it is in fact legitimate for us to know it and to act on 
it in our investigation. We are not covered by that Federal 
Court order.
    Your law enforcement people related--before I yield, did 
you want to respond after you got a note on that?
    Attorney General Holder. With all due respect, Mr. 
Chairman, I think that direction that you just said about the 
media and Congress and court orders is really incorrect, and I 
think you act at your peril if you think that is the truth.
    Chairman Issa. Well, certainly we would say that the 
release of information from our testimony of Kenneth Melson 
that appears to have been leaked to your people also would be 
inappropriate, but we will get to that at another time.
    With that, we recognize the gentlelady from New York for 5 
minutes, Mrs. Maloney.
    Mrs. Maloney. Thank you. I would like to respond to my good 
friend and colleague, Mr. McHenry's statement that the AG had 
not responded to Agent Terry's death. He responded immediately, 
and has expressed his concern for the other agents that are 
being killed at a higher rate than ever in our history.
    Mr. McHenry. If the gentlelady will yield.
    Mrs. Maloney. No, I will not yield. I will not yield.
    And not only did he do that, he immediately took swift 
action to stop gun walking, which did not happen in the prior 
administration, and established reforms to prevent this type of 
flawed operation from ever happening again. He further called 
for--and we could all help him do this, particularly the 
Republican majority--to confirm a permanent ATF director. That 
would help more than anything. He also called for a Federal 
firearms trafficking statute. He called for appropriate 
funding, for the ATF to do its job and increase penalties for 
straw purchasing. So these are some of the concrete actions 
that he has taken in response to that tragic death.
    And once again today, this investigation continues on its 
vast and curious mission to fix the symptoms rather than the 
cause of so much deadly gun violence on the southern border. 
And this committee has unfortunately refused time and again to 
examine the serious underlying problem that so heavily 
contributed to a series of ill-conceived, fatally flawed 
programs, such as Fast and Furious. And as this committee well 
knows, and everyone should know in America, Fast and Furious 
was not the first, but the fourth investigation to use gun 
walking as a tactic to go after bigger fish. And the gun 
walking strategy dates back to 2006, the prior administration. 
And just to underscore how vast and curious this investigation 
is, let's review that----
    Is this the sixth occasion, Mr. Attorney General, that you 
have been before Congress on this issue?
    Attorney General Holder. It's the sixth time I have 
testified about Fast and Furious.
    Mrs. Maloney. This is the sixth time he has testified on 
Fast and Furious. And he handed out a list of what his 
responsibilities are, which I would like him to be able to do. 
And I want to add to that one that I'm grateful for, and that 
is implementing the 9/11 health and compensation bill, on which 
your whole unit is doing such a brilliant job. Thank you so 
much. We appreciate it.
    Also, over 6,400 papers and ongoing IG review, all of this 
is taking place. But in your testimony today, I appreciated 
your tribute to the courageous agents that work in the ATF. And 
you spoke about the whistleblowers and how courageous they are. 
And I wanted to point out the testimony of Special Agent Peter 
Forcelli, who called the current laws against gun trafficking 
``absolutely toothless.'' And he went on to testify that there 
was no enforcement and he went on and said all kinds of things.
    Do you agree that there's no enforcement, that law 
enforcement really doesn't have the tools to do the job to 
crack down on gun trafficking?
    Attorney General Holder. I really agree with Agent 
Forcelli. I mean, there's really a need, I believe, for a 
Federal firearms trafficking statute. We need increased 
penalties for straw purchasers who engage in that kind of 
inappropriate activity. And I think that we would like to work 
with Congress so that we can put in place these measures that 
will ultimately help ATF and the Federal Government be more 
effective in the fight that we all say we want to have, which 
is to stop the flow of guns into Mexico.
    Mrs. Maloney. After that hearing with Special Agent 
Forcelli, I worked with Ranking Member Cummings and also with 
Congressman Towns and Congresswoman Norton, and we drafted a 
bill which is to crack down on illegal trafficking conduct, not 
law-abiding gun owners, but would go after those illegal 
activities. And we should get busy working on helping to give 
them the tools. We know that we do things that are far more 
helpful than going on a politically motivated fishing trip, 
which I feel this is what we are doing today. And the real 
agenda of this investigation does not aid or honor those who 
risk their lives every day, working to keep Americans safe from 
gun violence.
    And I must say that this is getting out of hand. The AG's 
testimony that over 60,000 guns, I believe you said, have been 
traced in Mexico that are directly tied to having been gotten 
there from America. And I must say that one chilling example 
was an ad that al Qaeda put on their Web site saying, Go to 
America. Get guns. It's so easy to do. Get guns for your 
illegal activities.
    So I want to congratulate you for your vision and mission 
of wanting to give law enforcement the tools to get the job 
done, to have a Federal statute banning gun trafficking with 
increased penalties.
    Chairman Issa. Would the gentlelady yield?
    Mrs. Maloney. Yes. I most certainly will.
    Chairman Issa. I join with you in believing that Andrew 
Traver who, I believe, is the November 2010 designate should in 
fact be given an up-or-down vote, should, in fact, be given an 
opportunity to be confirmed. I would note that he wasn't put 
up. No one was put up for the first 2 years of the Obama 
administration. And it's sad that they didn't have somebody in 
the queue earlier.
    I thank the gentlelady for yielding.
    Mrs. Maloney. I want to thank the chairman for supporting 
the confirmation, and you certainly can help us make that 
happen.
    Chairman Issa. We'll do what we can.
    Mrs. Maloney. I appreciate that.
    Chairman Issa. I thank the gentlelady.
    I now recognize the gentleman from Utah, Mr. Chaffetz, for 
5 minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman. Thank you, Mr. 
Attorney General, for being here. I had an opportunity on the 
Judiciary Committee to ask you questions on December 8, 2011. I 
had asked you if you had spoken to President Obama, Secretary 
Clinton, or Secretary Napolitano. You said that you had not 
spoken to either of those three about Fast and Furious. Is that 
still true today?
    Attorney General Holder. With regard to Secretary 
Napolitano, yes. Secretary Clinton, yes.
    Mr. Chaffetz. I'm sorry. Secretary Clinton, you have spoken 
with her about Fast and Furious?
    Attorney General Holder. No. Well, I should say no. 
Secretary Napolitano, no. Secretary Clinton, no. And I've had 
passing conversations with the President just about the fact of 
my testifying in connection with Fast and Furious.
    Mr. Chaffetz. On Wednesday, February 16th, you issued a 
press release along with Secretary Napolitano saying that you 
had met together. This is on the heels of Jaime Zapata. He had 
just been killed in Mexico. There were questions as to whether 
or not there were ties to Fast and Furious. You say that you 
didn't have any interaction with Janet Napolitano about Fast 
and Furious. My question is about Secretary Clinton. What sort 
of interaction did you have with the State Department?
    Attorney General Holder. I'm not sure at what lower levels, 
if there was interaction between the Justice Department and 
people at the State Department. I know that I have not 
interacted with Secretary Clinton with regard to Fast and 
Furious.
    Mr. Chaffetz. I was questioning whether or not you had 
actually had some interaction, or the words Fast and Furious 
came up. You had some interaction. You said, ``You have to 
understand something about the way Washington works.'' Explain 
that to me and the interactions that your department or agency 
has had with the State Department.
    Attorney General Holder. Well, one of the things that I was 
saying--I was trying to say and I got cut off, was that when 
people know that I'm going to be the subject of these kinds of 
hearings--you know, six times and all that--nobody necessarily 
wants to get involved in these kinds of things or get dragged 
into it and then have some interaction, conversation that I had 
with them be made more than it is. And I understand when people 
don't necessarily want to talk to me about Fast and Furious, 
knowing that at lower levels----
    Mr. Chaffetz. You know that they're withholding information 
from you.
    Attorney General Holder. No, they're not.
    Mr. Chaffetz. Well, you just said that they're not going to 
provide you the information because they don't want to drag you 
into it.
    Attorney General Holder. I said they didn't want to have 
conversations with me.
    Mr. Chaffetz. Isn't that withholding information? If you 
can't tell the boss what's really going on, you are going to be 
oblivious to what's going on.
    Attorney General Holder. We are talking about cabinet-level 
people. And I'm saying that the people who work under them, 
either DHS, State other executive branch agencies, are 
certainly providing information to the Justice Department so 
that we have access to whatever information----
    Mr. Chaffetz. And is the Justice Department providing that 
information to, say, the State Department or Homeland Security? 
You may say, we're not having face-to-face discussion which 
troubles me--I don't care whether you are a Democrat or a 
Republican, the idea that you are not being informed and not 
having conversations because you are afraid of coming to 
Congress is troublesome, at the least.
    Attorney General Holder. I'm not afraid to come to 
Congress. I have been here six times.
    Mr. Chaffetz. I know. But if you are not being informed so 
you purposely can claim ignorance on the issue, that's a 
problem. My question is, at the lower level, is there an 
expectation on your part that there is interaction between 
these departments and agencies?
    Attorney General Holder. Well there is not only an 
expectation. I know that, in fact, there is that kind of 
interaction because with regard for instance to the death of 
Agent Terry, I know that DHS is working with the FBI, State 
Department and Justice.
    Mr. Chaffetz. What about the State Department?
    Attorney General Holder. State, you know, doesn't have as 
direct a role. Obviously we interact with our counterparts in 
Mexico, and we talk to the State Department, inform them of 
contacts that I have. In fact, I will be speaking to the 
attorney general from Mexico in the latter part of--well, I 
guess, early this afternoon.
    Mr. Chaffetz. In paragraph five of your testimony today, 
you talk about the national security crisis along the border. I 
guess my concern, Mr. Attorney General, is, you have an 
expectation that there's interaction between the Department of 
Justice and the State Department, correct?
    Attorney General Holder. Oh, there certainly is, through 
the Merida Initiative, if nothing else. And through other ways 
in which our law enforcement components talk to one other----
    Mr. Chaffetz. I am sorry. My time is so short.
    Chairman Issa. Would the gentleman suspend? Do you have a 
point of order?
    Mr. Towns. Mr. Chairman, I think that if he is asks a 
question, he should have an opportunity to answer it. I am 
trying to follow it. But the point is that without him being 
able to respond, what are we really doing?
    Chairman Issa. The gentleman's point is valid, and I 
appreciate that both under your leadership and hopefully under 
mine, we make sure that all witnesses get to answer.
    Mr. McHenry. Mr. Chairman, may I ask for 1 additional 
minute for the gentleman?
    Chairman Issa. Without objection, so ordered.
    Mr. Attorney General, at the end of any round of 
questioning within a reasonable period of time by yourself, if 
you feel you have been unable to answer a question--and I would 
like you to be succinct--we will give you the additional time 
at the end so you may answer. I do respect the fact that a 
Member may want to go on to a next question. So you may have to 
wait until the end to sort of revise and extend briefly. And 
with that, I mean no disrespect. The gentleman was fully within 
his rights. But I wanted to make that clear because the past 
chairman and my policy are to make sure that people get to make 
full answers, even if it's not during the 5 minutes.
    Mr. Chaffetz. Mr. Chairman, I would ask that without the 
starting of the clock--again, if he wants to fully answer that. 
With concern to Mr. Towns, I just want to be able to do the 
followup question.
    Chairman Issa. The gentleman is absolutely right. The 
gentleman will continue.
    Mr. Chaffetz. If you want to more completely answer that, 
please.
    Attorney General Holder. I'm not sure where I was.
    Mr. Chaffetz. The interaction between you--the Department 
of Justice and the State Department on Fast and Furious, and 
that's the concern here is Fast and Furious.
    Attorney General Holder. Right. We work together with our 
State Department counterparts on a number of things in 
connection with Mexico. There is the Merida Initiative that 
really kind of is the umbrella way in which we operate in 
Mexico in a law enforcement way. So there is a lot of contact 
at the lower levels and not so lower levels. I know our Deputy 
Attorney General speaks a great deal with his counterpart at 
the State Department.
    Mr. Chaffetz. My question, Mr. Attorney General, is the 
testimony from October 27th of this year that Secretary Clinton 
gave over in the Senate where she said, ``I can tell you that 
based on the information on the part of the State Department 
that would deal with this kind of issue, we have no record of 
any request for coordination. We have no record of any kind of 
notice or heads up.''
    How is it that the Secretary of State is saying, we've 
never been involved in any way, shape, or form in Fast and 
Furious and you are testifying that it's happening on a regular 
basis?
    Attorney General Holder. Well, you have to put this in the 
appropriate context. What I'm saying is that we interact with 
them in a number of ways. Now Fast and Furious might not be a 
primary thing that we are talking about with the State 
Department. We are certainly working more closely with DHS when 
it comes to Fast and Furious. But those kinds of things are 
discussed. It might not be, you know, a primary thing that 
exists between a topic of conversation between State and----
    Mr. Chaffetz. And I guess that's the concern, Mr. Attorney 
General. We have 1,500 weapons. We've got 300 dead people in 
Mexico. We have a dead U.S. agent. We've had an untold number 
of hearings and discussions and press reports. And yet, you had 
the people at the highest level of the government saying, well, 
we don't talk to each other because our people don't tell us 
information because we've got to remain ignorant because we're 
going to have to testify and they don't want to get me 
involved. And at the same time, you're telling me that they are 
interacting with the State Department on a regular basis, and 
the State Department, the Secretary, is telling us, it isn't 
happening. And Janet Napolitano is saying very similar things 
at the Department of Homeland Security. If we're going to solve 
this problem and make sure it never happens again, we have to 
solve these challenges. And I have no confidence that you've 
addressed it or offered anything to actually solve it.
    I yield back.
    Chairman Issa. The gentleman's time has expired. Did the 
gentleman want to follow up?
    Attorney General Holder. I'm not sure about the context in 
which that remark was made by Secretary Clinton, but I can tell 
you that when it comes to the issue of violence in Mexico, the 
problem of guns going to Mexico, we are joined with our 
partners at the State Department----
    Mr. Chaffetz. Mr. Chairman, Mr. Chairman, can I read the 
question?
    Chairman Issa. Does the gentleman want the question read 
back?
    Mr. Chaffetz. No. The question that Secretary Clinton got. 
You asked a legitimate question. I don't know what context 
Secretary Clinton asked----
    Chairman Issa. The gentleman will suspend. If you make that 
question available to the Attorney General's staff so they can 
brief him, we will return to that out of order to get an 
answer. But I think, in fairness, we've given sufficient time. 
If you will make it available to staff, we'll make sure we get 
to it before the end of the hearing.
    With that, we go to the gentlelady from the District of 
Columbia, Ms. Norton, for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. Mr. Chairman, I don't 
know if conversations with the Secretary of State, with 
Secretary Clinton, or Secretary Napolitano are of major 
importance here. But I do know this, that after calling the 
Attorney General of the United States six times before the 
Congress, I think the public would have expected that we would 
have begun to talk about remedy by this time; and yet there has 
been no remedy to give the Justice Department the tools it 
needs to prosecute straw purchasers or gun trafficking. But 
here we go again with the sixth hearing.
    Mr. Attorney General, I want to commend you for the changes 
you have made, the multiple changes you have made while this 
matter was unfolding and the facts were coming forward, 
recognizing full well that until you get the inspector 
general's report, particularly considering that this is the 
Justice Department, to proceed without due process would be 
fairly unseemly. You have to understand that when there's an 
issue like this and it was very important because of the death 
of an agent, there is an incentive for the committee, if it can 
get a hold of a highly placed government official, to call on 
as much as you can because with him comes the press and the 
public.
    My concern, I must say, for the Attorney General today, who 
has foreign and domestic matters of great moment on his plate, 
that at least a remedy come out. And we certainly haven't seen 
anything even approaching that.
    I would like to go through the 5 years of gun walking 
because they all get merged. We have 3 years of gun walking, or 
so-called gun walking in the Bush administration, 5 years 
total, two in this administration, beginning with the Arizona 
U.S. attorney Paul Charlton. Now we haven't had the opportunity 
to have him before us. But the problem emerged out of his 
office, and with warnings, apparently, in his office at that 
time, that there were real issues that the ATF--at least his 
legal counsel raised issues, including what he called moral 
objections.
    Now Mr. Charlton, we do know--even though we haven't had 
the opportunity to speak with him--was briefed and continued to 
allow hundreds of guns to walk across the border to Mexico. The 
notorious Hernandez case arose during the Bush administration 
when the effort of coordination failed and yet the gun walking 
continued.
    Now we come to this administration. When you became 
Attorney General in 2009, were you aware that ATF had this long 
history of gun walking in its Phoenix office?
    Attorney General Holder. No. I didn't become aware of gun 
walking at all until the beginning of 2011.
    Ms. Norton. Mr. Attorney General, if every attempt at 
coordination--and remember, Mr. Hernandez was never arrested. 
Those authorities were never--no one was ever taken into 
custody. But if every attempt at coordinating fails, do you 
think the agent should have stopped authorizing further 
attempts to coordinate between Mexico and the United States and 
allow the gun walking to proceed?
    Attorney General Holder. Do I think they should have 
allowed that?
    Ms. Norton. Do you think that given the repeated attempts 
of failed coordination that the agents should have stopped 
authorizing it or simply continued to allow further attempts, 
even as they saw the attempts of coordination fail with no 
arrests being made on the Mexican side?
    Attorney General Holder. Yeah. I think both experientially, 
based on what you have noted, I think there was no basis for a 
continuation of gun walking. But then even conceptually, as I 
think I testified before, the notion that you would let guns 
walk is simply not something that I think is a sound law 
enforcement technique.
    Ms. Norton. So when does it become gun walking, Mr. 
Attorney General?
    Attorney General Holder. When you have the ability to 
arrest somebody for some firearm transaction that they have 
engaged in and you make the determination not to make the 
arrest, and then they proceed from that site, and you don't 
surveil them, you don't take any kind of affirmative action, 
and you allow that person who has committed a firearms offense 
to simply walk away with the firearm. That, from my 
perspective, is gun walking. And conceptually, experientially, 
it is simply not a good thing to do.
    Ms. Norton. That should have stopped even before even this 
administration took office.
    Attorney General Holder. Sure. I think so.
    Chairman Issa. I thank the gentlelady. I would note for the 
record that the Attorney General has testified as to Fast and 
Furious on November 8th before the Senate, on December 8th 
before the House. The other previous testimonies were not on 
the subject of Fast and Furious. And he was not briefed and 
able to answer it properly during those times. I just wanted to 
make sure. This is also the first time before our committee. So 
Judiciary, quite frankly--and particularly in the House--has 
not taken the lead the way this committee has on both sides of 
the aisle.
    Attorney General Holder. If I could just maybe correct the 
record----
    Chairman Issa. Of course.
    Attorney General Holder [continuing]. I certainly did speak 
in those--the number five or six is, in fact, correct.
    Chairman Issa. The times that you were asked, not the times 
you were brought to answer questions that were prepared.
    Attorney General Holder. Whether it was Senate 
Appropriations, Senate Judiciary, I was asked questions about 
Fast and Furious and answered those questions.
    Chairman Issa. With that, the next gentleman will be the 
gentleman from Michigan, Mr. Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. And thank you Mr. 
Attorney General, for being here today.
    I'm tempted to ask your opinion on former Penn State coach 
Joe Paterno. It might be an interesting conversation, but we 
don't have time for that in the questioning. But I would state 
that Joe Paterno reported allegations of child molestation to 
his superiors but did nothing else because he didn't want to 
jeopardize university procedure. Jason Weinstein, a senior 
official in the criminal division, knew about gun walking as 
early as April 2010. After a single meeting with ATF about it, 
he then failed to follow up or take action. Joe Paterno, a 
legend in his sport, and yet he was unceremoniously fired. 
Weinstein continues on in his current position even though Fast 
and Furious has held deadly consequences, most importantly, to 
Agent Brian Terry, a proud son of Michigan, my State.
    My question for you is, what's the difference between the 
case of Joe Paterno at Penn State and the Justice Department 
under your leadership?
    Attorney General Holder. Well, I'm not going to get into 
the Paterno case. I will talk about Jason Weinstein. He knew 
about wide receiver and he told Mr. Breuer about it. He met 
with ATF. He has indicated that he did not know about the 
tactics, the inappropriate tactics, the gun walking tactics 
involved in Fast and Furious until later on and didn't connect 
those tactics with the ones that were used in wide receiver and 
has admitted that what he did was a mistake and has indicated 
that he was, you know, that he failed in not making that 
connection.
    Mr. Walberg. And so he continues on, as do other senior 
officials moved around as chessmen on a board with no 
consequences of a significant nature at this point in time, no 
admission, other than now when brought on the carpet and 
brought into the public life that this thing has gone wrong, 
was set up to go wrong and, frankly, I believe was set up to go 
wrong in order to deal with Second Amendment liberties of law-
abiding citizens and pushing into a perception that it was a 
problem of the Second Amendment as opposed to law enforcement. 
And more importantly, Mr. Attorney General, your oversight of 
an agency, of a department, of individual leaders in that 
department that have not been held accountable.
    Attorney General Holder. Well, with all due respect--and I 
mean this with great respect--the notion that this was an 
operation set up to do something to impinge upon the Second 
Amendment rights of my fellow citizens is absurd. The operation 
that was put together here was an attempt to stop the flow of 
guns from the United States into Mexico, something I think we 
should all agree upon.
    Mr. Walberg. And it wasn't effective, was it?
    Attorney General Holder. It was not effective. In fact it 
was flawed, fundamentally flawed.
    Mr. Walberg. Very flawed.
    Attorney General Holder. I have said that from day one. But 
the notion that somehow or another this was a setup to come up 
with measures that would impinge upon Second Amendment rights 
is simply not substantiated by the facts. And I think in some 
ways--again, with all due respect, I think that's almost 
irresponsible.
    Mr. Walberg. Well with all due respect, I would concur that 
your mention today of the necessity for impinging upon Second 
Amendment liberties of law-abiding citizens still further 
brought that question up. Let me move on here. An article 
yesterday by former CIA director Michael Hayden noted that you 
``launched a reckoning of CIA renditions detentions and 
interrogations of terrorists by directing the Justice 
Department to reopen investigations closed years before by 
career prosecutors.'' This decision was opposed by Leon Panetta 
and his seven predecessors. The article notes that you 
reportedly made the decision without reading detailed memos 
prepared by those career prosecutors, declining to pursue 
further proceedings.
    And further, Mr. Attorney General, you are well known in 
this town for not reading memos. You admitted you failed to 
read memos addressed to you in Fast and Furious; you failed to 
read memos before the Mark Rich pardon. You failed to read 
memos or even the law related to the Arizona immigration law. 
What does that say about your leadership and management that 
you consistently fail to read extremely important papers placed 
on your desk?
    Chairman Issa. The gentleman will suspend.
    As I previously said--although you can certainly talk about 
your management style--this hearing is limited to Fast and 
Furious, so I would ask that you limit your answers to the 
management style as it may relate to Fast and Furious and not 
to any other cases unrelated to our investigation.
    Mr. Walberg. Thank you, Mr. Chairman.
    Attorney General Holder. Well, I disagree with that. Given 
the decision to almost engage in character assassination, I 
will respond to at least some of that.
    I'm the Attorney General of the United States, okay? And 
when it comes to deciding what I'm going to investigate, how 
I'm going to investigate, I take into account a wide variety of 
things. The decision I made to open up those CIA matters--and I 
was an aware that this was something that was opposed by a 
great many people. I read a great deal before I made that 
determination. I had access to material that other people who 
criticized that decision have never had access to.
    Now I have great respect for the people, the men and women 
of the CIA who put their lives on the line and who protect this 
Nation in a way that many of you don't, because I see a 
briefing every day at 8:30 about the great work that they do. 
But there were things done, things that were done during the 
course of those interrogations that were antithetical to 
American values, that resulted in the deaths of certain people 
and that justified my decision to order an investigation. That 
investigation has run its course. We are at a point where we 
are about to close those investigations. It would have been 
irresponsible for me, given the new information that I had a 
chance to review, not to order that investigation.
    With regard to your more general point about me reading or 
not reading memos, I read those things that are brought to my 
attention or things that I think I need to read in order to 
make appropriate decisions. I'm confident that the management 
style that I have, the involvement that I have is adequate to 
allow me to make appropriate decisions based on facts, based on 
interpretations of the law. And I have a good staff that brings 
to my attention those things that I need to read.
    Chairman Issa. The gentleman's time has expired. Before I 
go to Mr. Tierney, I would like to make--and we are sort of 
speaking to your staff to a certain extent--the staff aware of 
the CRS report that on numerous occasions, Congress has 
interviewed line attorneys, including in the Rocky Flats 
investigation, the early 1990's under obviously a Republican 
administration. So I would ask that your staff review that so 
that you may correct your statement, that it never happens.
    With that, we go to the gentleman from Massachusetts next, 
Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. Mr. Attorney General, 
indulge me, if you will, on this for a second. This committee's 
obligation is to the family of the deceased, to the other law 
enforcement officers involved, to the citizens of this country. 
And this committee is charged with first finding out what 
happened; and then once we determine that, making sure we can 
work on practices so that it never happens again in a flawed 
situation like this. Members of both parties--and our staff did 
a great deal of work in determining the facts, and I think the 
ranking member has already gone on a great deal about the 
number of interviews that staffs of both parties and the number 
of documents that they reviewed went on, and also laid out a 
number of actions that were recommended for the future. And I 
know that you have taken some actions and the new ATF director 
has set out some actions as well.
    So at this stage, it seems to me we have a couple of 
alternatives. We could further explore on how the program of 
gun walking began back in 2006; it repeated itself in 2007; it 
repeated itself again in 2008 and 2009; and it repeated itself 
again in Fast and Furious. But to do that, we would need to 
talk to Mr. Mukasey, I should think, and the majority is not 
willing to bring Mr. Mukasey forward.
    As far as I know, he is the only Attorney General that had 
documents in front of him that even mentioned the programs, or 
some of those programs, although that doesn't indicate that he 
authorized it or even condoned it. But certainly if that 
alternative of trying to find out more facts about what 
happened, he would be somebody I think would be worth talking 
to, and we have not been given that opportunity. We could 
explore reforms, necessarily beyond those that you've 
implemented and the ATF director's implemented and what 
statutory changes about gun trafficking and things might be 
involved. But the committee doesn't seem--at least the majority 
doesn't seem interested in doing that. Or unfortunately, as we 
seem intent on doing here at this hearing put by the majority 
we could continue to chase what seems to be a political agenda 
of trying to find out that somebody in the administration--you, 
in particular, somehow had knowledge or authorized or condoned 
this operation.
    If that were the case it would seem to me that a good 
witness for us to talk to would be Mr. Melson, who was the 
then-acting ATF director. Mr. Cummings has asked the chairman 
to bring Kenneth Melson as a witness. Mr. Melson indicated he 
is willing to come as a witness. In fact, he even testified or 
talked, was interviewed in a closed interview with staff from 
both parties. They asked him if he had ever approved gun 
walking. He said he had not. They asked if he had ever been 
briefed about gun walking. He said no. They asked if he was 
aware if the senior Justice Department officials had ever 
authorized gun walking. He said no.
    Surely if the details of Operation Fast and Furious were 
approved at the highest levels of the Department of Justice, as 
has been accused, then Mr. Melson, the director of the ATF 
presumably would have known about it. This is however, what he 
said in that interview, ``I don't believe I had knowledge of 
the specific tactics used in Fast and Furious until the facts 
began to be disclosed in the media.''
    So Mr. Melson told the committee he never authorized gun 
walking, the Justice Department never authorized it. He wasn't 
aware of it in the Fast and Furious operation, and he never 
briefed the Attorney General or anyone else at the Department 
of Justice about it. I think that's pretty valuable information 
if the focus of this inquiry is going to be who knew what when 
and where.
    This interview with Mr. Melson took place 7 months ago. 
Chairman Issa has refused to let him answer those questions in 
public before our Members. We can draw some conclusions of our 
own as to why that case's testimony directly contradicts the 
assertions that the operation was approved at the highest 
levels of the Justice Department.
    So that leaves us with only, I guess, to find out whether 
or not there were any bad actions by people at higher levels of 
asking you yet again, Mr. Attorney General, did Mr. Melson, the 
director of ATF, ever raise any issues to your attention about 
gun walking or the conduct of Operation Fast and Furious?
    Attorney General Holder. No he didn't.
    Mr. Tierney. Do you rely on your component heads to bring 
significant issues within their agencies to your attention?
    Attorney General Holder. Sure. That's one of the 
responsibilities that they have. And I hope I have the kind of 
relationship with them so that they feel free to bring to my 
attention issues like that.
    Mr. Tierney. Are you disappointed that neither Mr. Melson 
nor anyone else at ATF raised concerns about Fast and Furious 
to your attention or to anyone else at the Department's 
headquarters?
    Attorney General Holder. Yeah. I am disappointed not only 
in Mr. Melson, but other people within the Department who were 
seized with this knowledge and who did not bring it to my 
attention and who have admitted they made mistake in not 
bringing it to my attention or to the Deputy Attorney General's 
attention the fact that gun walking existed in at least some of 
these operations.
    Mr. Tierney. And have you or has anybody held Mr. Melson 
accountable for not bringing these issues to your attention?
    Attorney General Holder. Well, Mr. Melson made the 
determination and we agreed that it would be better for him to 
leave ATF to allow ATF to get a fresh start and to allow him to 
get a fresh start as well.
    Mr. Tierney. Mr. Chairman, at this time, I ask unanimous 
consent to enter into the record the transcript of the 
interview by Republican and Democratic staff.
    Chairman Issa. I object. You know that's grossly 
inappropriate.
    Mr. Tierney. Well, I think, Mr. Chairman, it's grossly 
inappropriate to have a pertinent witness who is not allowed to 
come before this committee and testify. And I thought, since 
you don't seem willing to do that, then maybe we'd go to the 
next best thing where both parties had an opportunity to 
interview Mr. Melson and talk about issues that seemed to be 
right at the core of what you are alleging over and over again.
    Chairman Issa. The gentleman's unanimous consent is not--
okay, I will be even kinder. I reserve.
    Now speaking on my reservation, does the gentleman really 
believe that that is the right thing to do, to make public an 
ongoing investigation that includes a number of officials, 
includes a situation in which an official has taken the Fifth 
and left the Justice Department to make any of those documents 
publicly available at this time when, in fact, it is pursuant 
to our investigation? Does the gentleman actually believe that?
    Mr. Tierney. Mr. Chairman, I withdraw my request at this 
point in time. But I hope we've made the point here that what 
is important is for you to change your mind hopefully and allow 
Mr. Melson to come here and testify in public and answer the 
questions which have been the core of the matter there and the 
allegations that you continuously make apparently erroneously 
but refuse to acknowledge.
    Chairman Issa. I appreciate the gentleman's comments. I 
would note for the record I have not called for the Attorney 
General's resignation. I have not said the Attorney General 
knew. I certainly have--and I think many of us are making the 
point that people didn't know that should have known things 
that, in fact, we are trying to find out where the failures 
were made other than the local level, which we have begun 
describing in the case of the acting--and it's in his 
testimony, obviously, which will not in its entirety made 
available today. But the acting director, in fact, is culpable 
for not knowing more of what a director should know or ensure 
that people know that make stoppage.
    So I join with the gentleman in saying that, in fact, it 
does concern me that someone who is supposed to direct over 
1,800 individuals did not know that this, in fact, involved gun 
walking. But remember, on February 4--well after many of these 
events--the Attorney General's office prepared a document, gave 
it to us which said we never let guns walk. That is of concern 
too. And the committee is not shy about having additional 
hearings. The Attorney General made himself available at this 
date pursuant to a request. We did not and are not saying this 
is the culmination or we are taking him in lieu of less 
significant----
    Mr. Tierney. Mr. Melson's interview was some 7 months ago. 
And a direct quote from you, Mr. Chairman, on a television 
show, the Roger Hedgecock Show--there was a radio back there--
you said, ``ATF people and Justice people are telling us, this 
goes all the way to the very top. It goes all the way to the 
ATF Office of the Director and obviously goes to the Office of 
the Attorney General. This is the approved plan that you know 
is basically at the highest levels of the Obama appointees.''
    If those are allegations that you are going to make, then 
it would be important to have Mr. Melson come in here and 
testify as part of that instead of blocking his testimony and 
continuing to make those assertions which now apparently are 
obviously not correct.
    Chairman Issa. I appreciate the gentleman giving Roger 
Hedgecock a plug. The fact is that those allegations were made 
with a number of other false allegations. I might note for the 
record that we were given statements, allegations that the ATF 
director was viewing on closed circuit Internet connection the 
actual purchases being made. After receiving testimony and 
multiple checks, we discovered that although he inquired about 
the capability of viewing these surveillance as they occurred, 
that no such event occurred. This often happens in 
investigations.
    Mr. Tierney. Well Mr. Chairman I am glad that you 
recognized that those comments that you were amplifying at the 
very least are false and now maybe we can move on to the 
business of determining what we can do as a government----
    Mr. Cummings. Mr. Chairman, just to follow up on what you 
just said. I know you are reserving, Mr. Chairman.
    Chairman Issa. Actually the gentleman withdrew.
    Mr. Tierney. I withdrew.
    Mr. Cummings. I was just wondering if there was a way that 
we could have a portion of that document that goes to Mr. 
Melson's testimony where he clearly states that he never told 
the Attorney General about these tactics in Fast and Furious 
where he says that he did not--he, himself, did not know. I 
mean, the staff worked together----
    Chairman Issa. The gentleman from Massachusetts has done a 
very good job of making that available, and I certainly----
    Mr. Cummings. I just want to make sure that the record is 
complete. The Attorney General has been accused of--some very 
unkind things have been said about him. His reputation hangs in 
the balance, and I think that we've got Mr. Melson, the former 
ATF director, who clearly stated that he never said anything 
about these tactics to the Attorney General. And he even said 
that he didn't even know about them himself. I was just 
wondering if we could just have that portion of the transcript 
as a part of the record. I'm not trying to----
    Chairman Issa. I will work with the ranking member to find 
appropriate portions that seek your concerns that can be made 
available. I might note that my side has quoted repeatedly--and 
this is why I want to make sure we are fair on both such 
quotes. My side has quoted where he said he was sick to his 
stomach when he read the wiretaps and discovered what he didn't 
know. So although I think it is inappropriate to release the 
entire transcript, I will work with the gentleman. We will hold 
the record open to make appropriate statements that you believe 
are necessary to make the record complete. And I will be glad 
to do that.
    Mr. Cummings. Just 30 seconds. What you just said is one of 
the reasons why I want to make sure it's a part of the record. 
When Mr. Melson said as he sat at his kitchen table--and I read 
it 50 million times. And he said his stomach got in knots when 
he found out about it, basically his point was that he didn't 
know about it before then.
    So if he didn't know about it, it was impossible for him to 
tell the Attorney General about it. And that's all.
    Attorney General Holder. If I could----
    Chairman Issa. Well, I'm not going to allow--and I 
apologize Mr. Attorney General. I'm not going to allow this to 
turn into a sequence of those because I think both sides could 
get into various testimonies. I will work with the gentleman. 
He has a valid point. We will now return to regular order.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Issa. You're very welcome.
    Attorney General Holder. Could I just say one thing?
    Chairman Issa. The gentleman is recognized.
    Attorney General Holder. When Mr. Melson indicated that he 
became sick to his stomach, he did not--it was not when he was 
reading the wiretap applications. He was reading reports of 
investigations. And I think that's an important distinction.
    Chairman Issa. I appreciate that.
    We now go to the gentlelady who has been waiting patiently 
from New York, Ms. Buerkle for 5 minutes.
    Ms. Buerkle. Thank you, Mr. Chairman. And thank you Mr. 
Holder for being here this morning. I just want to make a 
couple of comments to start out because we've heard it from the 
other side of the aisle and even yourself with regards to this 
being a Democratic or a Republican issue, whether this is a, 
you know, political game, if this is an election year charade.
    I think it's very important to recognize that you, as the 
Attorney General, with all due respect, need to be held 
accountable, or someone does, as to what happened.
    Now I'm amazed that of all the issues that face this 
country, this is the issue that I hear from my district so 
frequently about. And, in fact, today--and I will enter them 
into the record--I have no fewer than 30 questions from folks 
in my district who want to know what happened, why it happened, 
and who is going to be held accountable to us. And I was taken 
aback just a little bit with your response to my colleague, Mr. 
Walberg, when you sort of declared that I am the Attorney 
General.
    Well, with all due respect, sir, yes, you are, but you are 
also accountable to not only the folks in my district, but the 
American people. And I just want to--if you would indulge me--
just play a recording because most importantly--and as you are 
well aware of, we had a hearing here in June with Brian Terry's 
family. And in that hearing, I specifically asked his mother--
and we'll play that hearing, if you would, please.
    [Video shown.]
    Ms. Buerkle. So Mr. Attorney General, on behalf of Mr. 
Heyer, who is Brian Terry's cousin and actually the 
spokesperson for his mother and his sister, I would ask you, to 
what lengths has your investigation into Operation Fast and 
Furious gone? And will everyone in that operation that had to 
deal with those specific weapons be brought up on charges 
facilitating the murder of Brian Terry?
    Attorney General Holder. Well, we are certainly working now 
to--I mean this is an ongoing investigation. It's actually a 
very sensitive time. I'm not sure I can talk an awful lot about 
where the investigation is. I have indicated that I think we 
are pretty close to making some announcements. And we will hold 
accountable, seek to hold accountable those people who are 
responsible for Agent Terry's death. With regard to people who 
were involved in Operation Fast and Furious, we are endeavoring 
to find out who made the determinations to allow guns to walk. 
I'm not really at liberty to talk about the weapons that we 
used in the actual incident. That goes to ballistics reports, 
and I don't think I can comment on that here. That will 
obviously come out during the course of the trial. But we will 
hold accountable people who were involved in--as I have 
described, this flawed investigation.
    And one other thing. I did not mean to imply the comments 
that I made there that I should not be held accountable. But I 
also think that there's a certain fairness component to this as 
well. And I ought to be held accountable for those things that 
are within my area of responsibility. I should be held 
accountable for things that are factually correct as opposed to 
those things that are politically desired. And I'm more than 
willing to admit mistakes when I have made them. But I also 
think that if we are going to really get ahead here, if we are 
really going to make some progress, we need to put aside the 
political gotcha games in an election year and focus on matters 
that are extremely serious. When one looks at the death toll in 
Mexico, when we look at the guns----
    Ms. Buerkle. Excuse me, sir. My time is ticking away. I 
just have one more question. Unlike the chairman, I was one of 
the Members of Congress who called for your resignation. I feel 
that the Department of Justice--that you are responsible for 
all of the activities that fall under your umbrella. And I 
think that you have denied knowledge of the program and that 
accordingly, you should not be held accountable.
    My question to you today is, what more could have possibly 
gone wrong that you would have been held accountable? And 
before you answer that, I would suggest that the President has 
been eerily quiet about coming to your defense. So let me ask 
it this way: How many more Border Patrol agents would have had 
to die as a part of Operation Fast and Furious for you to take 
responsibility?
    Chairman Issa. The gentlady's time has expired. The 
gentleman may answer, or not.
    Attorney General Holder. You know, that's the kind of 
thing, you know, you wonder why you are getting those calls. I 
mean, people will focus on a question as much as an answer. And 
as a Member of Congress, I mean, really--is that the way in 
which you want to be seen, you want to be known?
    You know, I should be held accountable for--certainly my 
role in whatever I did or didn't do in connection with the 
supervision of Fast and Furious. But, yeah, I'm Attorney 
General of the United States, and I should also be held 
accountable and perhaps even given some credit--imagine that--
given some credit for the things that this Justice Department 
has done under my leadership, whether it deals with national 
security, revitalize antitrust, revitalize civil rights 
enforcement efforts. And so one has to balance all of these 
things.
    I'm not claiming to be a perfect person or a perfect 
attorney general. I get up every day and try to do the best job 
that I can. I have great faith in the people who work in the 
Department. And you know, that kind of question I think is, 
frankly--and again, with respect--I think that's beneath a 
Member of Congress.
    Chairman Issa. The gentleman has concluded I think. We now 
go to the other gentleman from Massachusetts, Mr. Lynch, for 5 
minutes.
    Mr. Lynch. Thank you, Mr. Chairman. And I want to thank the 
Attorney General for helping the committee with its work. I 
know this is your sixth time.
    If I could, I would like to try to put the political part 
of this aside and really out of respect for Agent Brian Terry 
and his family and the other 117,000 people who work for you, 
try to look at some reforms that actually might go to the core 
of what went wrong here.
    Now I know you have referred repeatedly to a tactic, the 
tactic of gun walking. But really, when you drill down on that, 
what we are allowing here--in this case, in Fast and Furious at 
least, and in the earlier cases under the Bush administration, 
basically what the Department of Justice did was authorize 
criminal activity to allow folks that they knew--they knew 
these 20 dealers were buying hundreds of guns--heavy arms, 
shipping them into Mexico.
    In my city, in Boston, through the Office of the FBI, 
through the confidential informant program, we had folks that 
were allowed to commit 19 murders under the care and protection 
of the FBI. I've got a situation right now that's in court 
where another individual, a confidential informant, has killed 
at least--alleged to have killed at least a half dozen people. 
The problem here is that this tactic actually authorized--it 
puts the law enforcement, Federal law enforcement in a position 
of authorizing criminal activity. They become complicit in it. 
That's very troubling, especially when it results in the death 
of a very brave, courageous agent or to innocent American 
civilian citizens.
    And what is especially troubling is that I believe that you 
didn't know about it. I believe that you didn't know about it. 
But that's not a comfort to me. It is unbelievable that either 
the Phoenix field office or the Boston office of the FBI can 
authorize criminal activity, not just a mere tactic, but a 
whole strategy of using that outside the law, and then having 
innocent civilians killed.
    So I actually think one of the solutions might be for 
Congress to pass a law that says, if there are those limited 
occasions where we are going to authorize criminal activity to 
go on in our society under the cover of law enforcement's 
authority, then either yourself, as the Attorney General, or 
the director of the FBI or the head of the ATF has to sign off 
on it because here, everyone escaped responsibility because of 
plausible deniability. They can say, I didn't know about it.
    Well, that's troubling. That scares the hell out of me when 
I think that there's just a local office of the ATF or the FBI 
that is authorizing criminals to engage in this typed of 
activity, taking AK-47s and letting them get smuggled into 
Mexico, or, you know, southern California on our side of the 
border.
    What are you prepared to do? Look, I know that's a blunt 
instrument, saying that you have to sign off on any of these 
clandestine operations where we are allowing people to engage 
in criminal activity that puts the public at risk. What do you 
propose to do to make sure we don't have this ``I didn't know 
about it'' approach or the ``I know nothing'' Sergeant Schultz 
defense for law enforcement's ``I didn't know about it?'' What 
do you propose, sir?
    Attorney General Holder. I think that's a legitimate 
question. I think we don't want to go too far in this sense in 
that law enforcement will engage in illegal activity in an 
attempt to solve crimes. We engage in illegal activity when we 
are--when we buy drugs from people who are selling drugs. We 
engage in illegal activity when we pay corrupt public officials 
money, when we go into undercover operations. But we have to 
have that ability. It is an extremely important law enforcement 
technique. But I think the point that you raise is a good one, 
and that is, that the approval to do these kinds of activities 
can't rest at the line level. There has to be supervisory 
responsibility. And the question is, where do you draw that 
line?
    It is not realistic for the Attorney General to sign off on 
every one of those things. We have mechanisms within the 
Department when it comes to undercover operations that rise to 
a certain level where an undercover review committee actually 
has to approve them. There's a committee that does that. The 
reforms that have been put in place by Todd Jones at the ATF 
requires greater supervisory responsibility for approving those 
things.
    But even with all those approvals--as I said before, you 
know, letting drugs walk, letting money walk, that's one thing. 
But letting guns walk, I simply don't see--I just don't see how 
that's an appropriate law enforcement technique. If you balance 
the potential gain against the potential harm, the harm is too 
great to justify the use of gun walking.
    Chairman Issa. I would ask unanimous consent that the 
gentleman have an additional 30 seconds.
    Mr. Lynch. I thank the gentleman. Where do we draw that 
line though? There has to be some accountability here. There 
has to be. And again, I go back to the very nature of this 
tactic. It is putting law enforcement--and the confidential 
informant arrangements are especially troubling. These folks 
operated for years. We are taking taxpayer money to pay 
confidential informants at a very generous lifestyle, and it 
seems to be all clandestine. At least in the Boston office, the 
higher-ups didn't know anything about it.
    Chairman Issa. Would the gentleman yield?
    Mr. Lynch. Sure.
    Chairman Issa. I agree with the gentleman that we need to 
do more oversight over the FBI and other entities that have 
this authority. I also agree with the gentleman that there has 
to be a congressionally stated level that we are comfortable 
with that can approve this, particularly in light of Fast and 
Furious, recognizing that cartel members are unindicted and in 
fact, were part of this operation that led to Brian Terry's 
death. So I join with the gentleman in support of Congress 
doing oversight and taking that role.
    Mr. Lynch. I thank the gentleman, and I yield back the 
balance of my time. Thank you, sir.
    Chairman Issa. I thank the gentleman for yielding back.
    We now go to the gentleman from Arizona, Mr. Gosar.
    Mr. Gosar. Thank you, Attorney General, for coming today. 
There is no secret about how I feel, absolutely no secret. And 
I am appalled, absolutely appalled. And I am appalled even 
further about the discussion today, because if this same thing 
had occurred on the east coast, how much more of a ruckus we 
would have heard. How much more we would have actually taken 
into consideration.
    I am the only member on this committee that is from 
Arizona. Yes, we lost a border agent. But we are further 
impugned because these guns are going to show up at crime 
scenes, particularly in Arizona, from here to whenever, as well 
as the Mexican government, and the Mexican people who have lost 
over 300 people.
    And I think that I am very taken aback by when you said, 
you know, we shouldn't be doing this. We shouldn't be gun 
walking. And everybody knows that that is inappropriate. Well, 
I tell you what. That shows me exactly why I am so appalled, 
because if there was a doctrine out there that said listen, if 
you walk guns, you are going to do time, that is the penalty 
that should be placed here, because that is what we are going 
to have to endure. And I am finding it very upsetting that 
Arizona is taking this on the face and we trivialize what is 
going on here.
    I think we should be able to share all information to find 
exactly who exactly authorized this. We talked about in-line, 
people that have been moved from Arizona up the line to DOJ, 
having that discussion to find out how this came about, because 
this is in our backyard. Don't you agree?
    Attorney General Holder. Agree--you have said a lot.
    Mr. Gosar. Don't you agree that we shouldn't trivialize 
this.
    Attorney General Holder. No, and it has not been 
trivialized. This is obviously--at least not by me.
    Mr. Gosar. Do you think it is appropriate that we just say 
don't do it. You shouldn't be doing gun walking. Or do you say 
it shouldn't be done, and if it is done and you are found 
culpable and you are a participant in this, that you should be 
held to the same standards as the rest of us are?
    Attorney General Holder. What I did after I found out about 
gun walking was to issue a directive that said this is 
unacceptable, don't do it, and you will be held accountable if, 
in fact, you do do it.
    Mr. Gosar. So you will agree with me that if they do this, 
and they are put before a jury of their peers, that they would 
do criminal time?
    Attorney General Holder. Well, I don't know about criminal 
time. I mean, one has to look at the facts of a particular 
case, and if somebody did something with criminal intent, sure, 
that would be appropriate. But if somebody did something with 
criminal intent. I mean, you have to get past, you know, beyond 
a reasonable doubt. There is a whole variety of things----
    Mr. Gosar. You just can't slap somebody's hand on this and 
just say don't do it again. What I am seeing here is it is 
something inappropriate, and that is in Main Street America, we 
don't get these same kind of privileges to make mistakes. And 
we are dealing with people's lives.
    Attorney General Holder. Well, you know, we actually do 
have a situation in which people who engage in straw purchasing 
and in some forms of gun trafficking actually do get slaps on 
the wrist and that is why we need a stronger gun trafficking 
law and we need greater penalties when it comes to straw 
purchasing. Because we have as I think Agent Forcelli described 
people who essentially are being charged as if they were 
speeding. That is unacceptable.
    Mr. Gosar. So straw purchasing, so let me ask you with the 
FFLs, the Federal firearms licensees, no new regulations on 
them? They did everything that they were told to do and then 
some. They kept even pounding people saying, this is ungodly. 
This same guy is coming in here and we got ATF saying sell 
guns. Sell the guns. Something is wrong here. So putting 
additional restrictions on FFLs is not the protocol. It is 
further disseminating what is going on and than having a higher 
cognizance, won't you say?
    Attorney General Holder. I am not sure what additional 
restrictions you are talking about when it comes to FFLs.
    Mr. Gosar. Obviously right now, down in Arizona we have 
further paperwork to fill out if you are selling long guns. How 
did that come about?
    Attorney General Holder. Well, four States, the border 
States have been asked if you sell long guns, like AK-47s, more 
than two guns in a 5-day period, that ought to be reported to 
ATF, which is what is consistent with what they have to do now 
when it comes to the sale of handguns. That is all we have 
asked. And that is a nationwide thing that has been in effect, 
the handgun restriction, since the 1980's, I think probably 
since the Reagan administration.
    All we have said is the four States, the four States along 
with the border where the greatest amount of trafficking occurs 
into Mexico, that you have this additional requirement, and a 
Federal judge here in Washington has said that that is 
appropriate.
    Mr. Gosar. I find it interesting that back here on the east 
coast dictating west coast. But you know, a hypothetical. So 
what do you think the penalty should be for a cabinet member, a 
sworn officer of the law, who comes to testify before Congress 
and knowingly lies?
    Attorney General Holder. Well, hypothetically, there is a 
perjury statute. There is a false statement statute. I don't 
know what the penalty is. It is 10 years. I am not sure. 
Whatever. We have something in Title 18 that already answers 
that question.
    Mr. Gosar. Well, I am one of those people that I find it 
disdainful about how we have conducted business over this. If 
it were any other State than Arizona, I think we would have 
seen different results and different penalties and different 
critical people and manpower put toward this to find this and 
being much more cooperative, and I am very disturbed by that.
    Attorney General Holder. We have talked an awful lot about 
during the Republican primary----
    Chairman Issa. The gentleman's time has expired. Is there a 
pending question you are answering, Mr. Attorney General?
    Attorney General Holder. I think I was.
    Chairman Issa. Okay, feel free to answer the question.
    Attorney General Holder. I was just saying that, you know, 
the notion that we are somehow looking at this in a regional 
way and that a particular region of the country is not getting 
the attention that it deserves or it is not being taken as 
seriously as it might if something happened back on the east 
coast, your reference to a judge here in Washington, this is an 
American problem. This is an American problem. And what I have 
tried to say is that, you know, we too often think about these 
things as border problems, when the reality is what happens in 
Arizona, what happens in New Mexico, California, Texas, will 
have a direct impact in Chicago, New York, other parts of 
California, Washington State, here in Washington, DC.
    Chairman Issa. I thank the Attorney General. I don't think 
there really is a pending question that that is responsive too. 
But I appreciate your comment.
    We now go to the gentleman from Virginia for 5 minutes, Mr. 
Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, and welcome, Mr. 
Attorney General, and thank you for being here and showing such 
dignity and honor in the face of some attempts to suggest you 
are other than a dignified and honorable Attorney General 
serving his country well. And I just think for the record, 
welcome on Groundhog Day. We heard that Punxsutawney Phil saw 
his shadow, so we have 6 more weeks, and it is fitting you are 
here for the sixth time before Congress with repeated attempts 
to try to pin something on you and this President that cannot 
be pinned, and it is my firm hope that at some point the 
majority would actually acquiesce to the request to have your 
predecessor Mukasey come here and talk about Wide Receiver and 
his knowledge of that program and gun running.
    Mr. Holder, I assume there is a law that specifically 
forbids the trafficking of firearms, particularly if that 
trafficking ends up arming drug cartels, or if the weapons are 
subsequently found at crime scenes. Is that not the case?
    Attorney General Holder. We don't have a Federal 
trafficking statute, and that is one of the things that we are 
working for.
    Mr. Connolly. I am sorry. Forgive me for interrupting. We 
don't have such a law?
    Attorney General Holder. No. And that is one of the things 
that we have been trying to get Congress to consider and to 
pass.
    Mr. Connolly. Well, now, you have appeared before Congress 
many times, six on this subject. Has any of the congressional 
committees summoning you to testify had a hearing on that law, 
the need for such a law?
    Attorney General Holder. No.
    Mr. Connolly. Despite our concern about deaths and violence 
and an operation gone bad, we haven't had a hearing on trying 
to forbid the trafficking of firearms and making it a Federal 
penalty?
    Chairman Issa. Would the gentleman yield?
    Mr. Connolly. I would prefer not to, Mr. Chairman.
    Please, Mr. Holder, answer the question.
    Attorney General Holder. No, we have not had that hearing. 
I have tried to raise it as part of one of the reasons--part 
the things that I think we ought to be considering as a means 
to deal with this issue, to deal with this problem. There is 
clearly a need for a Federal trafficking, a firearms 
trafficking statute.
    Mr. Connolly. Isn't that interesting that in the majority 
in this Congress we haven't had a hearing on that subject. 
Well, if there isn't a strong penalty for firearms trafficking, 
surely there is some kind of harsh penalty for straw purchasers 
of guns?
    Attorney General Holder. I would like to be able to say the 
answer to that question is yes, but, unfortunately, the answer 
to that question is also no. As I indicated before, I go back 
to him only because he has great--more experience than I do, 
Agent Forcelli who testified previously before this committee, 
likened the Federal straw purchasing penalties to a speeding 
ticket.
    Mr. Connolly. At this very committee?
    Attorney General Holder. Right. Yes. At this committee, and 
that I think is obviously unacceptable.
    Mr. Connolly. And the testimony of that agent called by 
this committee, by the majority in this committee, was actually 
interrupted and chastised for the nature of his answer because 
it actually dared to talk about the need for stricter gun 
enforcement and tougher penalties. Is that your recollection, 
Mr. Attorney General?
    Attorney General Holder. I believe Ms. Maloney was asking a 
question in that regard, and I don't know what the technical 
term was, but it was ruled out of order or something.
    Mr. Connolly. When I was in Mexico on a bipartisan 
leadership trip to talk about this and some other difficult 
topics with the Attorney General of Mexico at the time, we 
asked the Attorney General, if there was one thing the United 
States could do to help you in your battle against drug cartels 
in the north of your country, violence that has gotten 
unbelievably, unspeakably out of control, what would it be? And 
his answer was, reinstate the assault weapons ban as American 
law. Your view on that?
    Attorney General Holder. This administration has 
consistently favored the reinstitution of the assault weapons 
ban. It is something that we think was useful in the past with 
regard to the reduction that we have seen in crime, and 
certainly would have a positive impact on our relationship and 
the crime situation in Mexico.
    Mr. Connolly. Well, surely we have had a hearing on that 
though. I mean, you have been up here six times. This is all 
about trying to protect that border with Mexico and to try to 
help Mexico as well as protect U.S. security of U.S. citizens. 
Surely, we have at least had a hearing on that subject, have we 
not?
    Attorney General Holder. Not to my knowledge. Not a hearing 
that I participated in.
    Mr. Conyers. Really? It makes one wonder what this hearing 
is actually all about. I yield back.
    Chairman Issa. Would the gentleman yield?
    Mr. Connolly. I certainly would, Mr. Chairman.
    Chairman Issa. By the way, we are happen to entertain all 
suggestions for hearings. I will note that you keep saying 
six----
    Mr. Connolly. Reclaiming my time just for a second there, 
Mr. Chairman. I am delighted to hear that you are happy to 
entertain such requests. I would then formally request that the 
former Attorney General, Mr. Mukasey, be invited to the 
committee to testify about what he knew and when he knew it 
about the program analogous to Fast and Furious in the Bush 
administration.
    Chairman Issa. We will attempt to glean that information. I 
don't know if it will be by personally having somebody come, 
but we do intend to glean information from prior 
administrations as to the level of coverage, and I will work 
with the gentleman on that. I might, though, note that of the 
six times the Attorney General has appeared, for example, to 
the Appropriations Committee, he may have been asked a question 
related to Fast and Furious, but that wasn't the purpose for 
which he came.
    And I would only note that as far as I can tell, the 
Department of Justice has not submitted a request for a Federal 
firearms law to Congress. So I know that the gentleman is very 
concerned about these laws. Asking Congress to sua sponte come 
up with ideas for laws is actually seldom the way the 
administration would like it. And I might mention to the 
gentleman that if the Attorney General and Justice came up with 
a proposed firearms law, that might be a good start to 
answering your concerns.
    I yield back.
    Mr. Connolly. Mr. Chairman, if you would just indulge, 
because I would like to follow up on that, that is a very good 
point.
    Chairman Issa. I ask unanimous consent the gentleman have 
an additional 30 seconds.
    Mr. Connolly. I would just take our joint question then if 
you would, Mr. Chairman, and ask the Attorney General to 
comment. Why hasn't the administration, in fact, made the 
request the chairman just referred to with respect to 
toughening gun laws?
    Attorney General Holder. Well, we have certainly requested 
it in the past. I will be more than glad to submit something 
for consideration. We would love to work with this committee, 
the Judiciary Committees in both Houses in that regard. I 
believe that Mrs. Maloney actually has a bill that I think 
would be a good starting point for us. There is something that 
exists there that would be the basis for that conversation.
    Chairman Issa. Does the President support Mrs. Maloney's 
bill?
    Attorney General Holder. We would certainly want to work 
with her on that bill. I mean, obviously there are going to be 
some things we want to work on, but I think that is certainly a 
good starting place.
    Mr. Cummings. Would the gentleman yield? I know we are out 
of time. But I just want to make sure that is my bill and Mrs. 
Maloney's bill.
    Attorney General Holder. I am sorry.
    Chairman Issa. That will probably help the President like 
it even more.
    Mr. Cummings. And we welcome your support.
    Chairman Issa. All right. I thank all of the gentlemen and 
lady. With that, we go to one of the most experienced members 
of the committee, although a freshman, the gentleman from 
Pennsylvania, Mr. Meehan, for 5 minutes.
    Mr. Meehan. Thank you, Mr. Chairman, and thank you, Mr. 
Attorney General. I know I sent you a letter some time ago and 
I appreciate your coming to our committee. Look, I am going to 
try to do my best to work as we try to do with the facts that 
are before us, as limited as they are based on the discovery. 
But what I have been able to glean, as everybody agrees, is the 
tactics of the ATF are not to be supported or condoned.
    But if you heard testimony that was given from the U.S. 
attorney in Arizona, Paul Charlton, in 2007, that he disagreed 
and approved of those tactics and declined the request to 
prosecute the cases of Wide Receiver, would you dispute that at 
all?
    Attorney General Holder. I am not aware of Mr. Meehan's--
Mr. Charlton's testimony.
    Mr. Meehan. It is his testimony that he declined to 
prosecute those cases. And just so you know, the other facts 
that I have been able to glean is that Kevin Carvell, who is a 
DOJ Criminal Division gang unit supervisor in September 2009 
called it a semi-dormant investigation, gun trafficking 
investigation by ATF. And in 2012, Jason Weinstein called it a 
case from years earlier, which, in my mind, suggested it was 
not something which was current.
    Attorney General Holder. But Wide Receiver was dormant and 
then was brought back to life.
    Mr. Meehan. Well, I want to know why. That is a pretty good 
question, because--who is Laura Gwinn?
    Attorney General Holder. I don't--I am not sure. I don't 
know.
    Mr. Meehan. Well, let me tell you who Laura Gwinn is again, 
going back. Apparently Laura Gwinn was an attorney from main 
Justice who was sent by Lanny Breuer to prosecute gun cases, 
and around 2009, September 2009, she was sent to Arizona to 
prosecute gun cases. In her e-mail, September 2, 2009, she 
sends an e-mail to Jim Trusty in the U.S. Department of Justice 
in Washington and it says ``it is my understanding a lot of 
those guns walked.''
    So we had an attorney from your Department sent to 
Washington who sends a communication back to mid-level or 
senior level people in the criminal department saying it is my 
understanding, I am on the scene, guns walked. And I want to 
know why, when a former U.S. attorney based on those opinions, 
declines to prosecute cases because he does not like the 
procedures of the ATF, and an attorney who goes and identifies 
gun walking, why would a subsequent administration send down 
attorneys and resurrect these cases for prosecution?
    Attorney General Holder. Well, I mean, we want to try to 
hold accountable the people who were responsible for crimes 
that were committed, and I would guess that people took into 
account the techniques that were used in making the 
determination as to which cases would, in fact, be prosecuted.
    Mr. Meehan. Well, I sure do think that that is correct. And 
who do you think the people are who sit there and take into 
account the techniques that were used? Those people in ATF that 
are looking for the determinations from the Department about 
what tactics are appropriate. And what signal does that send 
when the prior previous U.S. attorney declines and says those 
aren't appropriate tactics, but the new one comes down and says 
no, we believe that we are going to prosecute these cases in 
which those tactics were used.
    But this was simultaneous as well, I know, to an effort in 
2009 when Lanny Breuer actually went down and discussed the 
idea of traveling to Arizona to meet and plan ways to 
coordinate gun trafficking. So I just wanted to know why that 
determination was made.
    Let me switch to one other thing, because again, it comes 
back to the idea of who knew what and when. Was Fast and 
Furious an OSADEF case?
    Attorney General Holder. Yes, I think it received an OSADEF 
designation.
    Mr. Meehan. And, you know, I am holding in hand the U.S. 
attorney manual, and we have all lived with this, and I know 
you know it----
    Attorney General Holder. You have, certainly.
    Mr. Meehan. We have spent our time. I look and it says, I 
am talking about the places, authority of the U.S. attorney and 
what needs to be approved by the Department of Justice. 
Approval is required for organized crime strike force cases, of 
which Fast and Furious was. Every significant action in the 
investigation and prosecution from case initiation, court-
authorized electronic surveillance, witness immunity, witness 
protection, and other important events must be approved in 
advance by the organized crime and racketeering section, which 
is in Washington, DC, the last I looked, correct?
    Attorney General Holder. That is correct.
    Mr. Meehan. So we have the Department in Washington who is 
actually making determinations about the sufficiency of the new 
investigations that are taking place, the OSADEF investigations 
that are taking place, correct, which became Fast and Furious.
    Attorney General Holder. Well, I am not sure exactly--it is 
one of the things we have to try to, again, figure out, who 
exactly----
    Mr. Meehan. Well, Mr. Holder, I am figuring it out. I am 
watching the documents. I am giving you that route.
    Attorney General Holder. Well, there is clearly--I 
understand the regulation that you have read. Now the question 
is who actually made the necessary approvals, who was involved, 
why did they do something that might have been contrary, as you 
say, I don't know, to what the previous U.S. attorney did. 
These are the kinds of things that I think we are going to find 
out from the Inspector General. I have not done a top-to-bottom 
review yet. I haven't been allowed to do that. I can't do that.
    Mr. Meehan. One of the things we know is there are 
approvals as well for wiretaps, and in the conclusion of 
approval for a wiretap, we know that we have to put together a 
document which is an affidavit from law enforcement, an 
affidavit in which to be approved, it has to suggest that all 
other law enforcement options with respect to investigative 
techniques have been exhausted and are not--so I don't have 
access. I would ask, but I suspect you are not going to let 
former Federal prosecutor and myself, Mr. Gowdy, have access to 
the seven separate affidavits that were included as part of the 
wiretap authorizations that were approved by your Department. 
Would we be allowed to have access to them?
    Attorney General Holder. You know, I am not sure what the 
history is in that regard----
    Mr. Meehan. They are sealed. I know they are sealed.
    Attorney General Holder. They are sealed. And I don't know 
whether or not as part of our interaction with Congress 
historically, the Department has sought unsealing orders in 
that regard. I just don't know.
    Mr. Meehan. I would like to know what was in those wiretap 
affidavits with respect to which we know there needs to be the 
articulation of the investigative steps that were taken. And if 
I am----
    Attorney General Holder. I am sorry, go ahead.
    Mr. Meehan. I would like to know if we would have the 
ability to be able to review those, and even in some context in 
which we could negotiate. The only thing we want to see is the 
extent to which there may be references to tactics that were 
used by ATF with respect to gun walking.
    Attorney General Holder. Well, as you and Mr. Gowdy will 
know maybe better than anybody else on the committee, these 
kinds of applications don't always go into all of the 
techniques that are used in a particular investigation.
    Mr. Meehan. But I don't know that, and I would like to know 
that.
    Attorney General Holder. I am just saying generally. So 
that there is the possibility that a review of the material 
submitted by the field in Washington would not contain 
something that would say guns were allowed to walk, or however 
it might be described.
    Mr. Meehan. But there is also the possibility that it 
would, and what I want to know, because I do know that your 
authorities would have from OEO, and it would actually go up 
higher to Mr. Weinstein, if I am correct, who would have to 
review that affidavit. So it would be for a pretty serious high 
level guy in the criminal division that would have in his hands 
that affidavit if he so choose to read it.
    Attorney General Holder. A Deputy Assistant Attorney 
General has to ultimately approve a wiretap before it goes--a 
wiretap application before it goes before a court, and we have 
tried to put in place some new measures with regard to OEO and 
how these things are handled. But I will, you know, I will look 
and see what we have done historically with regard to these 
wiretap applications and see how we will proceed, given the 
request that you have made.
    Mr. Meehan. Thank you. My time has expired.
    Chairman Issa. I thank the gentleman. We now go to the 
gentleman from Illinois, Mr. Quigley.
    Mr. Quigley. Thank you, Mr. Chairman.
    Mr. Chairman, as someone who has gone through about 200 
trials myself, I know there are a lot of experienced trial 
attorneys in this courtroom. I appreciated the novel, Bonfire 
of the Vanities. The best line I have read----
    Chairman Issa. Say that again, Bonfire----
    Mr. Quigley. Bonfire of the Vanities.
    Chairman Issa. I would ask unanimous consent that the 
gentleman have 15 more seconds to educate us as to that.
    Mr. Quigley. Well, there is a wonderful scene in which 
Judge White talks to the district attorney about prosecuting 
defendants for opportunistic reasons. He concludes wonderfully 
by saying, so go tell your boss, the district attorney, Captain 
Ahab Weiss, that I know he is out there looking for the great 
white defendant, who Mr. Williams over there is not it.
    Much the same is today. We come to the conclusion after 
nearly six hearings that I note there are those looking for the 
perfect case to embarrass the Attorney General and the 
President, but after six hearings, this is not it. I say so 
respecting and understanding that this is a great tragedy, a 
great loss that requires change and accountability. But if it 
is done in a way with a Hollywood-type persona, it is 
opportunistic.
    Frankly, it took the minority staff to write a pretty good 
detailed analysis of what happened and what needs to change. 
And now, Mr. Attorney General, it is incumbent upon all of us 
to make sure that happens, and as you suggested there is 
accountability.
    But if it is just deflection, we fall into the other movie 
trap of the day, which, Mr. Chairman, you referenced, and that 
is Groundhog Day. Let's remember what happened in that movie. 
The character Bill Murray lives the same day over and over 
again until he reaches his own reality and comes to terms with 
it.
    We do as well. We have to come to terms with the reality 
that in this country we let something that is dastardly take 
place and it wasn't corrected fast enough. And we need to make 
changes. And while they are started, we still need 
accountability. But it can't be a deflection.
    Now, Mr. Attorney General, you mentioned some of the 
issues, the lack of a firearms trafficking statute. We talked 
about the long arm reporting requirement to a certain extent. 
You mentioned testimony at a previous hearing from agent Peter 
Forcelli. His exact quote, by the way, was ``Some people view 
this as being no more consequential than doing 65 in a 55.'' 
That was his testimony about punishment for straw purchases. He 
also said something else that is related to this issue and 
where we go from now on. He said, ``I have less than 100 agents 
assigned to the entire State of Arizona. That is 114,000 square 
miles. So do we have enough resources? So do we have the 
resources? No, we don't. We desperately need them.''
    I also would note toward that end that appropriate funds 
for additional ATF personnel in this fiscal 2012 year, 
Congress' appropriations for ATF was $57 million below the 
agency's modest request, resulting in increased layoffs and 
early retirement for critical personnel. ATF plans to reduce 
its work force by about 5 percent to comply with these budget 
constraints, leaving fewer agents to pursue traffickers and 
inspect the small handful of dealers who repeatedly violate 
these gun laws.
    Mr. Attorney General, if you could briefly comment on the 
resources needed to do this job?
    Attorney General Holder. Yes. I think that if we are 
serious, as we all say we are about dealing with this problem 
of guns going to Mexico, we have to have an ATF agency that is 
staffed well, that has the appropriate leadership and that has 
sufficient resources. We have asked for, with regard to these 
teams that ATF puts on the border funding for 14 of them. We 
only got funding for nine. We need more people than we have now 
in ATF in order for them to do the job in the way they want. We 
need a permanent head of ATF. There is something that comes 
with a Senate-confirmed head that is different from somebody 
who acts in an acting capacity, even though Todd Jones, I 
think, is doing a great job.
    We need all of these things in order for ATF to be as good 
as it can be with regard to the work that it does along the 
border, and the decision by whoever to keep this agency not as 
strong as it possibly might be is something that I think does a 
great disservice to the American people, and certainly to the 
law enforcement effort that we all think is important.
    Mr. Quigley. Mr. Chairman, my time has expired.
    Chairman Issa. I thank the gentleman. We now go to the 
gentleman from Tennessee, Mr. DesJarlais. Would the gentleman 
yield for 5 seconds?
    Mr. DesJarlais. Yes, sir.
    Chairman Issa. Mr. Attorney General, I would like to make 
sure we make clear, for 2 years, the President didn't put up a 
nominee for that position nor did he take advantage of recess 
appointment. So I know the gentleman was well-meaning, but 
perhaps ill-informed as to the facts related to the director.
    Mr. DesJarlais.
    Mr. DesJarlais. Mr. Attorney General, thank you for being 
here. If we resolve nothing else here today, we made it 
painfully clear that you have been here at least six times. I 
don't think there is any question about that. But why, why have 
we been here six times and why is it taking so long to get the 
answers that we need, and how could we have made this process 
more simple?
    If you will indulge me for a minute, let's just take a 
hypothetical that I come home from work 1 day and my kitchen 
window is broken out and my boys are there all day playing 
baseball and I know it. Well, you know, I ask them how the 
window is broken. They don't know. There is a bat laying in the 
driveway, there are gloves laying on the table, but they are 
just not going to fess up. So I kind of think I know what is 
going on, but we can't be sure, because they are not being 
straight with me.
    So maybe my wife is a little uncomfortable and she says, 
well, someone could have tried to break in. Maybe we should 
call the police and have them come out and investigate to make 
sure someone didn't try to break in. So this process goes on 
and on, even though we know that something isn't right. So, at 
any rate, I just use that loose parallel, and I think you know 
where I am going.
    So you are here multiple times, and you opened your 
statement with that you are the Attorney General and that you 
operate under the highest standards of integrity and 
professionalism, and that is exactly what you have done and 
what you are doing, and I really have no reason to question 
that. But when we started asking for information, and if they 
could put up the slide about the Stonewall City, if we look at 
this, these are some of the things we have asked for to 
expedite this process, some of the evidence, if you will, the 
number of documents that we have asked be turned over and what 
we have, the number of witnesses that we have asked to talk to 
and what we have actually gotten.
    These are the kind of things that I guess are frustrating 
for us as we try to get to the bottom of this for Agent Terry's 
family, and so that these kind of things don't happen again. 
Now, you said that you were notified probably within 24 hours 
of Agent Terry's death, was that what I heard you say? Sir?
    Attorney General Holder. I am sorry?
    Mr. DesJarlais. You were notified----
    Attorney General Holder. I was looking at Fortress Holder 
there. I was kind of interested. That is not my house, by the 
way.
    Chairman Issa. Actually, I think it is closer to 
Disneyland. We are a little concerned that it looks a little 
too grand for anything in our government.
    Mr. DesJarlais. Did you say that you were notified about 24 
hours after Agent Terry's death?
    Attorney General Holder. I am sorry, yes.
    Mr. DesJarlais. And when you were notified, did they 
mention the Phoenix project to you?
    Attorney General Holder. No.
    Mr. DesJarlais. You had no knowledge that that death was, 
in any way, linked to what went on in Phoenix. There was no 
mention made of that?
    Attorney General Holder. Well, Phoenix, I am sure there was 
some kind of geographic reference. But with regard to Fast and 
Furious, I didn't know about Fast and Furious until later, 
January, early February.
    Mr. DesJarlais. So there were no bells going off or any 
concern about the gun running or anything at that point?
    Attorney General Holder. No. None of the people who were 
told of the murder were made aware of the tactics.
    Mr. DesJarlais. Okay. Let me reference a letter that was 
dated February 4th, and I think the author is sitting behind 
you today, Assistant Attorney General Ronald Weich.
    Attorney General Holder. Maybe he ought to sit here.
    Chairman Issa. With all due respect, he has had this hot 
seat for real more than you have, Mr. Attorney General.
    Mr. DesJarlais. He submitted a letter to the committee that 
denied that ATF sanctioned or knowingly allowed the sale of 
assault weapons and allowed them to be walked, and I think your 
Department had this letter withdrawn, is that correct?
    Attorney General Holder. That is correct.
    Mr. DesJarlais. How long did it take to withdraw the 
letter?
    Attorney General Holder. It was formally withdrawn in 
December, December 2nd. Prior to that, there were a number of 
indications by me, by Mr. Weich, by Mr. Breuer, that we were 
not satisfied with the assertions that were contained in that 
February 2nd letter. But it was formally withdrawn on December 
2nd.
    Mr. DesJarlais. It wasn't a deliberate attempt to deceive 
Congress? The letter?
    Attorney General Holder. No. I mean, if you look at the 
materials that we made available, the deliberative materials 
that we made available, you can see how people were, I think, 
really struggling to try to get the best information they could 
to Congress as quickly as they could, but I think they made a 
couple of mistakes. They needed to take more time and they 
needed to drill down further.
    Mr. DesJarlais. Inaccurate information.
    Attorney General Holder. They didn't go down to talk to the 
line people. They stopped at the supervisory level.
    Mr. DesJarlais. Well, it is amazing how quickly 5 minutes 
goes. But I guess as a parent, I want my kids to do the right 
thing, and I am sure as the Attorney General, you want the 
people who work under you to do the right thing. So I guess 
moving forward, how do you feel that you can regain the trust 
of the American people in light of all that has happened with 
Fast and Furious?
    Attorney General Holder. Well, I will take issue with you 
again, respectfully. I am not sure I have lost trust of the 
American people with regard to this issue. This has become a 
political thing. I get that. That is fine. So there is a 
certain segment of the American people, certainly a certain 
segment of this Congress that has lost faith in my abilities as 
a result of what has happened in Fast and Furious. But I think 
the way in which to the extent that there are people who are 
willing to be persuaded and who have a contrary view now, I 
think they need to look at the way in which I reacted to this, 
the steps that I have taken, the procedures that I have put in 
place, the personnel changes I have made, and ultimately what I 
am going to do when I have the ability to look at the minority 
report, I assume there will be a majority report, the Inspector 
General's report, and judge at that point whether or not I have 
reacted appropriately to what was a flawed investigation, both 
in concept and in execution.
    Mr. DesJarlais. And with all due respect, sir----
    Chairman Issa. The gentleman's time has expired, so please 
be brief.
    Mr. DesJarlais. Okay. With all due respect, with what we 
see here on your house, not your house, but the letter that was 
sent in, what may appear as political appears now somewhat as a 
cover-up----
    Chairman Issa. The gentleman's time has expired.
    Mr. DesJarlais. And a lot of information here doesn't seem 
to be accurate and I think that is why the number of hearings 
continue to go on us, because I don't think we are getting the 
full information. I apologize.
    Attorney General Holder. Wait a minute.
    Chairman Issa. If you want to react to something very 
quickly, please.
    Attorney General Holder. Well, I have heard the magic word 
here, ``cover-up,'' and I want to make clear that there is no 
attempt at any sort of cover-up. We have shared huge amounts of 
information. We will continue to share huge amounts of 
information.
    There is a misperception as I think was indicated in the 
Deputy Attorney General's letter that maybe I can clear up now, 
that we are not going to be hiding behind any kind of 
privileges or anything to not provide this committee with 
information that it wants. We are talking about not providing 
deliberative material, and that is consistent with what 
executive branch agencies beyond the Justice Department always 
do.
    But with regard to things post-February 5th, February 4th, 
if there is a relevant request, we will respond to that 
request. The only thing we are not talking about responding to 
is with regard to deliberative material. That was a great 
little diagram that you had up there, inaccurate in some pretty 
glaring ways, but it is not up there now.
    Mr. DesJarlais. And that is what my boys with the baseball 
implied as well.
    Chairman Issa. I thank the gentleman, and we can have a 
later discussion on how many witnesses and how much information 
and so on.
    For the Attorney General's edification, and I know Mr. Ron 
Weich will help you, we have published two majority interim 
reports, and hopefully he can bring those to your attention. 
Additionally, this committee is investigating a number of 
things post-February 4th including related to the false 
response, and we hope that that will be cleared up once you 
give us or fail to give us a constitutional basis for 
withholding.
    With that, we now go to the gentleman from Illinois, Mr. 
Davis is next in order.
    Mr. Davis. Thank you very much, Mr. Chairman. I notice that 
we have heard the terminology ``cover-up'' a great deal, not 
only during this discussion, but prior to now, and I think 
there is no doubt that there is not a single member of this 
committee who does not recognize the need for some serious 
change.
    At the outset of this inquiry, Justice Department officials 
sent a letter to Senator Grassley denying that gun walking 
occurred in Fast and Furious. However, the Department has, 
since then, said that the letter contained inaccurate 
information and that senior Department officials relied on 
adamant denials by ATF and the Arizona U.S. Attorney's Office.
    Mr. Attorney General, to your knowledge, did anyone at the 
Department of Justice headquarters intend to mislead Congress 
in responding to Senator Grassley's inquiry?
    Attorney General Holder. No, I don't believe that. We 
submitted inaccurate information, but it was based on attempts 
to get that which was accurate, and people simply did not have 
access to it. People who we relied on and who we thought were 
in possession of the most accurate information were, in fact, 
not. There was no intention to deceive, but the information 
provided was regrettably inaccurate, and that is why we 
withdrew the letter.
    Mr. Davis. And you have taken action to hold the personnel 
within ATF and the U.S. Attorney's Office accountable for 
conveying inaccurate information to the Department?
    Attorney General Holder. We have certainly looked at those 
places where personnel changes could be made. Some have been 
made. It is possible that others will have to be made. There 
are reports that are going on. I will wait for those and see 
what happens, although I have an independent responsibility, 
separate and apart from whatever the Inspector General 
generates, to make up my own mind about what kinds of personnel 
decisions we need to make, I need to make.
    Mr. Davis. The committee has also interviewed a number of--
numerous witnesses, involved in compiling and reviewing the 
response to Congress. The Department has also produced more 
than 1,300 pages of correspondence relating just to the issue 
of how the original letter to Senator Grassley came to be 
drafted. These documents support the account of senior 
Department of Justice officials that they relied on factual 
assertions from the U.S. Attorney's Office in Phoenix and from 
ATF. Within 2 months of the February 4, 2011 letter to the 
Senator, Department officials told committee staff that the 
letter was unintentionally inaccurate and stated that the 
Department would cooperate with the committee's investigation. 
The Department has now produced over 6,000 pages of documents 
and made 18 witnesses available for transcribed interviews, 
and, of course, you have testified on matters relating to this 
issue six times. Is the Department cooperating with Congress?
    Attorney General Holder. I think we are. I think that we 
are trying to meet the legitimate requests that have been made 
by this committee. This is a legitimate hearing. This is a 
legitimate concern that Congress is raising and I think what we 
have tried to do is respond as best we can to the requests that 
we have made as quickly as we can while, at the same time, 
making sure that we don't do things that will have a negative 
impact on our ability to do our jobs, and that is with regard 
to that small amount of information that deals with 
deliberative materials.
    Mr. Davis. What categories of information are being held 
and why?
    Attorney General Holder. The material being held and I 
think things that we are going to have to try to work our ways 
through are, as I have described, deliberative materials, where 
we have eight people within the Justice Department talking to 
one another about how we are going to respond to a 
congressional request or a media request. That kind of--that is 
the kind of material that we are talking about. We have made 
available huge amounts of other material. We are still in the 
process of processing other things that we will make available. 
We are acting in a way that executive branch agencies have 
always acted.
    Now, you know, again, we can continue to have conversations 
about even this deliberative material and see if there are ways 
in which we can share it. One of the things I think that we 
have to take into account, and I am not sure anybody has ever 
done this, we made deliberative material, wholesale 
deliberative material available with regard to that February 
4th letter, as you say about 1,300 pages of material. I am not 
sure I know any Attorney General who has ever done that before 
to that degree, and I thought it was the appropriate thing, 
given the inaccuracies that were contained in that letter.
    Mr. Davis. Thank you very much. I appreciate, Mr. Chairman, 
that we are dealing with Fast and Furious, but I also think we 
got to make sure that we are fast and accurate, as accurate as 
we can possibly be. I yield back.
    Chairman Issa. I thank the gentleman. I might note for the 
record that the delivery of the February 4th related material 
occurred only after I threatened a criminal referral for its 
inaccuracy. It was at that point that we began getting some 
cooperation, and not before. With that, we recognize the 
gentleman----
    Attorney General Holder. Well, Mr. Chairman, our view is 
that we can disagree on this. We think that the provision of 
that February 4th material was done voluntarily, not under 
coercion.
    Chairman Issa. All right. My threat of criminal prosecution 
isn't coercion. It is a fact that we were given false 
information and it was subject already to a subpoena. 
Cooperation subject to a subpoena--by this committee's 
standards, we asked for things long before we issued a 
subpoena. We were told no. We issued a subpoena and we were at 
the level of going next before we got there. So I appreciate 
that everyone on both sides of the aisle has a different 
opinion, but the timeline is undeniable that we have never 
received voluntary cooperation until we had elevated it 
considerably in any case here. And certainly Senator Grassley 
would say the same thing when, in fact, he was told he didn't 
have subpoena authority, he wasn't the chairman. That is the 
reason he originally came to this committee, so we could begin 
the process of getting what he was denied in the Senate.
    Attorney General Holder. Well, I can say this. I was the 
one who made the determination that we were going to release 
that February 4th material, the deliberative material, and it 
was never brought to my attention that we had the things that 
you have just said. The decision that I made was based solely 
on what I felt was the right thing to do and without any notion 
in my mind that there was coercion or--I don't mean coercion in 
a negative way--that there was the threat of criminal 
prosecution or anything like that.
    My determination was made only on what I thought was right, 
given the provision, the regrettable provision of inaccurate 
information. Others might have known about that. I did not. And 
I was the one who made the call.
    Chairman Issa. I don't want to belabor this point, but I do 
want to make a point. I signed a subpoena October 12th. It was 
to you. So the cooperation came after your office in your name 
as you as the recipient received a subpoena. I hope that you 
read the subpoenas that come with your name on it.
    Attorney General Holder. But the subpoena, we would not 
have replied in response to that subpoena, we would not have 
given you the deliberative information. That would not have 
been something that we would have provided.
    Chairman Issa. We are entitled to it and we are not going 
to debate that any further. Case law is on our side.
    With that, we go to the gentleman from South Carolina, 
another constitutional officer in this branch of government, 
for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Holder, it is provable beyond a reasonable doubt in my 
judgment that main Justice had actual or constructive knowledge 
of gun walking, both in Fast and Furious and beforehand, and I 
am going to prove it to you.
    March 2010, DOJ, not U.S. Attorney's Office in Arizona, DOJ 
assigned a prosecutor to Fast and Furious. March 2010, Gary 
Grindler, who I believe is your chief of staff, knew about 
straw purchases in Fast and Furious and seizures in Mexico, and 
it doesn't take a very good prosecutor to ask how weapons got 
from Phoenix to Mexico.
    July 2010, a memo to you through the acting deputy AG, that 
memo specifically mentioned Fast and Furious. It specifically 
mentioned straw purchasers. It specifically mentioned 1,500 
firearms supplied to Mexican drug dealers. That is July 2010, 
1,500 firearms.
    April 30, 2010, a memo from main Justice employee Weinstein 
to Lanny Breuer, ``ATF let a bunch of guns walk.'' Then the 
rest of the email is worrying about the negative press 
connotations that may have come from that. Not how to fix the 
policy, but how to mitigate negative press consequences.
    October 2010, Jason Weinstein and James Trusty swapped 
emails, and specifically mentioned gun walking. And, Mr. 
Attorney General, that email is so illustrative of our 
frustration with the notion that main Justice did not know 
about this. I am assuming that James Trusty is a main Justice 
employee, am I correct?
    Attorney General Holder. I believe that is correct.
    Mr. Gowdy. All right. This is the email, and they are 
specifically talking about Fast and Furious, and in fairness, 
they also mention Laura's Tucson case. They say it is a tricky 
case given the number of guns that have walked, but it is a 
significant set of prosecutions.
    The email back to that is I am not sure how much grief we 
are going to get from gun walking. It may be more like people 
are finally going to say we went after the people who sent guns 
down there.
    Now, lay aside the merits of that argument. How can you 
deny that people in main Justice knew gun walking was going on 
before that February 4th letter was sent to a Member of 
Congress? That doesn't even get into the wiretap applications. 
That doesn't get to the factual predicate that a member of main 
Justice would have had to have read--all of this is before 
February 4th. That whole series of evidence predates Mr. Weich 
sending a letter to Congress denying the tactic.
    So my question to you is this: Who participated in the 
drafting of the letter?
    Attorney General Holder. Well, first, again, you know, this 
is going to be one of those rare instances, you are right. 
There was knowledge within the Justice Department of gun 
walking. It was related to Wide Receiver.
    Mr. Gowdy. Mr. Attorney, with respect, I don't like 
interrupting people, but with respect, several of these emails 
specifically mention Fast and Furious. I am not talking about 
Wide Receiver. I would love to have that conversation some 
other time. These emails and memos specifically mention Fast 
and Furious.
    Attorney General Holder. They mention Fast and Furious, but 
do they mention gun walking and Fast and Furious.
    Mr. Gowdy. Yes, they do. That is my point.
    Attorney General Holder. I would like to see those. Those I 
would like to see.
    Mr. Gowdy. We got them from you. I mean, we got them from 
main Justice.
    Attorney General Holder. Let's do this: I promised to give 
you all some information. I would really like to see a memo 
that says gun walking and Fast and Furious. I would like to see 
that.
    Mr. Gowdy. Well, if you are looking for a videotaped 
confession, I probably can't give you that. But what I can give 
you is an email from two main Justice employees back and forth 
specifically mentioning Fast and Furious. ``It is a tricky 
case, given the number of guns that have walked.'' I don't know 
how it can be any clearer than that, Mr. Attorney General. And 
my point is this: The February 4th letter----
    Chairman Issa. The gentleman will suspend. In order to get 
to the truth, we are going to take a 5-minute recess and have 
the documents given to the Attorney General. I have too many 
people behind him trying to give him instructions on what it 
was and what it wasn't. Nobody leave. Please get the documents 
to the Attorney General. Take what time you need. Use my 
conference room if you need it.
    Attorney General Holder. I can stay here.
    Chairman Issa. A short recess for 5 minutes.
    [Recess.]
    Chairman Issa. Would everyone take their seats. We are 
going to reconvene as soon as the ranking member is back.
    As we reconvene, I understand that the Attorney General's 
people are comfortable with what the document is and the 
source. I would ask for an additional 1 minute for the 
gentleman to go through, restate the document, the source and 
so on. This is important, that all sides know what is being 
asked, whether there are assumptions of validity, truth and so 
on, and testimony that may accompany it. So, with that, the 
gentleman from South Carolina may resume.
    Mr. Gowdy. Thank you, Mr. Chairman. And in keeping with my 
open file discovery policy, I gave him my documents. They have 
my notes on them. I will go back through the list again. And I 
would also point out, Mr. Attorney General, there are several 
memos and emails I did not include because reasonably, it could 
be argued that they dealt with something other than Fast and 
Furious. Although keep in mind, my question, what I said I was 
going to prove is that DOJ knew Fast and Furious, and 
beforehand, that gun walking was a tactic, because the letter 
Mr. Weich wrote was not specific with respect to gun walking.
    True or false: DOJ assigned a prosecutor to Fast and 
Furious.
    Attorney General Holder. I believe that's right. There were 
people that went down--one or two, I'm not sure.
    Chairman Issa. The microphone.
    Attorney General Holder. I believe that that is right, that 
there were people who went down, one or two, I am not sure, who 
went down to help with regard to that prosecution, that matter.
    Mr. Gowdy. True or false that Mr. Grindler attended a 
debriefing on Fast and Furious where his own notes indicate the 
seizure of weapons in Mexico.
    Attorney General Holder. That--if you are talking about 
debriefing, if you are talking about the meeting he had with 
the folks from ATF, I guess, in March 2010, 2010----
    Mr. Gowdy. Yes, sir, it is March, and there is a note in 
cursive handwriting, ``Fast and Furious,'' and there was a map 
attached to that of the seizure of weapons in Mexico. And my 
point was, it doesn't take a very good prosecutor to ask how 
the guns got from Phoenix to Mexico.
    Attorney General Holder. Mr. Grindler has testified and 
indicated that what happened in that meeting was that he was 
briefed on the operation and was told that it was essentially a 
successful operation, and no mention of tactics came out of 
that meeting.
    Mr. Gowdy. All right. There was a memo to you through the 
acting deputy AG from the National Drug Intelligence, I can't 
recall his name because I don't have my copy of it. Fast and 
Furious is mentioned specifically, straw purchasers are 
mentioned specifically, and 1,500 firearms are mentioned 
specifically.
    Attorney General Holder. This is what we call a weekly 
report, and I have testified about this I don't know how many 
times. There are a number of these that coming from NDIC. And 
for the record it is from Michael Walther, who is the Director 
of the National Drug Intelligence Center, and these things just 
talk about what is going on with regard to operations. Again, 
there is no mention of tactics in any of these. There is no 
indication that inappropriate tactics are being used in 
connection with the underlying investigation, and that is why 
these things were not brought to my attention by my staff.
    Mr. Gowdy. Well, it mentions 1,500 firearms and it 
mentioning straw purchasers. And, Mr. Holder, despite the 
protestations of some of your staff behind you that you are 
being treated unfairly, I never once said that you were aware 
of it. I said that main Justice was aware of it. I suspect you 
didn't draft the letter on February 4th. My question is, who 
participated in the drafting of it? And I'm out of time, so I 
will go ahead and ask the second question. After that, I would 
hope perhaps at some point, Mr. Chairman, I could ask the rest 
of the questions I have.
    But here of my two questions. Who participated in the 
drafting of it? Because the criminal chief head, Lanny Breuer, 
was in Mexico contemporaneous with the drafting of the February 
4th letter advocating gun walking. Get that image, that visual 
image of a letter being drafted denying gun walking while the 
criminal chief at main Justice is in Mexico advocating for gun 
walking.
    Chairman Issa. The gentleman's time has expired. The 
Attorney General may answer.
    Attorney General Holder. In terms of who drafted the 
February 4th letter, that is obvious from the materials we 
shared from with you, those 1,300 pages or so. I mean, I 
don't--I can't recall all their names, but you will really see, 
I think, virtually everybody, if not everybody, who was 
involved at the Justice Department in the creation of the 
February 4th letter, so you could review that.
    I don't think it is correct to say that while the letter 
was being drafted that Mr. Breuer was in Mexico advocating for 
gun walking. He was in Mexico. And I think you are talking 
about a February 2nd email or report, I guess, from the State 
Department that indicated that what he was talking about was 
the possibility of a surveilled delivery of weapons to people 
who would take them to the border and an arrest made at the 
border, and interestingly, on the Mexican side of the border, 
because the penalties that exist in Mexico for gun trafficking, 
for straw purchasing, are higher than they are here in the 
United States.
    That is what he was proposing. Not gun walking, but 
something very, very different. It was something that was 
raised, ultimately never carried out.
    Chairman Issa. I thank the gentleman. I apologize. There is 
no additional time at this time. We now go to the gentleman 
from Vermont, Mr. Welch, for 5 minutes.
    Mr. Welch. Thank you very much, Mr. Chairman.
    Two things. Number one, I want to express appreciation for 
the hard work of the people of the ATF. This is an incredible 
challenge that they have. We lost a revered officer, Officer 
Terry, in the service of his country, and it is because there 
is a huge problem with guns going from the southwest into 
Mexico. In the past 5 years, 94,000 guns recovered in Mexico, 
over 64,000 are traced to the United States, and every year, 
thousands are transported across the border. You have very few 
tools at Justice to try to deal with that. You have spoken 
about that so I won't ask you.
    But I think it is important for us to ask the question 
whether the point of this hearing is to try to do something 
that is going to help the men and women of law enforcement deal 
with the major problem, or it is going to be something that is 
going to run into one dead end after another without any good 
outcome.
    Second, we get in our own way a little bit here with the 
investigation because it goes off into many different 
directions, largely because we make some allegations that as we 
investigate them and take up staff time, they don't go 
anywhere. And I have great affection for my chairman, who is a 
hard-charging man, but in my experience, sometimes you get 
ahead of yourself on some of the allegations you make. I will 
just mention a few.
    You had indicated, let me get it, one of your allegations 
was that, and I quote, you said that folks made a crisis and 
they are using this crisis to somehow take away or limit 
people's Second Amendment rights. That this hearing has nothing 
to do with that, this whole investigation has nothing to do 
with that.
    Chairman Issa. Would the gentleman yield?
    Mr. Welch. I would be glad to yield.
    Chairman Issa. I will be very brief. When the ATF began 
asking and the Justice began asking for additional directly 
related enforcement, including the idea that every two-rifle 
purchase in fact build to a data base that Congress has 
repeatedly limited in statute on request, it did seem and does 
still seem to this Member as though a crisis created by gun 
walking and Brian Terry's death was, in fact, being partially 
justified by this new requirement at a very inappropriate time, 
at least the optics of it.
    Mr. Welch. I will reclaim my time, but thank you. I would 
disagree. But some of the unsubstantiated allegations though 
were, for instance, the allegations that your office and you 
made--accused Mr. Holder of ``authorizing every aspect of 
this.'' There is no shred of evidence to back that up.
    Last October, an allegation was made that there was a third 
gun because there was an item of evidence marked number 2 and 
number 3. Those were two guns. It turned out item of evidence 
was number one was not a gun, it was I think a blood sample. So 
every time any one of us makes an allegation that is theory and 
conjecture but not based on any solid foundation, it creates a 
lot of consternation among the public, takes staff time and 
ends us into a blind alley.
    Now, the real question has always been what did the 
Attorney General know and when did he know it. In the six 
investigations that we have had or the six that have been 
ongoing, the answer to that is the Attorney General was unaware 
of this activity at ATF.
    Now, Mr. Gowdy has raised a good question here, and I want 
to give you a good chance to answer that. But my understanding 
about Mr. Weinstein is that the discussion there was about 
activities that were taking place during the Bush 
administration, not during this administration, and the fact 
that this tactic may have been used in the Bush administration 
doesn't mean that you knew that it was an ongoing tactic that 
was used in Fast and Furious.
    So I want to just give you an opportunity to try to 
elaborate whatever answer you want to give to the question 
that's been raised by Mr. Gowdy.
    Attorney General Holder. Yeah. The email that I had I guess 
from Mr. Gowdy, and I gave it back, is from Jason Weinstein, 
and he has indicated that the reference that he makes in there 
is not to Fast and Furious but it is to Wide Receiver. He 
testified that it is his email.
    You know, I think in some ways he's the best person to 
determine what his own words meant. I mean, I've looked at it, 
and I appreciate the chairman giving us the opportunity to look 
at it over the course of that couple of minutes. But the email 
is, as I said, Jason's email--Jason Weinstein's email where he 
indicated that he was talking about Wide Receiver and not Fast 
and Furious.
    Mr. Welch. Thank you, Mr. Holder.
    I yield back the balance of my time.
    Chairman Issa. I thank the gentleman.
    If you will yield, I would like to explain something.
    Mr. Welch. I'm out of time. But the chairman, as I 
understand it, has some prerogatives.
    Chairman Issa. Well, I think in the case of an accusation 
of a false statement, I will, briefly.
    Brian Terry's mother and father were told by a law 
enforcement official that they believed there was a third gun. 
The missing number that was later explained seemed to 
corroborate it. Ultimately, though, three people have reported 
that they were told there was a third weapon.
    Now we don't know there was or wasn't. Justice has not 
confirmed whether or not there's a ballistic match on the two 
Fast and Furious weapons there, nor have they confirmed they're 
looking for an additional weapon or an additional shooter.
    I take very seriously getting the facts right. The fact is, 
we report in a limited basis things which in this case the 
press was way ahead of and we said, yes, we're looking into it. 
We did--and I will admit, we did and do get things wrong during 
an investigation. We do go down blind alleys regularly. 
Certainly that's the case. Today's hearing and the 1,300 pages 
out of 6,000 that were directly related to a response to a 
false statement made to us in writing on February 4th is an 
example where a lot of time has been spent going down a false 
thing.
    The gentleman, though, is correct, and this chairman will 
admit, during this investigation, for more than a year, there 
have been times in which we did not get the information right. 
So, while correcting you, I'm not going to say we get it all 
right. Our goal is to get it all right before we publish; and, 
hopefully, each of our publications, majority and minority, is 
where we make sure we only state that which we can substantiate 
with footnotes.
    Mr. Welch. Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    We now go to the gentleman from Florida, Mr. Ross.
    Mr. Ross. Thank you, Mr. Chairman.
    Mr. Attorney General, I want to make sure I understand your 
testimony today and the facts as well. You've indicated today 
that you were not aware of any gun-walking at all until you 
were briefed in, it looks like, 2011. That would have been 
January or February 2011?
    Attorney General Holder. Yeah, January, February 2011.
    Mr. Ross. And you are specifically speaking of gun-walking, 
not just Fast and Furious?
    Attorney General Holder. No, I didn't become aware of Fast 
and Furious until about the same time period.
    Mr. Ross. So you were not aware of any gun-walking, 
including Wide Receiver, prior to the end of January 2011?
    Attorney General Holder. No. I learned of Wide Receiver, 
actually, later on. I became aware of Wide Receiver as we were 
preparing documents to be submitted to this committee.
    Mr. Ross. And without regard to Mr. Weinstein's memo, which 
you were not aware of, so you did not know anything about Wide 
Receiver? I just want to make sure that that's clear.
    Attorney General Holder. No.
    Mr. Ross. So when you said earlier that you were not aware 
of the term Fast and Furious being used, were you aware at the 
time of Mr. Terry's death of any investigation or program that 
was going on as a result of his death?
    Attorney General Holder. As a result of his death. I 
certainly was aware of the fact that there was an investigation 
into who killed him. There was a criminal investigation that 
started December--right at the time of his death, December 
14th, 15th. I was aware of that.
    Mr. Ross. And in fact you testified today that you were 
notified the date of his death, is that correct?
    Attorney General Holder. Yes.
    Mr. Ross. And was that by Mr. Wilkinson?
    Attorney General Holder. I don't know. I'm not sure who 
told me.
    Mr. Ross. If I might refresh your recollection, because, 
pursuant to some of the documents that we received Friday 
evening, we did receive some emails; and one of which was an 
email sent on December 15th. It was an email exchange that 
began from somebody to Dennis Burke, your U.S. attorney in 
Arizona at the time, saying, our agent has passed away. Dennis 
Burke then forwarded that to Monty Wilkinson, who was acting as 
your deputy chief of staff I believe at the time.
    Attorney General Holder. Deputy chief of staff.
    Mr. Ross. On December 15th, at 9:41 a.m., Mr. Burke said: 
Not good, 18 miles within. Thereafter, at 10:04 that morning, 
your deputy chief of staff, Monty Wilkinson, then said in an 
email to Mr. Burke: Tragic. I have alerted the AG, the Acting 
DAG, Lisa, etc.
    Would it then be correct to assume that the way you learned 
of Brian Terry's death was from Mr. Wilkinson himself as a 
result of his statement that he notified you?
    Attorney General Holder. Well, he notified me, but I'm 
saying it's entirely possibly that I knew about it before Monty 
told me.
    Mr. Ross. You have no reason to dispute that Monty told you 
about it?
    Attorney General Holder. I suppose he did. But I'm just 
saying that when it comes to that--when a law enforcement 
death, especially involving a Federal law enforcement officer, 
that's the kind of information that gets to me very, very 
quickly.
    Mr. Ross. And it should.
    Attorney General Holder. Yes, and from a variety of places.
    Mr. Ross. In fact, to follow up on that, in the email 
exchange later at 11:15 a.m. That morning, there was another 
email from Mr. Wilkinson to Dennis Burke saying, please provide 
any additional details as they become available to you, asking 
the U.S. attorney in Arizona, please tell us, Mr. U.S. 
Attorney, we want to know more.
    Later that day, in an email from Mr. Burke, the U.S. 
attorney in Arizona, to Mr. Wilkinson, your deputy chief: The 
guns found in the desert near the murdered BP officer connect 
back to the investigation we were going to talk about. They 
were AK-47s purchased at a Phoenix gun store.
    My question to you, Mr. Attorney General, were you aware of 
this email exchange? Were you aware of an investigation ongoing 
that involved a Phoenix gun store and specifically AK-47s at 
the time?
    Attorney General Holder. No, I wasn't. But what's 
interesting--listen to what you just said. He said that we were 
going to talk about, we were going to talk about, which implies 
that they did not talk about.
    Mr. Ross. Not prior to but subsequent to. Subsequent to the 
death. Mr. Wilkinson has already told you about Brian Terry's 
death. Now he's being informed about an investigation involving 
the slain officer, involving a gun store in Phoenix. Did that 
not raise any sense of awareness? Did it not raise any sense of 
intrigue--if not from Mr. Wilkinson, at least from you--to say, 
what investigation then is ongoing?
    Attorney General Holder. I was not told about this. I was 
unaware of this. And unless there was some indication that----
    Mr. Ross. I appreciate that. But you've testified today 
that you are a hands-on manager.
    Attorney General Holder. What I was saying was that, unless 
there's some indication that the tactics that we are so against 
were employed there, all we know is that this was something--
this was a tragic event connected to an ongoing investigation.
    Mr. Ross. Involving a gun store and an AK-47. What else do 
we have to say, involving a cartel?
    I mean, come on. From December 15th until the end of 
January, you don't learn about a gun-walking operation ongoing 
in your Department? And I'm supposed to go home and tell my 
constituency that that's the facts? Mr. Attorney General, I 
have a hard time believing that.
    And if you are, if you are responsible for those underneath 
your direction, I would assume that those underneath your 
direction would make sure you are fully informed of all 
incidents of significance, including an ongoing investigation 
subsequent to an agent's death.
    Attorney General Holder. What I would say is that, in the 
absence of an indication that these inappropriate tactics were 
used, you have here a tragic death connected to an ongoing 
Federal matter, an ongoing investigation. You know, 
unfortunately, that happens all the time, too many times.
    What makes this case, this situation unique are the 
inappropriate tactics. And I don't think there's any indication 
that Mr. Wilkinson or anybody else was aware of these tactics 
until the January, February timeframe--late January, early 
February timeframe.
    Mr. Ross. So you made no inquiry as to whether this 
investigation involved gun-walking?
    Attorney General Holder. I'm sorry?
    Mr. Ross. You made no inquiry as to the investigation 
involving Brian Terry's death involved gun-walking?
    Attorney General Holder. That information was not brought 
to my attention, so I would not have----
    Mr. Ross. But you made no inquiry.
    Chairman Issa. The gentleman's time has expired.
    Mr. Ross. I'm not asking if it was brought to your 
attention. You yourself made no inquiry with regard to that.
    Attorney General Holder. There was no indication. There was 
no basis for us to believe that gun-walking was at all a part 
of any of this stuff. I didn't know anything about gun-walking 
or the use of that technique until February. And by February 
the 28th, in early March, I said, guess what, we're not doing 
gun-walking. It took me a month--or less than a month--to say 
the gun-walking was inappropriate. Brought to my attention, 
fairly rapid response to say, don't ever do this again.
    Chairman Issa. I thank the gentleman.
    We now go to the gentlelady from California, Ms. Speier, 
for 5 minutes.
    Ms. Speier. Mr. Chairman, thank you.
    Over here, Attorney General. Last person on the totem pole, 
so to speak.
    Chairman Issa. She will be moving up in future years.
    Ms. Speier. Don't count on it.
    In any case, first of all, let me say that I think we can 
stipulate for the record that this hideous chapter in the 
Attorney General's Office dating back to 2006 is one that we 
never want to see repeated. But I think it's important for us 
to recognize that this has been going on for a long time; and, 
but for the death of Agent Terry, would it still be going on 
today? And that's one of the things that continues to trouble 
me.
    For the record, Mr. Chairman, I would like to ask unanimous 
consent to put into the record a memo provided to then Attorney 
General Mukasey in November 2007 in which it specified to him, 
of particular importance ATF has recently worked jointly with 
Mexico on the first-ever attempts to have controlled delivery 
of weapons being smuggled into Mexico by a major arms 
trafficker. While the first attempts at the controlled delivery 
have not been successful, the investigation is ongoing and ATF 
would like to expand the possibility of such joint 
investigations and controlled delivery.
    Chairman Issa. I'm more than happy to have that piece of 
discovery placed in the record. No objection.
    Ms. Speier. Thank you.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2915.100
    
    [GRAPHIC] [TIFF OMITTED] T2915.101
    
    Ms. Speier. Attorney General, were you ever told about 
General Mukasey's briefing regarding controlled deliveries, 
another word for gun-walking?
    Attorney General Holder. I didn't find out about that until 
late in this process as we were developing documents to submit 
to this committee with regard to operation Wide Receiver. I 
didn't know before that.
    Ms. Speier. All right.
    This committee is Government Oversight and Reform, so I 
would like to spend a couple of minutes on the reform side. 
Hopefully, we are not just having these hearings to continue to 
beat up on what is an atrocious chapter in our history, but how 
do we make sure that it doesn't happen again? So speak to me 
about the fact that we do not have a Federal statute on gun 
trafficking.
    Attorney General Holder. We don't have a tool that we 
really need. We need to have an ability to say that gun 
trafficking is inappropriate, it's wrong, and there's a Federal 
criminal penalty for it. And a statute can be drawn in such a 
way that it is respectful of the Second Amendment rights that 
all American enjoy. What I'm talking about are people who are 
doing things for criminal, illicit purposes that put the 
American people at risk and put at risk our colleagues, our 
neighbors south of the border, in Mexico.
    Ms. Speier. What other things do we need in place to avoid 
this kind of activity? From your own testimony, you said that 
you could trace 60,000 weapons, but that's just a small 
percentage of what's really being trafficked from the United 
States into Mexico.
    Attorney General Holder. Well, I think that's right. Sixty-
four thousand weapons have been traced from the United States 
to Mexico. But those are the ones that have been traced. There 
are substantially a greater number of guns that have not been 
traced. We need to have a statute that will make meaningful 
what I think as a crime straw purchasing and make meaningful a 
penalty for people who engage in straw purchasing to get around 
the rules that this Congress enacted and that I am charged with 
enforcing.
    We need to have an ATF head who is confirmed. I'm glad to 
hear the chairman say that he would support that.
    There are other management changes that we have made and, 
as I said before, that are consistent with the minority report; 
and I think that you all have done a really good job in making 
that list--there are actually a couple that we didn't think of 
that I am looking at that I think we will try to implement as 
well.
    There are a whole variety of things that can be done in a 
way that, if we are truly going to put partisan concerns aside, 
put lobbying concerns aside, and have some courage--because it 
will take some courage, because this will not be universally 
approved--we can really make a difference in the lives of the 
American people and protect the lives of law enforcement 
officers.
    Ms. Speier. Have you developed a statute that you could 
provide to the committee around penalizing straw purchasers and 
gun trafficking?
    Attorney General Holder. I can check with our legislative 
affairs folks and see exactly what it is that we have there.
    As I indicated before, Congresswoman Maloney and 
Congressman Cummings have actually put something on paper that 
I think is a good place for us to start, but I can also check 
and see what it is that we have and that we can share with this 
committee.
    Ms. Speier. All right. I would appreciate that.
    My time has expired.
    Chairman Issa. I thank the gentlelady.
    I now ask unanimous consent that discovery documents HOGR 
DOJ 005752, 53, and 54 be placed in the record along with the 
gentlelady's documents from earlier, just immediately before. 
These show Lanny Breuer lobbying for gun-walking in a 
coordinated fashion across the border for people to be arrested 
in Mexico on February 4.
    Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2915.127
    
    [GRAPHIC] [TIFF OMITTED] T2915.128
    
    [GRAPHIC] [TIFF OMITTED] T2915.129
    
    Mr. Cummings. Mr. Chairman, I would just reserve because I 
don't think that accurately describes that document.
    Chairman Issa. Well, the document speaks for itself.
    Mr. Cummings. He's not talking about gun-walking. I thought 
he was talking about a coordinated effort with the Mexican 
Government to follow those guns and then make a cooperative 
effort----
    Chairman Issa. Which is what----
    Mr. Cummings. Not letting it just walk but----
    Chairman Issa. Right. But the definition of gun-walking 
which the minority has chosen to put on Wide Receiver--Wide 
Receiver was a coordinated effort where they followed to the 
border the guns. The problem with Wide Receiver and the reason 
it had to be abandoned is that they found that, as it crossed 
the border, repeatedly they lost control of the guns.
    The program described here in the email related to Mr. 
Breuer is exactly the same program. Now maybe if you do 
something enough times you might get it different in the 
outcome. But the program, the attempt to follow from the store 
to the border and then pass off to Mexican authorities is, in 
fact, Wide Receiver. That was that program which differs from 
Fast and Furious, where in Fast and Furious, they told people 
to peel away and they'd find the guns later.
    There is a distinct difference, but there is no difference 
between what this document shows and the stated Wide Receiver. 
The fact is Lanny Breuer in this document was clearly trying to 
say, let's do Wide Receiver again, but let's get it right this 
time.
    Mr. Cummings. Mr. Chairman, I reserve. I would like to see 
the document.
    Chairman Issa. You have the document. This is DOJ 0057-54.
    Mr. Cummings. Go ahead.
    Chairman Issa. No. You have reserved. I will wait.
    Mr. Cummings. Mr. Chairman, again, I think we have a 
differing opinions of what gun-walking is. I will withdraw my 
reservation.
    Chairman Issa. I thank the gentleman.
    And you are right. We can disagree as to what the document 
means. My discussion was what I believe it means. But you are 
absolutely right. Ms. Speier and myself could both be wrong 
about what the document means, but I appreciate your allowing 
it to be placed in the record.
    I'm going to ask unanimous consent that DOJ 0058-11 and 12 
be placed in the record, but I will reserve myself until the 
minority has a chance to see it and be comfortable with it.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2915.130
    
    [GRAPHIC] [TIFF OMITTED] T2915.131
    
    Chairman Issa. And, with that, we now go to the gentleman 
from Texas who has patiently been waiting down in the cheap 
seats, Mr. Farenthold.
    Mr. Farenthold. Thank you very much, Chairman Issa.
    Mr. Attorney General, I want to follow up on something Mr. 
Ross said, because I think we're looking at management and how 
the DOJ is managed. I think you told him that you were informed 
about Agent Terry's death but never heard anything back about 
it being associated with the guns that walked.
    I'm the kind of person--maybe our management styles are 
different--that if an employee under my charge was killed in 
the line of duty, I would want to be briefed almost on a daily 
basis as to how that investigation is going. I'm asking again, 
you didn't hear for quite some time that the Fast and Furious 
guns were involved in this?
    Attorney General Holder. Well, no. That's correct. I didn't 
hear about that for a while.
    I mean, you know, to draw a distinction here--and I'm 
almost hesitant to do this--we are talking about a brave law 
enforcement officer. Well, it wasn't a part--that doesn't 
matter.
    I was brought up to date about, you know, the ongoing 
investigation, what we were doing at the Justice Department but 
did not hear anything about the connection between that death 
and the gun-walking tactics until, as I said, February 2011.
    Mr. Farenthold. All right. Well, we've been investigating 
Fast and Furious for some time. Y'all have been looking at it 
internally. You've constantly blamed the ATF or the U.S. 
Attorney's Office in Arizona, I think. Mr. Gowdy's made it 
clear through some of his questions that it actually has gone 
up to Main Justice. But I just don't see y'all doing anything.
    There were several questions earlier about what you've 
done. And nobody's been disciplined. Nobody's been fired. There 
hasn't even been a letter put in. I don't think that's good 
management, and I think that's the reason that many of my 
colleagues--myself included--have suggested it might be time 
for you to resign.
    My question is that, knowing what you know about the 
handling of Operation Fast and Furious, do you believe you're 
capable of running the top law enforcement agency in this 
country? And can you tell the taxpayers that you're the most 
qualified person to manage the Department of Justice?
    Attorney General Holder. First off, let me just say we have 
not blamed--I have not blamed the people in Phoenix, either ATF 
or the U.S. Attorney's Office there. I mean, they're good 
people down there. They work hard. And I'm not going to allow 
that to stand in the record. I'm not blaming anybody. We want 
to find out who in those offices might have been responsible as 
well as who at Main Justice is responsible.
    Mr. Farenthold. Don't you think 13 months is a little long 
to run that investigation?
    Attorney General Holder. You have to understand something. 
I don't have the ability to do a top-to-bottom investigation 
here because of the Inspector General's investigation, and I 
have to respect that.
    Now with regard to my capacities to run this Department, 
you know, I'll let the record speak for itself. People have 
differing views in this room about Fast and Furious and my role 
in it.
    Mr. Farenthold. I just have a limited amount of time.
    You've indicated----
    Attorney General Holder. You asked a question, I mean, 
questioning whether or not I should resign. And I don't have a 
chance to respond to that?
    Mr. Farenthold. That's fine.
    Attorney General Holder. Thank you.
    So if you are going to judge me and ask me to resign, as 
you have and as have some of your colleagues, you know, you've 
asked a broad question. And how you judge that, well, you look 
at everything that I've done in this Department for the past 3 
years and you look at the Department and the state that it was 
in when I got here--a dispirited Department that had gone 
through scandals, that had the traditions of the Department 
turned on its head. It had been politicized.
    I will stand on what I've done with regard to the Criminal 
Division, the Antitrust Division, with regard to the Civil 
Division and the fraud money that we've brought in, the great 
work we've done on national security. And if you want to say 
that I am a person not qualified to be Attorney General you 
take that into account as well.
    Mr. Farenthold. Well, then why are we withholding some of 
the deliberative documents, too? That's another one of my 
concerns. Really, a lot of times here in Washington it's not 
what actually happens that you get hung on. It's the cover-ups. 
So I'm concerned that some of those documents are going to show 
some of the theories that have been floated around that maybe 
some delays were put on stopping Fast and Furious based on some 
of the things that the people on the other side of the aisle 
are calling for now in additional and more stricter laws.
    I mean, if there was a political purpose to that, I think 
the American people have a right to know about that. So I would 
urge you to release those documents. Let us look at them and 
let the American people make that decision.
    But I'm almost out of time, and I've learned from the 
testimony here that things tend not to bubble up to your desk 
very often. I did want to make sure that you were aware of an 
operation with the DEA that has two Houston, Texas, based 
pilots being detained in Panama over money laundering. I 
realize that's out of the scope of this investigation. You can 
choose to comment on it or not. But I did want to make sure it 
bubbled up to your level.
    And my time has expired.
    Chairman Issa. I thank the gentleman.
    Will the gentleman yield?
    Mr. Farenthold. Yes.
    Chairman Issa. Just quickly, the minority's not objecting 
to the Cole document from March 10, 2011. So that is placed in 
the record.
    I thank the gentleman.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2915.132
    
    [GRAPHIC] [TIFF OMITTED] T2915.133
    
    Chairman Issa. And with that, we go----
    Mr. Farenthold. Excuse me. Did you wish to answer? You are 
welcome to or not.
    Chairman Issa. The gentleman may respond.
    Attorney General Holder. There is a limited amount of 
information I can talk about that.
    The DEA leadership has told my staff that the incident you 
described in your letter was not a DEA operation. I can't 
respond much more than that. But DEA can provide your staff a 
briefing with regard to that outside of this setting.
    Mr. Farenthold. That's fine. I'm just worried about the 
pilots.
    Attorney General Holder. That's fine. Sure.
    Chairman Issa. I thank the Attorney General. On December 
5th, we actually asked for a briefing on that. We appreciate 
your commitment to that briefing in an appropriate setting.
    Now we go to the very patient gentleman from Missouri, Mr. 
Clay.
    Mr. Clay. Thank you, Mr. Chairman, and thank you, Attorney 
General Holder, for, once again, coming before the committee.
    Our job on this committee is oversight. It is to examine 
the facts and come to conclusions. People of good faith may 
disagree. Reasonable people can look at the same evidence and 
come to differing conclusions.
    In this case, we're not looking at evidence and then coming 
to conclusions. Rather, the majority is not looking at evidence 
and coming to conclusions. The majority came to a conclusion 
before any facts were examined, before any evidence was 
produced, before any witnesses were given the opportunity to 
testify. And that conclusion was that there was a scandal, a 
scandal that the majority could exploit for political gain, an 
Obama administration scandal that could garner the majority the 
splashy headlines they promised when they took control of this 
committee.
    Remember now, this is when the chairman of this committee 
promised the American people that he would hold seven hearings 
a week times 40 weeks. These plans weren't reflective of actual 
evidence, of actual facts already gathered that would determine 
the number and pace of hearings. This was at a time when, flush 
with victory, the majority began to display the hubris that 
would be their hallmark for the last 13 months.
    Chairman Issa. Would the gentleman yield?
    Mr. Clay. Not yet. This was at a time when the incoming 
chairman on the committee said that President Obama has been 
one of the most corrupt Presidents in modern time. Since then, 
we have sat through politicized hearing after politicized 
hearing and we have seen the majority level wild accusations 
against the administration with absolutely no basis in fact. We 
have watched the majority berate witnesses. We have heard the 
majority accuse witnesses of lying. We have seen the majority 
attempt to deny us the right to call our own witnesses, and we 
have seen what we see here once again today.
    The majority has been and is accusing the administration, 
the Justice Department, the Attorney General of participating 
in a vast conspiracy. The chairman has compared the Fast and 
Furious operation with Iran-Contra. This was a completely 
irresponsible comparison. Iran-Contra was, indeed, a vast 
conspiracy, one that reached directly to the Oval Office, and 
evidence proved that.
    It is irresponsible to take that gavel to assume the grave 
responsibility of leading this committee and to wield the power 
to subpoena, the power to call and examine witnesses, the power 
to investigate like a political instrument, solely like a 
political instrument, to accuse the AG of--no, I won't repeat 
the irresponsible wholly manufactured accusation, but to do so 
without evidence is irresponsible.
    Now there is evidence Fast and Furious was a fatally flawed 
operation. We know that from the evidence. We also know from 
the evidence that an Attorney General knew about flawed failed 
gun-walking operations. We know this from the documents 
produced by the Justice Department. However, that was Attorney 
General Mukasey in President Bush's administration.
    So we have evidence of knowledge at the highest level of 
the Justice Department about a bad, flawed policy. Does the 
majority call former Attorney General Mukasey to testify? Does 
the majority examine the full history of these operations in a 
fair and responsible manner? Does the majority even attempt to 
avoid the appearance that this is a politically motivated 
attack?
    I think from the evidence we know the answer to those 
questions; and, Mr. Chairman, I will now yield the balance of 
my time to the ranking member.
    Chairman Issa. The ranking member has 5 seconds.
    Mr. Cummings. Mr. Chairman in light of the latitude that 
you've given on your side, I would ask for 2 minutes. Unanimous 
consent.
    Chairman Issa. Any objections?
    Without objection, the gentleman from Missouri has an 
additional 2 minutes.
    Mr. Cummings. Thank you very much.
    I'm going to look at this organizational chart, Attorney 
General, and I see every single person with immediate 
supervisory responsibility of Operation Fast and Furious has 
been removed or reassigned.
    Let's look at ATF. Here are the people that have been 
removed from their management positions and from any 
operational roles: the director, the deputy director, the 
assistant director, the deputy assistant director, the special 
agent in charge, the assistant special agent in charge, and the 
group's supervisor. Is that right?
    Attorney General Holder. I can't see the bottom of the 
chart, but I think that's all accurate.
    Mr. Cummings. Similarly, at the U.S. Attorney's Office in 
Arizona, all of the key personnel involved in Fast and Furious 
have resigned, been removed, or been reassigned: the U.S. 
attorney, the criminal chief, the section head, and line 
prosecutor. Is that right?
    Attorney General Holder. I believe that's all correct as 
well.
    Mr. Cummings. One of the criticisms is that no one has been 
actually fired. Can you explain why you are waiting to take 
final personnel actions against some of these employees?
    Attorney General Holder. Well, I don't want to single those 
people out, because the universe is actually larger than that. 
But certainly one of the things that I'm going to take into 
consideration is what we find from the Inspector General report 
and what factual findings that she makes in addition to the 
material that I have just gotten I guess over the past couple 
of days, the minority report.
    I think the chairman's right. There are a couple of 
majority reports I should look at as well before I make final 
determinations.
    Mr. Cummings. Would a confirmed director of ATF be able to 
improve management supervision?
    Attorney General Holder. Oh, I don't think there's any 
question about that.
    Again, Todd Jones has done a great job, and he has put in 
place great number of reforms and has done a lot of the things 
that you are pointing up to there on the ATF side. But I think 
you need to have a person with the prestige of a Senate 
confirmation to really run an agency in the way that we would 
like it to be run.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Issa. I thank the gentleman, and I thank you for 
making my point that no one in Washington has been held 
accountable.
    And, with that, we go to the gentleman from Pennsylvania, 
Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman.
    Chairman Issa. Another cheap seat, I'm afraid. You will 
move up, though.
    Mr. Kelly. I hope so.
    The real reason we're here today--and I appreciate your 
being here. I know you've gone through a lot of questioning. 
And the fact that it's not a political hearing, I understand 
that. But I'm getting a little bit confused, because we keep 
going back to the political side of it.
    To me, this is about trust. And you're the highest-ranking 
law enforcement official in the country. And when the people 
lose trust in an agency, that's a very difficult thing to 
recover, if you can recover it at all.
    And I go back to a couple of quotes, and these are ones 
that you will recognize.
    One is: ``Transparency is the best thing.'' That's from 
you, by the way, in January 2009. ``For a long time now, 
there's been too much secrecy in this city. Let me say it as 
simply as I can, transparency and the rule of law will be the 
touchstones of this presidency.''
    So we always hear this talk about we're going to be 
transparent, we're going to be clear. And then the only thing 
that I hear that I'm clear on is that you were never onboard 
with any of these things. No matter what it was, you know what, 
I never was informed.
    And I'm not questioning your management style. I come from 
an industry that if you lose somebody's confidence, it's very 
hard to get it back.
    Now we can keep talking about this for a long time. But 
what I'm amazed about is that since 2009, 2010, 2011, there is 
very little information about what happened. When we go back to 
2006 in a previous administration, we can very clearly 
demonstrate what they did and what they did not do.
    And what I'm really bothered by is a letter from the 
Department of Justice--and we've already made reference to it. 
And this is to Senator Grassley. This responds to your letters 
dated January 27, 2011, and January 31, 2011, to Acting 
Director Kenneth Melson of the Bureau of Alcohol, Tobacco, 
Firearms and Explosives, ATF, regarding Project Gunrunner: We 
appreciate your strong support for the Department's law 
enforcement. At the outset, the allegation described in your 
January 27th letter that ATF sanctioned or otherwise knowingly 
allowed the sale of assault weapons to a straw purchaser who 
then transported them into Mexico is false. ATF makes every 
effort to interdict weapons that have been purchased illegally.
    And then on that very same day: Below is a synopsis of 
Assistant Attorney General Lanny Breuer's meetings with the 
Mexican Attorney General's Office, Mexican Federal Police, and 
the Secretary of Foreign Relations.
    Now who else was there? AAG Breuer, Deputy Chief of Mission 
John Feeley from the State Department, DAAG Blanco, Kevin 
Sundwall. All these folks are here, and at the end of it here's 
what they come up with:
    AAG Breuer told Ventura that there had been a proposed 
increase in U.S. sentencings or guidelines for straw 
purchasers. AAG Breuer suggests that a letter from the SRE or 
PGR in support of increased sentencing guidelines for straw 
purchasers may be useful. The proposed cross-border operation 
AAG Breuer suggested allowing straw purchasers cross into 
Mexico so SSB can arrest and PGR can convict and prosecute 
these folks. Such coordinated operations between the United 
States and Mexico may send a strong message to arms 
traffickers.
    And now it is preposterous for me to sit here and listen 
thatyou, as the highest law enforcement officer in the country, 
say, but I didn't know. I didn't know. See, that's the problem. 
I just didn't know. Had I known, I would have changed it. And 
had I known earlier, I wouldn't have waited until December 2nd 
of this year to pull the message that Breuer had sent. I 
wouldn't have allowed the February 4, 2011, letter to be 
entered into it.
    Don't you see where the problem is, Mr. Attorney General? 
It isn't that you say I didn't know or I wasn't quite aware of 
it. The problem is the American public relies on you, sir, to 
follow all those guidelines. You are the chief officer.
    And then to come before this body and for us then to be 
accused of some type of a political agenda, this isn't a 
Republican issue or a Democrat issue. This is a United States 
of America issue.
    So you have your AAG down in Mexico saying, yeah, it's a 
good idea. We're going to keep doing it. And then you have 
people back home saying, you know what, we never did that, and 
we don't want it to go on.
    Is there any wonder then the American people have lost 
trust and lost faith in this system? Absolutely not. The fact 
that they still hang on to a thread of it goes back to what 
they know the country was to be in the beginning and what it 
still can be.
    But when you continue to find out that those who are 
responsible don't do their work and at the end of the day they 
don't say, you know, it happened on my watch; it's my fault. 
What they say is, it happened in the previous administration 
and, doggone it, the people who were supposed to brief me never 
briefed me.
    I can't believe that the transition from the last 
administration to this administration, there was no briefing? I 
mean, there may have been--the AGs may have turned, but I 
betcha the same people were still on. So to say that we really 
didn't know about it to me is absolutely preposterous, and 
that's something that I can't accept.
    If you go back to northwest Pennsylvania, you know what 
integrity is? It's saying what you mean and meaning what you 
say. And don't run around the outsides of it. Go right to the 
middle and tell people what happened.
    You know what I would appreciate you saying? You know what? 
I didn't have the foggiest idea what was going on. I went after 
the people that handled it and handled it poorly, and they are 
no longer involved.
    Chairman Issa. The gentleman's time has expired.
    We go to the gentleman from Ohio, Mr. Kucinich, for 5 
minutes.
    Mr. Attorney General, we're going to get you close to 1. 
We're down to about six people left.
    Go ahead, Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman, members of 
the committee.
    I want you to know, Attorney General--I'm sorry I'm late to 
this hearing, but my wife and I were at the prayer breakfast 
this morning. And I knew this meeting started at 9, and we were 
still at the prayer breakfast, and we were praying for you.
    Attorney General Holder. I can't complain about that.
    Mr. Kucinich. Well, let me tell you, based on what I've 
seen, I think my prayers have been answered. Because, frankly, 
I haven't seen anyone make a case about you not performing your 
duties in the way that you should, and I want to go over that 
right now.
    You and senior Justice Department officials have repeatedly 
been accused of authorizing the gun-walking tactics used in 
Fast and Furious. We already have the record about what my 
chairman has said. He said, ``there's no question that high-
ranking officials at Justice were briefed and rebriefed, and 
many of them had direct contacts in authorizing the program. 
They now call it a failed program when in fact the very 
concept, the very way they wanted it to be executed was deadly 
and dangerous.''
    Now none of the 22 witnesses that this committee has 
interviewed supported that claim. And I want to look at, for 
the moment, the Department of Justice organizational chart, 
which is relevant here.
    Of course, you know, the DOJ, you are at the top. ATF 
reports to you through the Deputy Attorney General.
    The former head of the ATF--and I emphasize the word 
``former''--Kenneth Melson told us that the controversial 
tactics were never raised to my level. He said he was not aware 
of gun-walking and never brought it to the attention of senior 
DOJ officials.
    Now Mr. Melson's second in command, William Hoover, also 
told the committee staff he did not know of the gun-walking 
tactics in Fast and Furious. He said it was his ``firm belief 
that the strategic and tactical decisions made in this decision 
were born and raised in Phoenix.''
    Now, Mr. Attorney General, can you corroborate their 
statements to the committee? And did the head of ATF or his 
deputy ever warn you that gun-walking was occurring?
    Attorney General Holder. No, I never got that from either 
Mr. Melson or from Mr. Hoover.
    Mr. Kucinich. Well, I want to go back over this chart 
again, because it's really important for Members to have an 
understanding here.
    You've got the U.S. attorney in Arizona, the ATF--the ATF, 
Mr. Hoover, Mr. Melson. ATF didn't report anything to the 
Deputy Attorney General. The U.S. attorney for the district of 
Arizona didn't put any information through to the Deputy 
Attorney General. So what I want to know is, all of this talk 
about resignation, we're really devaluing the whole concept of 
asking a top-level official to resign when you haven't reached 
the level of proof that something was right on his desk. No 
one's proved that at all. But we keep talking about 
resignation.
    If we cheapen this whole idea of just--you don't like 
someone, you ask them to resign. You don't like an 
administration, you ask people to quit. You cheapen that idea. 
It makes this whole committee process less significant.
    And I want this committee to be important. I chose to be on 
this committee when I first came to Congress because government 
oversight is a very important function. I want to support my 
chair's call for this hearing, even though it's the sixth 
hearing. You must feel like Tom Hanks in the movie Groundhog 
Day because we keep coming to the same point. But you know 
what? You have an obligation to come to us, nevertheless.
    So look at that chart. Hold that up again, please. All this 
information, all these assertions, they never got to the 
Attorney General. Now why? Whether you like him or not, you've 
got to be able to make the case, and the case has not been made 
here that the Attorney General, Eric Holder, was in any way 
derelict in his duties. And those on the other side of the 
aisle know me well enough that if I thought that he was I 
wouldn't hesitate to say it.
    So I think that we've got to be very careful here with 
people's reputations, because reputations take a lifetime to 
build. They can't just be trashed in a minute without facts. 
After a while, this is starting to sound like Alice in 
Wonderland or Through the Looking Glass, where you've got the 
queen saying, sentence first, verdict afterwards.
    The sentence is resignation, resign. But we haven't made a 
fact pattern that would suggest that we should have that 
conclusion raised to the level of the President having to take 
the action because you serve at the pleasure of the President.
    So I just want to say, whatever disagreements that we may 
have on certain policies, I don't see anything that's been 
produced here today that should cause you to have to stop 
serving the people of the United States of America. And I just 
want that on the record, haven't seen the facts that would show 
otherwise.
    Thank you.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Idaho, Mr. Labrador, for 5 
minutes.
    Mr. Labrador. Mr. Chairman, thank you.
    I'm glad that the minority has made a point that I've been 
trying to make for a long time: Government is too big and has 
too many layers of bureaucracy.
    But I'm one of the first people who asked for your 
resignation, and I did it after thinking about it for a long 
time. And in my statement when I asked for your resignation I 
said that, in your testimony before Congress, you either lied 
or you were grossly incompetent in your actions when it came to 
finding out about Fast and Furious and your handling of this 
matter.
    The reason we keep bringing you back to Congress is because 
we want to know what you knew and when you knew it. It's a 
simple question. But the problem is that, even though you have 
testified six times up here on this matter on differing 
occasions, your story continues to evolve and continues to 
change. In fact, today your story changed a little bit.
    So let's talk about the facts. Everybody wants the facts. 
So let's talk about the facts here.
    On May 2011, you said in the Senate Judiciary that you 
first heard about Fast and Furious a few weeks ago. In November 
2011, you said that a few weeks was inaccurate and that you 
should have said a couple of months. Emails released on January 
28th show that you were informed by your deputy chief of staff 
of Agent Terry's death; and you just testified today that, yes, 
that is correct, on December 15, 2011.
    And this is what I am trying to get to right here. On that 
same day--and it's already been shown--your deputy chief of 
staff learned that the guns used to kill Agent Terry were from 
Fast and Furious. So what you want us to believe is that you 
were told about the death of Agent Terry but you chose not to 
ask any followup questions on that same day about what caused 
the death of Agent Terry and that, in fact, you didn't learn 
about the connection between the death of Agent Terry and Fast 
and Furious until a couple of months later.
    That's what you want us to believe. And that's fine. That 
may be the truth. But you can continue to come to Congress--
that may be the truth. That's fine. I don't have a problem with 
it. You continue to come to Congress unprepared. Don't you 
agree that this is a pattern that you have of dealing with 
difficult questions and embarrassing issues in your office, 
continuing to come to Congress unprepared?
    Attorney General Holder. I think it's very interesting what 
you just said: That may be the truth. What I said may be the 
truth.
    Mr. Labrador. Yeah, it may be the truth. I'm not disputing 
it. I'm saying, but you continue to come to Congress 
unprepared. Wouldn't you admit that you continue to come to 
Congress unprepared when you have to testify? Where you have to 
change your statements, you have to withdraw memos from your 
office, isn't that a fact?
    Attorney General Holder. No.
    Mr. Labrador. Okay. Let's look at that. Let's look at the 
facts. If we could go to the slides, please.
    When you came to Congress on February 14, 2001, you were 
being asked about Mr. Mark Rich's pardon. It says, ``Mr. Rich's 
name was unfamiliar to me. I had gained only a passing 
familiarity with the underlying facts of the Rich case.''
    Go to the next slide. ``I did not acquaint myself with his 
record.''
    Let's go to the next slide. ``I never actually saw that 
letter.''
    There's a pattern here that we continue to hear in your 
testimony.
    Let's go to the next slide. ``You're right.''
    Mr. Cummings. Mr. Chairman, you said at the beginning that 
this would be limited to Fast and Furious; and here we are--I'm 
seeing something up there from 2001.
    Mr. Labrador. I'm just showing a pattern of behavior.
    Mr. Cummings. We've honored that. And I have been very 
strict with my people on this side to stay within the 
parameters that the chairman set. And, as a matter of fact, I 
thought we've done a pretty good job so far.
    Chairman Issa. The gentleman will suspend.
    I'm going to limit what he can do to anything that he wants 
to say related to management style. And the Attorney General 
does not have to answer any questions. I don't actually see a 
question here.
    I have heard time and time again people talking about gun 
control and the need for it and a number of other items. 
Expressing an opinion within the 5 minutes by a Member of 
Congress is something I have limited authority. The gentleman 
has only 5 minutes. I do not expect the Attorney General to 
answer, although in defending himself in this case he may 
choose to. And I would caution the gentleman from Idaho to get 
to the management question quickly because this is about Fast 
and Furious.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Labrador. Okay.
    Next slide. ``You're right. I didn't have the ability to 
look at all the materials.''
    Next slide, please. ``I have not had a chance--'' on May 
13, 2010, when you were testifying about Fast and Furious, 
``I've not had a chance to. I have glanced at it. I have not 
read it.''
    Next slide, please. ``I have no recollection of knowing 
about Fast and Furious''--on October 7, 2011.
    Next slide, please. On October 7, 2011: ``On a weekly 
basis, my office typically receives over 100 pages and weekly 
reports that are provided.''
    Next slide, please. ``I certainly never knew about the 
tactics employed in the operation.''
    Next slide, please--and this is on February 14, 2001: ``And 
I think the one thing that would have changed this whole thing 
is if I had said to the person on my staff, what's the status 
of the Rich matter?''
    I believe that's what would have changed, and we would have 
avoided the six hearings that we have had about this matter, is 
if you would have just asked a simple question of your staff 
before you came to testify in Congress: What did we know about 
Fast and Furious, and when did we know it?
    You failed to do that. You failed to do that under the Mark 
Rich investigation, and you failed to do it on this case, and 
this is why we continue to have these hearings.
    Mr. Attorney General, I believe the American people deserve 
better. I believe that the American people deserve to have an 
Attorney General that they can trust. And for that reason, I 
have asked for your resignation. And I believe that, because 
you have been grossly incompetent in the way that you have 
prepared before coming to Congress, I think you should resign.
    Thank you very much.
    Ms. Norton. Mr. Chairman, I just want to note for the 
record, this gentleman could have had a whole pattern that 
begins with Fast and Furious, but he insisted----
    Chairman Issa. Does the gentlelady state a point of order?
    Ms. Norton. It was a violation of the rules you yourself, 
Mr. Chairman, set----
    Chairman Issa. Madam Norton, the rules of the House 
severely limit my ability to impede your 5 minutes of opinion 
or his 5 minutes of opinion. I have cautioned Members. I have 
made it very clear the witness will not be expected to answer 
any questions that are not on the narrow subject of Fast and 
Furious.
    Staff will show you the rules that limit how much I can 
stop----
    Ms. Norton. Mr. Chairman, if I may say, it seems to me that 
that interpretation of the rule was clearly not before us 
before. And I am going to have to ask, sure, if it's the 
right--it has been my view all along that a Member may ask 
about what time it is on the Moon in her 5 minutes. I never had 
a chairman before try to keep me from using my First Amendment 
rights. But since that had been your rule and this isn't the 
first time you have invoked it, I tried to honor it.
    Chairman Issa. I thank the gentlelady for her comment.
    I have the ability to limit the scope of a hearing. I've 
tried to protect the Attorney General from answering questions 
which were not within the scope of his preparation. I respect 
the gentlelady's right to use her 5 minutes to state opinions, 
and I have never stopped somebody from it, although I have 
cautioned.
    It is the intent of this committee to keep this from being 
anything other than a legitimate investigation as to Fast and 
Furious and conditions that occurred around the investigation 
of a number of committees. So I appreciate the gentlelady's 
comment and would recognize for 10 seconds the gentleman from 
Ohio.
    Mr. Kucinich. I just want to correct the record. It was 
suggesting that it was Bill Murray, not Tom Hanks, in Groundhog 
Day. So I just want to make sure that, you know, I thought that 
you may have felt like Bill Murray in Groundhog Day, not Tom 
Hanks.
    Chairman Issa. I thank the gentleman. And, for the record, 
it was 38 days in a row in which that repeated itself for 
Groundhog Day.
    Attorney General Holder. Mr. Chairman, if I could just say 
one thing in response to Mr. Labrador.
    Chairman Issa. Of course.
    Attorney General Holder. That was among the worst things I 
think I've ever seen in Congress. You took a whole series of 
statements out of context, with no context----
    Mr. Labrador. With all due respect, the worst thing I've 
ever seen----
    Chairman Issa. The gentleman's time has expired.
    Attorney General Holder. And, you know, the Mark Rich thing 
was considered in my confirmation. We talked about it then. 
There are a whole bunch of things that I could say about what 
you just did. And maybe this is the way you do things in 
Idaho--or wherever you are from.
    But understand something. I'm proud of the work I've done 
as Attorney General of the United States. And looked at fairly 
I think that I've done a pretty good job. Have I been perfect? 
No. Have I made mistakes? Yes. Do I treat the members of this 
committee with respect? I always hope that I do.
    And what you have just done is, if nothing else, 
disrespectful. And if you don't like me, that's one thing. But 
you should respect the fact that I hold an office that is 
deserving of respect.
    And, you know, maybe you are new to this committee. I don't 
know. I don't know how long you have been here. But my hope 
would be that, you know, we can get beyond that kind of 
interaction, that kind of treatment of a witness, whether it's 
me or somebody else. Because I think in some ways what you did 
was fundamentally unfair, just not right.
    Chairman Issa. I thank the gentleman.
    We now go to the senior member of the committee from 
Pennsylvania, Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I certainly appreciate 
your efforts on this important issue.
    Mr. Attorney General, I guess first I'd just comment, most 
of my line of questions or questions have been addressed, 
asked, and answered, and I am not going to repeat what others 
have already addressed.
    To the last exchanges, I guess I have two comments:
    For the most part, I agree with what you just said and 
consider the gentleman from Idaho a friend and don't share the 
approach in this instance that he took. And I think your points 
of a reminder of civility are important.
    Along with that, I also share the frustration I think 
that's coming through in his presentation or others on both 
sides of the aisle that what this is all about is a courageous 
American who died in the line of service to this country and 
that the actions of others in service to this country may have 
played a role because of mismanagement of a program or 
outrageous conduct relating to gun trafficking and that we stay 
focused on that.
    The frustration is that, apparently, the Inspector General 
has thousands of pages of documents that this committee, in 
trying to do legitimate oversight, has not been privy to; and 
the sooner this committee on both sides of the aisle have 
access to the same information, the sooner the efforts of this 
committee can be achieved in a nonpartisan, just good 
government fashion.
    So I think we all need to keep the focus. This is about how 
do we make sure that the death of a servant of this Nation 
never is repeated in the circumstances that we see in here.
    So with my questions being asked and answered, I'm going to 
yield. I know the gentleman from South Carolina has something 
he didn't get to finish up. So I am going to yield him the 
balance of my time.
    Mr. Gowdy. I thank the gentleman from Pennsylvania.
    I just want to circle back, Mr. Attorney General, with 
respect to the October 12, 2010, email, Mr. Weinstein and Mr. 
Trusty. And I am happy to provide you a copy if you do not have 
one.
    You would agree with me that Fast and Furious is mentioned 
specifically in that email exchange?
    Could I ask that the clock be tolled, Mr. Chairman, while--
--
    Chairman Issa. We will suspend, and we'll give him back the 
document again.
    Attorney General Holder. I have it in front of me. This is 
October 14th, October 17th, and October 18th.
    Mr. Gowdy. That's correct. If you need time to familiarize 
yourself with it, take all the time you want.
    Attorney General Holder. That's fine. No, I'm okay.
    Mr. Gowdy. Would you agree with me that Fast and Furious is 
mentioned specifically in that email exchange?
    Attorney General Holder. Yeah. I guess this is the October 
17th from Jason Weinstein to James Trusty.
    Mr. Gowdy. And both of those gentlemen are Main Justice 
employees, correct?
    Attorney General Holder. That's right.
    Mr. Gowdy. And you would agree with me that gun-walking is 
mentioned specifically, correct?
    Attorney General Holder. Yes. In the second line. Number of 
guns that have walked.
    Mr. Gowdy. Yes, sir. And it is actually mentioned in both 
the exchanges, guns that have walked and then somebody says 
gun-walking. So that's two references to it.
    Now can you find the phrase ``Wide Receiver'' anywhere in 
that email?
    Attorney General Holder. I can't see this very well, but 
I'm just going to assume that, given the tenor of your 
question, that the term Wide Receiver does not appear in here. 
But Mr. Weinstein testified that when he was talking about a 
tricky case he was referring to Wide Receiver in the Sunday, 
October 17th, email.
    Mr. Gowdy. And I can't speak to that, Mr. Attorney General. 
My point is this: Leading up to February 4th, a letter was 
being drafted--and I'm much more concerned with the name at the 
top of that letter than I am the name at the bottom. The name 
Department of Justice means something to me. The name at the 
bottom of it, not so much.
    While that letter was being drafted, there are people in 
Main Justice who knew the body of that letter was incorrect, 
factually incorrect. And while that letter was being drafted, 
the criminal chief Lanny Breuer was in Mexico talking about 
gun-walking.
    Do you know whether or not he alerted our Mexican 
counterparts that Fast and Furious was something that they 
needed to be prepared to deal with because of the number of 
weapons? Did he at least mention to them, be alerted; a lot of 
weapons went down there; a lot of your civilians are going to 
be killed?
    Attorney General Holder. Well, first I would say yes, there 
were people at main Justice who did have that knowledge of Wide 
Receiver and who admitted they did not make the connection 
between Wide Receiver and Fast and Furious, and that should 
have happened, and that could changed the February 4th letter. 
Lanny Breuer was not down there talking about gun walking as we 
have used that term during the course of these last 4 hours or 
so when he was dealing with the people in Mexico.
    And I don't remember the third question----
    Mr. Gowdy. Well, I actually don't like interrupting 
witnesses, but I am almost out of time. I am going to read a 
summary. And this isn't my summary. This is from a DOJ attache 
named Tony Garcia. The summary reads, ``Mr. Breuer suggested 
allowing straw purchasers crossing into Mexico so Mexican 
police can arrest and Mexican prosecutors can prosecute and 
convict.'' Mr. Garcia then wrote a summary saying what a 
horrible idea that was for the very reasons we have been 
talking about for the last hours, that people were going to die 
and weapons were going to get away from us.
    So my time is out. I just want to ask one more question.
    Chairman Issa. Very, very briefly.
    Mr. Gowdy. Very briefly. Has there been discussion at main 
Justice of either a grant of immunity to Mr. Cunningham so we 
can know what it is that he feels the need to invoke his Fifth 
Amendment right to not say? Have you discussed granting him 
immunity, and has there been a conversation by calling for a 
special prosecutor who may want to issue that grant of 
immunity?
    Attorney General Holder. We have not discussed immunity or 
a special prosecutor. I think that would be for you-all to ask 
us, if that is something you want to have considered. I will 
say I don't know exactly why he invoked his Fifth Amendment 
privilege, but I can say that in the preparation of that 
February 4th letter that he was involved in, I don't have any 
basis to believe that he knowingly provided with us any false 
information. But, again, I don't know why he invoked his 
privilege. He has a lawyer from a very good law firm here in 
D.C., and I am not sure why he did that.
    Chairman Issa. The gentleman's time has expired.
    Mr. Cummings. Mr. Chairman, just 5 seconds. I just want to 
say to Mr. Gowdy, we have answered all your questions that you 
asked about Weinstein in our report, and it comes from 
documents that were during the testimony and before our staffs.
    Chairman Issa. I thank the gentleman. We now go to the 
gentleman from Oklahoma, Mr. Lankford.
    Mr. Lankford. Mr. Attorney General, thank you for being 
here, your testimony. It is a long day and you dealt with this 
topic a lot. I know you also did not want to see the death of 
Brian Terry. None of us did. This was a horrible incident that 
we are dealing with a lot of consequences of over time because 
we want to make sure it never happens again. We have heard loud 
and clear from you, you want to make sure this never happens 
again, and I appreciate that.
    What I want to do is talk briefly about ATF and the 
structure there. Obviously this was an acting director. You 
have to have concerns, have extra there, you have extra 
attention to it in the management based on an acting director 
and the transitions and all that has happened with ATF on it.
    The structure with the FBI, and if they are going to go for 
an undercover operation, they have a field office proposal that 
goes through the supervisor in charge, it goes through 
headquarters, it goes through legal. Then legal has to 
determine is this entrapment, is this fully within the bounds 
of that. A U.S. attorney may get involved in it at some point, 
and then it goes up to headquarters if it involves a certain 
amount of money and a length of time and such. So it has a very 
lengthy process getting all the way up to the Department of 
Justice on that.
    Is that a similar process to what ATF also does to be able 
to approve an operation like this undercover?
    Attorney General Holder. I am not sure that it is as robust 
as what you have just described with regard to the FBI, but it 
is certainly----
    Mr. Lankford. But that is consistent with the FBI process, 
is that correct?
    Attorney General Holder. I am sorry?
    Mr. Lankford. Is that the right process for FBI that they 
go through?
    Attorney General Holder. I think the FBI process is a good 
one, and I think that what we need to do is have, not only with 
regard to ATF but all the other investigative agencies within 
the Justice Department, make sure that we have similar 
procedures in place. That is one of the things that I have 
talked about with Todd Jones, the Acting Director who is in the 
process of making changes at ATF.
    Mr. Lankford. Because that is the concern obviously, to put 
in a system and structure to make sure this never, ever happens 
again. It is one thing to talk about it after the fact. It is 
another thing to try to fix it so it doesn't become such a 
bureaucratic maze that nothing happens, but it also makes sure 
there are some checks and balances, that we are not doing 
entrapment, that someone else is checking it, that it is 
getting up to your office. If it wasn't getting to your office 
or something like this before, let's try to make sure it does 
in the future day get up to DOJ. So that is something in 
process.
    What is the timeframe on that for a decision and a shift on 
that that is occurring?
    Attorney General Holder. You know, I mean, I would hope 
this is something we can do over a matter of a relatively short 
number of months. I think to do this right, we need to have 
buy-in from people who are at ATF headquarters, people who are 
in the field, so they have an ability to express their views 
and so that they will accept--these are things that are 
probably going to be changes in the way in which they have 
operated. So I think we are talking about a matter of months 
before we have those kinds of things in place.
    Again, Todd has really made significant changes. He is 
working real hard at this. But I think the concern that you 
have expressed is one that I agree with. We should make sure 
that we have processes in place to minimize the possibility 
that what we are talking about today, and legitimately talking 
about today, never happens again.
    Mr. Lankford. Right. The last thing I want to say to the 
Terry family at some point is this occurred and nothing has 
happened to make sure it never occurs again, that there is some 
way to be able to say this is never going to occur again as 
long as it is on any of our watch on it.
    Let me make a quick side statement and then I am going to 
yield back to the chairman as well. This is not something that 
I expect you to answer on it. It is a comment that I want to be 
able to make. It is off topic on it, so I am going to tell you 
that.
    Yesterday this committee had a hearing dealing with the 
constitutional issues and the repercussions of the President's 
appointments to the NLRB and CFPB in January. Obviously your 
Department is very involved in that in the constitutional 
statement.
    In 2010, Deputy Solicitor General Neal Katyal was before 
the Supreme Court and Chief Justice Roberts asked him 
specifically, can the NLRB, a question, be resolved with a 
recess appointment? Neal Katyal at that time----
    Ms. Norton. Mr. Chairman, it looks like there is another 
violation of your rule coming up.
    Chairman Issa. The gentlelady is out of order.
    Mr. Lankford. I already prefaced this by saying I do not 
anticipate this--I am making a statement. I do not expect the 
Attorney General to respond to this.
    So Neal Katyal made this statement to the Supreme Court 
saying that a recess appointment could not be done if it is 
less than 3 days. So there was an opinion by him on that before 
the Supreme Court dealing specifically with the NLRB. Two years 
later, Justice came back out and came out with a statement 
saying no, that is legal, so there was a transition.
    Mr. Chairman, what I would hope for at some point is to be 
able to have some conversation to say what changed between 2010 
and 2012 in Justice, that at one point they considered it not 
legal and 2 years later considered it legal and appropriate at 
that point. So obviously I am not expecting--that is not in 
your preparation on that, but that is something we just dealt 
with as a committee yesterday, and I would hope at some future 
day we would deal with.
    Chairman Issa. I thank the gentleman. There is no question 
there.
    Attorney General Holder. If I could just----
    Chairman Issa. Are you yielding to me?
    Mr. Lankford. I do yield back.
    Chairman Issa. I will give you time for a quick close.
    The evidence that you have given us through discovery that 
on February 4th, Lanny Breuer was, in fact, talking about a 
program that included guns passing over the border in the hopes 
that they would be intercepted, well, in fact, on March 10th in 
the Cole email there is a statement I will read verbatim here. 
``As I said on the call, to avoid any potential confusions I 
want to reiterate the Department's policy as though existing. 
We should not design or conduct undercover operations which 
include guns crossing the border. If we have knowledge that 
guns are about to cross the border, we must take immediate 
action to stop firearms from crossing the border, even if that 
permanently terminates or otherwise jeopardizes an 
investigation.'' That is a complete paragraph.
    Can you, in fact, answer for this committee how you have 
counseled or changed Lanny Breuer from a man who flew to Mexico 
and said I want to have guns crossing the border to this, which 
says there is a policy and it is wrong, and we have only got a 
month in between them?
    Attorney General Holder. Well, clearly what was proposed 
in, I guess, February by Lanny Brewer was in contravention of 
the policy that I had the Deputy Attorney General make clear to 
everybody at main Justice and to the field. And to the extent 
that there is a tension, the policy that Mr. Cole has laid out 
is the policy of the Justice Department and is the thing that I 
support.
    Chairman Issa. I want to thank you. I am not going to ask 
any more questions. You have been very generous with your time.
    I want to reiterate just one thing. We can't undo 
everything that was said here. The effort was made for this to 
be narrowly about Fast and Furious. I believe that two other 
committees, Senate Judiciary, House Judiciary, had each one 
time in which the primary reason for you being called was not 
normal oversight, but in fact, related to Fast and Furious and 
the letter that followed. We believe we have had one crack at 
it also, and we appreciate your coming three times to three 
separate committees. And that we appreciate.
    In closing, I do believe there are people at Main Justice 
who ultimately do need to go. If you are a political appointee, 
you should not be reassigned if you are in some way culpable in 
something like Fast and Furious. I have never accused you of 
having personal knowledge. This committee has never accused you 
of having personal knowledge. One of our Members went on quite 
a bit about the alternative of either you knew or should have 
known. I share that, that, in fact, Justice has to have a 
bubble-up system that holds specific people accountable for 
specific levels of action.
    This committee would hope, under our reorganization and 
organizational side, not our investigation side, that we can 
continue working with Justice so that we can have a comfort 
level, along with the Judiciary Committees, that those systems 
are put into place so that in the future, if something like 
this happens, we know that, for example, a person signing a 
wiretap would also be a person who would understand the level 
of the operation being described in great detail, and you 
described it as this thick a document, and it often is.
    So I appreciate what you came here to do. This committee is 
obviously widely divided on details of Fast and Furious and the 
letter that followed.
    I said I would let you have the last word. So, Mr. Attorney 
General, you have the last word.
    Attorney General Holder. Well, Mr. Chairman, I would just 
say----
    Chairman Issa. Would the gentleman suspend.
    Mr. Cummings. Just 30 seconds.
    Chairman Issa. Thirty seconds of, course.
    Mr. Cummings. I just wanted to go back very quickly, Mr. 
Chairman, to something that Mr. Gowdy was asking about with 
regard to Mr. Weinstein, and just wanted to make it part of the 
record, this transcript page 121, where he says, ``Okay, first 
of all, let me clear up the confusion that you noted about the 
pronouns. When I say it is a tricky case given the number of 
guns that have walked, I am talking exclusively about Wide 
Receiver.'' I just wanted to say that.
    Thank you, Mr. Attorney General.
    Chairman Issa. Thank you. As we said, you have the last 
word, Mr. Attorney General.
    Attorney General Holder. Well----
    Chairman Issa. Briefly.
    Attorney General Holder. As I said, you and I talked before 
the hearing began, and I just want to say that you, the ranking 
member, the members of this committee have treated me fairly, 
with one exception, one glaring exception, and I have talked 
about that. The questions you have asked have been tough, they 
have been fair, and I share what was indicated, a desire to 
make sure that we have in place mechanisms so that the thing 
that brings us here today is something we will never have to 
discuss again.
    I think there are a variety of things that we can work on 
as people who are dedicated to the safety of the American 
people, and I look forward to working with the members of this 
committee across party lines to try to reach those kinds of--
successfully reach those kinds of solutions.
    Chairman Issa. I thank you, General Holder. We stand 
adjourned.
    [Whereupon, at 1:20 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Dan Burton and Hon. Paul 
A. Gosar follow:]

[GRAPHIC] [TIFF OMITTED] T2915.102

[GRAPHIC] [TIFF OMITTED] T2915.103

[GRAPHIC] [TIFF OMITTED] T2915.104

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
